<html>
<title> - KEEP WHAT YOU CATCH: PROMOTING TRADITIONAL SUBSISTENCE ACTIVITIES IN NATIVE COMMUNITIES</title>
<body><pre>[Senate Hearing 115-415]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-415
 
                    KEEP WHAT YOU CATCH: PROMOTING 
                 TRADITIONAL SUBSISTENCE ACTIVITIES IN 
                           NATIVE COMMUNITIES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 20, 2018

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
 
 
 
 
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
33-836 PDF                  WASHINGTON : 2019         
 
 
         


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               BRIAN SCHATZ, Hawaii
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MIKE CRAPO, Idaho                    TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 20, 2018....................................     1
Statement of Senator Barrasso....................................     5
Statement of Senator Hoeven......................................     1
Statement of Senator Murkowski...................................     4
Statement of Senator Smith.......................................    42
Statement of Senator Udall.......................................     2
    Prepared statement...........................................     3

                               Witnesses

Brown, Hon. Roy B., Chairman, Northern Arapaho Tribe.............    11
    Prepared statement...........................................    13
Hardin, Jennifer, Ph.D., Subsistence Policy Coordinator, Office 
  of Subsistence Management, U.S. Fish and Wildlife Service......     6
    Prepared statement...........................................     8
Peltola, Mary Sattler, Executive Director, Kuskokwim River Inter-
  Tribal Fish Commission.........................................    15
    Prepared statement...........................................    16
Romero-Briones, A-Dae, J.D., LL.M, Director of Programs, Native 
  Agriculture and Food Systems, First Nations Development 
  Institute......................................................    25
    Prepared statement...........................................    26

                                Appendix

Bartley, Kevin, Rural Resident of Alaska, prepared statement.....    47
Linnell, Karen, Executive Director, Ahtna Intertribal Resource 
  Commission, prepared statement.................................    51
Response to written questions submitted by Hon. Catherine Cortez 
  Masto to:
    Jennifer Hardin, Ph.D........................................    63
    A-Dae Romero-Briones.........................................    60
    Mary Sattler Peltola.........................................    52
Written questions submitted by Hon. Catherine Cortez Masto to 
  Hon. Roy B. Brown..............................................    66


                    KEEP WHAT YOU CATCH: PROMOTING 
        TRADITIONAL SUBSISTENCE ACTIVITIES IN NATIVE COMMUNITIES

                              ----------                              


                        WEDNESDAY, JUNE 20, 2018


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. I call the meeting to order.
    Good afternoon. I would like to thank our witnesses for 
being here.
    Today, we will examine subsistence hunting and fishing in 
tribal communities and evaluate how Congress, the 
Administration, tribes, and tribal organizations can work 
together to alleviate regulatory limitations on this 
traditional way of life.
    Subsistence involves the harvest of local resources for 
local consumption. Many Indian tribes across the Country have 
practiced and maintained a subsistence lifestyle for thousands 
of years. This way of life has provided fundamental benefits, 
from supplying critical food sources to preserving culture. 
Subsistence is prevalent among Indian communities across the 
Country.
    In the Pacific Northwest, American Indians and Alaska 
Natives harvest, process, distribute and consume millions of 
pounds of wild animals, fish and plants. These practices are 
critical for the cultural longevity and economic vitality of 
these tribal communities. In the Midwest, tribes engage in 
traditional hunting and fishing, something I enjoy very much 
myself.
    All over the Nation, Native communities show tremendous 
care for the land and environment. However, government policy 
can often limit their ability to live out this subsistence 
lifestyle.
    As the original stewards, tribes have demonstrated 
conservation practices for their natural resources. It is 
important that the Federal Government enact subsistence 
policies that promote the interests of their communities.
    Both overregulation and lack of oversight can affect the 
availability of, and access to, tribal resources. Federal 
involvement in natural resource management, through laws such 
as the Endangered Species Act, must be balanced.
    The government should not dictate what Native communities 
can or cannot do on their own lands or disrupt the exercise of 
their hunting and fishing treaty rights. It has been several 
Congresses since this Committee has held a hearing examining 
this important topic.
    I want to thank our witnesses for being with us this 
afternoon.
    Subsistence policies that fully accommodate tribal 
interests are vital to the health and cultural survival of 
tribal communities. I look forward to hearing the 
recommendations of our witnesses on how this Committee and this 
Congress can help support subsistence and traditional ways of 
life in Indian Country.
    With that, I will now turn to Vice Chairman Udall for his 
opening comments.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven, for calling 
today's hearing on traditional subsistence practices.
    Subsistence not only means nourishing communities with 
traditional foods but also feeding generations with traditional 
knowledge that sustains, grows and keeps Native communities 
together.
    To begin, I would like to give a special welcome to today's 
witness from the First Nations Development Institute, A-Dae 
Romero-Briones. A-Dae is originally from beautiful Cochiti 
Pueblo in my home State of New Mexico. Thank you very much for 
being here.
    Today's hearing is a great opportunity to highlight the 
importance of traditional, ecological knowledge, or TEK, as a 
way to promote and maintain traditional subsistence practices 
in Native communities. TEK is used by tribes, Federal agencies 
and others stakeholders to overcome environmental barriers to 
subsistence on a collaborative basis. TEK is a body of 
knowledge, beliefs and practices passed down from generation to 
generation in indigenous communities around the globe.
    In the U.S., Native communities use TEK-based techniques to 
achieve balance and sustainability in cultivating traditional 
foods while also providing for spiritual and cultural well 
being. For example, Tsuki Pueblo in New Mexico is creating 
tribal seed banks to ensure that heirloom seeds are available 
for both sustenance and ceremonies.
    Despite the enormously important role TEK and subsistence 
plays in Indian Country, climate change poses a grave threat to 
the ability of Native communities to access traditional foods. 
That loss goes beyond sustenance and eliminates a community's 
way of life like hunting, fishing, trapping, farming and 
forestry. Drought, in particular, has threatened traditional 
farming practices in my home State which are renowned as a 
benchmark for sustainable agriculture in an arid environment.
    Decreased snow pack increases the occurrence of devastating 
wildfires causing ripple effects far and wide, including the 
loss of plans and wildlife important to subsistence uses. 
Coastal tribal communities from the Wampanoag in Massachusetts 
to the Quileute in Washington are experiencing the damaging 
effects of climate change on their water and subsistence 
rights.
    Ancient Hawaiian fish ponds are another ecologically and 
culturally significant subsistence resource that is vulnerable 
to climate change impacts including ocean acidification and sea 
level rise.
    All of these examples are serious threats to the ability of 
Native communities to gather, hunt and cultivate traditional 
foods. That is why we in Congress should do all we can to 
promote and work with tribes to develop TEK-based solutions to 
climate change and other threats to traditional subsistence 
practices.
    This Congress, I have worked with others on this Committee 
to support the use of regional and community-specific TEK 
solutions. S. 2804, CROPS for Indian Country, promotes TEK-
based solutions for food programs and forestry management by 
authorizing tribes to use 638 contracting to manage food 
programs and forestry activities at the USDA. It also directs 
the Government Accountability Office to investigate marketplace 
protections for traditional tribal foods.
    The legislative provisions in the CROPS Act put important 
tools for environmental management back into the hands of 
tribes and advance TEK-based solutions for the effects of 
climate change on customary and traditional subsistence 
practices. We can take important legislative steps, like the 
CROPS Act, to support tribal food sovereignty but we must also 
use today's hearing to discuss how we can support greater use 
of TEK to address the effects of climate change.
    I look forward to this panel's testimony.
    Mr. Chairman, I would also like to put a statement into the 
record dealing with the issue of family separation. I am just 
going to put it in the record.
    This has caused great concern within my Native communities 
in New Mexico. We have heard from the National Congress of 
American Indians which feels this goes back to a very sad 
chapter in their lives.
    I just want to put that statement into the record, with 
your permission.
    The Chairman. Without objection.
    [The prepared statement of Senator Udall follows:]

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico
    Subsistence is a way of life for tribal communities that depends on 
passing traditional ecological knowledge down between generations. 
Today, we are going to talk about modern threats to subsistence, such 
as climate change. But, it was not that long ago that the major threat 
to subsistence--to all traditional practices--was the federal Boarding 
School policy.
    Members of this Committee are well aware that the Boarding School 
Era is one of this country's most tragic periods--when Presidents and 
Congress allowed Native children to bear the brunt of federal policies 
designed to solve the ``Indian problem''.
    And, even though we are decades removed from that misguided era, 
the impacts of cultural and community disruption still reverberate 
today. We hear it repeatedly in the testimony of Tribal leaders and 
Native youth who come to speak with the Committee.
    Our response, as Members of Congress, has always been to pledge: 
``never again''.
    Well, we are now called to uphold that pledge. The Trump 
Administration actions are an attempt to write another chapter of the 
Boarding School era, this time for immigrant families. It is once again 
putting forward a federal policy that tears children from the arms of 
their mother and fathers--this time to solve the ``border problem.''
    We cannot--in good conscience and as Members of this Committee--let 
this practice disrupt another generation. While the President just 
announced he would sign an Executive Order ending his inhumane policy 
of separating families at the border, I remind my colleagues here today 
that we cannot be too vigilant.
    And, we must not consider this matter settled until the details of 
this Order are known and every last child is returned to their 
families.

    Senator Udall. Thank you.
    The Chairman. I will turn to Senator Barrasso in a minute 
for purposes of an introduction but are there other opening 
statements before we proceed to the witnesses? Senator 
Murkowski.
    Senator Murkowski. Mr. Chairman, I, too, would like to be 
able to introduce the Alaska witnesses. Whatever is the 
Chairman's preference, now or later?
    The Chairman. Are there other opening statements?
    [No audible response.]
    The Chairman. We will proceed to the witnesses. I will 
defer on Dr. Hardin and Chairman Brown. We will start, Senator 
Murkowski, with you.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Chairman. I appreciate the 
Committee scheduling this hearing today to examine the 
importance of traditional and customary subsistence activities 
in our Native communities.
    I want to recognize Dr. Hardin, the Subsistence Policy 
Coordinator at the Office of Subsistence Management for Fish 
and Wildlife in Anchorage. I am pleased that you are here.
    I would also like to thank my friend, Mary Sattler Peltola, 
for being here before the Committee to testify today. Mary's is 
the first Executive Director of the Kuskokwim River Inter-
Tribal Fish Commission.
    This fish commission was established in 2015 and has been 
doing good and important work for us since that time.
    Mary was born and raised in Kwethluk, a pretty small Yupik 
village located on the Kuskokwim River. She has been a 
subsistence fisherman her entire life, I think, and is raising 
a young family also very engaged in subsistence fishing as her 
ancestors did for thousands of years.
    She is a leader in her community, in her region and in the 
State. I had the privilege of serving with Mary when we were 
both in the Alaska State Legislature. I think it is fair to say 
that we were favorites, we liked one another and worked very 
well together.
    Today, you will hear from Mary how vitally, vitally 
important fish and wildlife resources are to the food security 
of Alaska Natives and how these resources are really the 
cornerstone of Alaska Native cultures and our economic systems 
in rural Alaska.
    Sometimes the Federal and State governments exclude our 
tribes from the subsistence management of these resources. Many 
of you may know and some may not know Alaska's fish and 
wildlife resources are dually-managed with different management 
systems or regimes on State and Federal lands.
    This causes some confusion and frustration for many 
residents around the State. The Federal Subsistence Board was 
created through regulation to manage the Federal side of this 
dual regime and continues to be a point of contention among 
many, including the view the Federal Government has failed to 
prioritize management decisions for subsistence to ensure we 
are seeing healthy and abundant populations for consumption.
    You will hear from Mary this afternoon about the 
significance of priority for protecting the subsistence way of 
life through maximum self-determination and how critical that 
is to our tribes.
    Organizations, like the Kuskokwim River Inter-Tribal Fish 
Commission, are a great opportunity for Alaska and our tribal 
communities to coordinate the management of our fish and 
wildlife resources, to work to get the information moving 
smoothly, and to integrate the traditional knowledge that is so 
key and important with our State and Federal research.
    I thank you, Mary, for being here, for traveling the long 
distance, for your leadership, and for really helping to show 
the way when it comes to co-management of our resources. Thank 
you so much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Barrasso.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you, Mr. Chairman. I appreciate 
your holding this hearing today and the opportunity I have to 
introduce Chairman Roy Brown.
    As Chairman of the Northern Arapaho Tribe in Wyoming, 
Chairman Brown is uniquely qualified to discuss the ways 
culture, ecology and wildlife management affect life along the 
Wind River Range.
    Wyoming is home to a wide variety of wildlife, elk, mule 
deer, pronghorn, sage grouse and the Wind River Reservation is 
no exception. Situated along the east face of the Wind River 
Range, the reservation has vast grasslands, rich riparian 
areas, and mountainous terrain.
    Managing each of those ecosystems is carefully done, both 
in the tradition and with the knowledge of the Northern Arapaho 
and Eastern Shoshone wildlife managers, but also in cooperation 
with the U.S. Fish and Wildlife Service and the Wyoming Game 
and Fish Department.
    That careful management is complicated by many natural 
factors, including drought, fire and flood. Management has also 
been made more difficult by the failure to manage other factors 
as well.
    I know today Chairman Brown plans to share with us the 
ecological damage that wild and feral horses have had in 
Wyoming. This situation is not unique to the Wind River 
Reservation. A number of other tribes and States have grappled 
with the challenge of managing horse populations on tribal 
lands and in areas managed by the Bureau of Land Management.
    Across the grasslands of Wyoming, forage is a valuable 
commodity. The elk, pronghorn, and the bison were reintroduced 
to the Wind River in 2017. When forage quantity wanes, then 
wildlife moves on.
    Changes to migration patterns have a ripple effect 
throughout the food chain and fundamentally, change the 
generations' long tradition of subsistence activities. Hunting 
also plays an integral part in the food security in Wyoming 
where snowstorms and other inclement weather can delay 
deliveries to local grocery stores.
    Chairman Brown will relate similar challenges on the Wind 
River. I know he will make clear that subsistence is not 
limited to Alaska and the Pacific Northwest. The tradition, the 
value and the importance of subsistence activities continue to 
be evident in Wyoming.
    Last year, the Northern Arapaho and Eastern Shoshone 
partnered with a number of groups, including the University of 
Wyoming, to plan a research project to understand the role of 
elk on the Wind River Reservation.
    As we talk about the importance of continuity in migration 
corridors and effective wildlife management, it is more 
important than ever to recognize the historic and cultural 
impacts wildlife management can bring.
    Chairman Brown, thank you for traveling through delayed 
flights and storms yesterday to share your perspective with us 
today.
    Thank you, Chairman Hoeven, for holding the hearing.
    The Chairman. Thank you, Senator Barrasso.
    We will turn to our witnesses. Again, I want to thank all 
of our witnesses for being here, Dr. Hardin, Chairman Brown, 
Ms. Peltola and also Ms. Romero-Briones. Thank you all for 
joining us.
    We will begin with Dr. Hardin.

       STATEMENT OF JENNIFER HARDIN, Ph.D., SUBSISTENCE 
           POLICY COORDINATOR, OFFICE OF SUBSISTENCE 
           MANAGEMENT, U.S. FISH AND WILDLIFE SERVICE

    Dr. Hardin. Thank you, Chairman Hoeven, Vice Chairman Udall 
and members of the Committee, for the opportunity testify today 
on the subsistence harvest of natural resources on Federal 
public lands in Alaska under the Alaska National Interest Lands 
Conservation Act of 1980, ANILCA.
    Alaska Native peoples have depended on have depended on the 
harvest and use of natural resources for food, shelter, 
clothing, transportation and handicrafts, trade, barter and 
sharing for thousands of years. These subsistence practices are 
interwoven with their unique cultural identities and social 
ways of life. In more recent history, non-Native peoples living 
in rural Alaska have come to rely on natural resources for 
their social and economic livelihoods as well.
    My testimony today focuses on the Federal Subsistence 
Management Program which oversees the subsistence harvest of 
wildlife and fish on Federal public lands and waters by rural 
Alaska residents in compliance with Title VIII of ANILCA.
    ANILCA prioritized the taking of fish and wildlife for non-
wasteful subsistence purposes over the taking of those 
resources for other purposes on Federal public lands in Alaska. 
As a result of the State Supreme Court ruling, the Federal 
Government has managed subsistence harvest on Federal public 
lands and waters since 1990.
    ANILCA emphasizes the need to balance subsistence 
opportunities with the conservation of healthy populations of 
fish and wildlife in order to ensure the continuation of a 
subsistence way of life for future generations.
    Striking this balance is also a central tenet of the 
traditional ecological knowledge expressed by rural Alaskans 
engaged in a subsistence way of life. In Title VIII, 
subsistence priority encompasses approximately 50 percent of 
the land within the State of Alaska and applies to both Alaska 
Native and non-Native rural residents.
    The subsistence hunting and fishing practices Title VIII 
protects reflect the vital relationships between land, culture, 
cultural identity and the people in rural Alaska. Subsistence 
harvest is also the cornerstone of food security for many rural 
Alaskans, the vast majority of whom have only intermittent 
access to village stores and limited ability to purchase 
expensive foods these stores carry.
    The multi-faceted, highly collaborative Federal Subsistence 
Management Program emphasizes a bottom-up approach which 
involves five Federal agencies, a Federal and public member 
decision-making board, ten subsistence regional advisory 
councils, partnerships with Alaska Native and rural 
organizations and the State of Alaska, as well as robust 
stakeholder input.
    The ten subsistence regional advisory councils provide a 
direct conduit for local and traditional ecological knowledge 
in the decision-making process. Each council holds at least two 
public meetings every year to gather local information and make 
recommendations to the Federal Subsistence Board on subsistence 
take.
    The FSB is statutorily-required to follow these 
recommendations except under certain circumstances. In turn and 
before making any regulatory decisions, the FSB also holds 
regular meetings to engage in tribal consultation, accept 
comments from the public, the FSB's technical review committee 
and from the State of Alaska. In addition, the board solicits 
comments from the public throughout the year.
    To date, the FSB has adopted more than 90 percent of 
regional advisory council recommendations regarding the take of 
fish and wildlife on Federal public lands. Title VIII of ANILCA 
provides guidance on how the Federal subsistence priority 
should be implemented in the event available resources cannot 
feed all harvest demands.
    The law emphasizes a multi-phased approach that reduces the 
number of authorized users or usage in order to ensure the 
subsistence priority is provided to as many federally-qualified 
users as possible.
    The ability to restrict or eliminate wildlife and fish 
harvest by non-federally qualified users in order to prioritize 
the continuation of the harvest practices of rural Alaskans is 
a unique characteristic of the Federal program that is highly 
valued by rural Alaskans.
    In conclusion, I want to emphasize that management of 
natural resources under Alaska's intersecting laws and agency 
mandates is complex, especially in light of declining 
populations of critical subsistence resources. Nevertheless, 
one of the program's greatest strengths is its bottom-up 
approach that relies on direct input from the local people who 
will be personally affected by the FSB's decisions.
    The Federal Subsistence Management Program will continue 
working to balance the harvest needs of rural subsistence users 
with the conservation mandates of land management agencies 
while considering the diverse values of the many user groups 
seeking opportunities to hunt and fish on Federal public lands 
in Alaska.
    Thank you and I would be happy to answer any questions.
    [The prepared statement of Dr. Hardin follows:]

   Prepared Statement of Jennifer Hardin, Ph.D., Subsistence Policy 
 Coordinator, Office of Subsistence Management, U.S. Fish and Wildlife 
                                Service
    Good afternoon Chairman Hoeven, Vice Chairman Udall, and Members of 
the Committee. I am Jennifer Hardin, Subsistence Policy Coordinator for 
the Office of Subsistence Management in Alaska, within the U.S. Fish 
and Wildlife Service. Thank you for the opportunity to testify before 
the Committee regarding the subsistence harvest of natural resources on 
Federal public lands in Alaska under the Alaska National Interest Lands 
Conservation Act (ANILCA).
    The customary and traditional harvest and use of natural resources 
for food, shelter, clothing, transportation, handicrafts, customary 
trade barter and sharing, commonly called ``subsistence,'' has a long 
history in Alaska. Alaska Native peoples have depended on subsistence 
for thousands of years and these practices are interwoven with their 
unique cultural identities and social ways of life. In more recent 
history, non-Native peoples living in rural Alaska have come to rely on 
natural resources for their social and economic livelihoods as well.
    The management of subsistence harvests of natural resources in 
Alaska is complex. It is governed by a variety of laws dictating who 
and what resources are eligible to harvest. For example, management of 
subsistence harvest of marine mammals is governed by the Marine Mammal 
Protection Act (MMPA). Under the MMPA, coastal dwelling Alaska Natives 
may harvest marine mammals for subsistence purposes or for the creation 
and sale of authentic native handicrafts or articles of clothing.
    Management of subsistence harvest of migratory birds is governed by 
the Migratory Bird Treaty Act (MBTA). The MBTA was amended to allow for 
spring/summer subsistence harvest of migratory birds by Alaska Natives 
and permanent resident non-natives with legitimate subsistence hunting 
needs living in designated subsistence hunting areas in Alaska.
    The customary and traditional harvest of land mammals, fish outside 
of marine waters and upland birds in Alaska is governed by Title VIII 
of ANILCA. For the Committee's purposes today, my testimony will focus 
on the Federal Subsistence Management Program, which is charged with 
implementing the relevant provisions included in Title VIII of ANILCA.
Background of the Alaska National Interest Lands Conservation Act 
        (ANILCA)
    ANILCA, which was passed in 1980, is a wide-ranging lands law that 
established more than 100 million additional acres of Federal land in 
Alaska, thereby enlarging federal holdings dedicated to conservation in 
Alaska to more than 131 million acres. Recognizing the unique 
characteristics of Alaska and the long history and important role of 
the subsistence way of life in Alaska, Congress established, through 
Title VIII of ANILCA, a priority for the taking of wild renewable 
resources on Federal public lands in Alaska for subsistence uses by 
Native and non-Native rural Alaskans. The Federal subsistence priority 
applies on approximately 50 percent of the lands within the state of 
Alaska.
    Title VIII of ANILCA gave the State of Alaska the opportunity to 
implement the Federal subsistence priority for rural Alaskans on 
Federal lands. The State did so until 1989 when the State Supreme Court 
ruled in McDowell v. State of Alaska that providing a subsistence 
priority based on rural residency, as required by ANILCA, is 
unconstitutional because it violates several clauses of the Alaska 
State Constitution, including a clause that says that fish, wildlife 
and waters are reserved to the people for common use. As a consequence 
of this decision, the Federal government has engaged in subsistence 
management within Alaska's Federal public lands and waters since 1990.
    In Title VIII of ANILCA, Congress found that the continuation of 
the subsistence way of life by rural Alaskans is essential to their 
physical, economic, traditional, cultural and social existence. Title 
VIII established a priority for the taking of fish and wildlife for 
nonwasteful subsistence purposes on Federal public lands in Alaska over 
the taking of those resources for other purposes. The subsistence 
hunting and fishing practices that are protected by ANILCA reflect and 
are an expression of vital relationships between people, land and 
cultural identity in rural Alaska.
    The subsistence way of life is also a cornerstone of food security 
in rural Alaska. Approximately 34 million pounds of wild foods are 
harvested annually by rural Alaskans, which equates to about 275 pounds 
per person annually. If rural Alaskans did not have access to 
subsistence foods, substitutes would have to be purchased. Alaska is 
twice the size of the state of Texas but has only about 15,000 miles of 
public roads, most of which are gravel. The lack of roads in Alaska 
means that a large portion of rural residents have only limited access 
to stores. The variety of foods in many village stores is quite limited 
and the cost of store bought foods is prohibitively high for many rural 
Alaskans.
    ANILCA emphasizes the need to balance subsistence opportunity with 
conservation of healthy populations of fish and wildlife in order to 
ensure the continuation of the subsistence way of life for future 
generations. In striking this balance, Congress echoed a central tenet 
of the traditional ecological knowledge that guided resource management 
long before the passage of ANILCA and is consistently expressed today 
by rural Alaskans engaged in the subsistence way of life.
Federal Subsistence Management Program
    The Secretaries of the Interior and Agriculture have delegated 
authority to manage the subsistence priority on Federal public lands to 
the Federal Subsistence Board (FSB). The FSB is comprised of eight 
members, including: the Regional Directors of the U.S. Fish and 
Wildlife Service, National Park Service, and Bureau of Indian Affairs; 
the State Director of the Bureau of Land Management; and the Regional 
Forester of the U.S. Forest Service. Three public members who represent 
rural subsistence users are also members of the board, and one serves 
as the FSB's chair. The public board members are appointed by the 
Secretary of the Interior, with the concurrence of the Secretary of 
Agriculture. The FSB establishes all Federal subsistence hunting, 
trapping, and fishing regulations for fish and wildlife addressed by 
ANILCA.
    The Federal Subsistence Management Program (Program) is multi-
faceted, highly collaborative and, reflects a ``bottom-up'' approach to 
management. The Program involves five Federal agencies, a Federal and 
public-member decisionmaking board, 10 Subsistence Regional Advisory 
Councils, partnerships with Alaska Native and rural organizations, as 
well as with the State of Alaska, and robust stakeholder input.
    Subsistence Regional Advisory Councils are a large part of what 
makes Alaska's Federal Subsistence Management Program unique. Title 
VIII required the establishment of at least six subsistence resource 
regions, with each having an advisory council whose members are local 
residents with knowledge of subsistence practices and uses in their 
respective areas. Alaska is currently divided into ten subsistence 
resource regions, each with its own Federal Advisory Committee Act 
(FACA) chartered subsistence regional advisory council to reflect 
subsistence harvest and cultural differences within the state and also 
balance population representation.
    The Subsistence Regional Advisory Council system provides a direct 
conduit of local and traditional ecological knowledge in the 
decisionmaking process. This approach has been crucial to the Program's 
success. Each Council holds at least two public meetings every year to 
gather local information, and make recommendations to the FSB on 
subsistence issues. On issues related to the take of fish and wildlife 
within their respective regions, the Secretary (or his delegate, the 
FSB) is statutorily required to defer to the recommendations of the 
regional advisory councils unless a recommendation is not supported by 
substantial evidence, violates recognized principles of fish and 
wildlife conservation, or would be detrimental to the satisfaction of 
subsistence needs. To date, the FSB has adopted more than 90 percent of 
regional advisory council recommendations regarding the take of fish 
and wildlife on Federal lands.
The Federal Subsistence Priority
    The Federal Subsistence Management Program's focus on the 
sociocultural aspects of subsistence activities distinguishes it from 
other hunting and fishing programs. Title VIII explicitly defines 
``subsistence uses'' as ``customary and traditional.'' Customary and 
traditional uses are essential components of the subsistence way of 
life for rural residents in Alaska, and as such, once recognized by the 
FSB, are protected under ANILCA, to the maximum extent possible. These 
recognized practices, along with rural status, define the pool of 
federally qualified subsistence users who are eligible for the 
subsistence priority on Federal public lands.
    The Board recognizes customary and traditional subsistence uses by 
adopting specific determinations, which identify the fish stocks and 
wildlife populations that have been customarily and traditionally used 
for subsistence by rural residents of specific communities or areas. 
The framework for making Federal customary and traditional use 
determinations is outlined in the Federal subsistence implementing 
regulations.
    The implementing regulations list eight factors that exemplify 
customary and traditional uses. The factors emphasize a pattern of use 
that includes the sharing of knowledge and resources across the 
generations. The eight factors make clear that customary and 
traditional uses are part of a community's cultural, social, economic 
and nutritional wellbeing, affirming and codifying that the subsistence 
way of life in rural Alaska encompasses more than simply the 
acquisition of calories. Furthermore, the factors acknowledge that the 
methods and means of subsistence harvest are characterized by 
efficiency and economy and, therefore, changes to community practices 
over time are expected with the development of new technologies. At 
times, this has created challenges for the FSB when faced with 
regulatory proposals seeking to authorize in regulation hunting or 
fishing practices under Title VIII of ANILCA that conflict with 
agencyspecific regulations prohibiting such practices.
    The eight-factor analysis applied by the FSB when considering 
customary and traditional use determinations is intended to protect 
subsistence use rather than limit it. Because of the important role of 
subsistence in rural Alaska, it is assumed that customary and 
traditional use determinations will necessarily be broad and inclusive. 
The Federal Subsistence Management Program does not employ a rigid 
checklist approach to assessing the eight factors. Instead, analyses in 
the Federal program take a holistic approach and the eight factors 
serve as a framework for considering whether an area or community 
generally exhibits the eight factors characteristic of customary and 
traditional uses. The regional advisory councils and the FSB recognize 
that there are regional, cultural, and temporal variations throughout 
the state and the application of the eight factors will likely vary by 
region and by resource depending on actual patterns of use. Therefore, 
the eight factors that characterize customary and traditional uses are 
applied in a manner that provides maximum flexibility to address 
regional variations across the state and offer protections for the 
subsistence way of life in rural Alaska.
    Customary and traditional use determinations are not intended to 
restrict harvest or allocate resources among Federally qualified 
subsistence users. However, Title VIII of ANILCA also provides guidance 
on how the Federal subsistence priority should be implemented in the 
event that there are not enough resources available to meet all harvest 
demands on Federal public lands. The Federal prioritization process 
provides a multi-phased approach that reduces the number of users or 
uses authorized on Federal public lands. This process is generally 
triggered by threats to the conservation of healthy populations of fish 
or wildlife, threats to the continuation of subsistence uses, or 
threats to the viability of a fish stock or wildlife population. While 
the subsistence prioritization process often reduces the number of 
users and uses permitted on Federal public lands, the overall intent of 
these restrictions is to continue to provide harvest opportunity to as 
many users as possible in the long run.
    When populations of fish or wildlife are abundant enough to support 
the harvest demands of all user groups and uses, then all harvest 
authorized by the State of Alaska as well as those authorized in 
Federal subsistence regulations for Federally qualified subsistence 
users are allowed on Federal public lands. However, if a conservation 
concern or increasing competition requires a reduction in harvest, 
ANILCA requires that subsistence uses by Federally qualified 
subsistence users are prioritized over other consumptive uses on 
Federal public lands. The ability to restrict or eliminate harvest by 
non-Federally qualified users due to threats to the continuation of 
culturally important harvest practices of rural Alaskans is a unique 
characteristic of the Program that is highly valued by rural Alaskans. 
This aspect of the Program has received greater focus and attention as 
the program has matured with the meaningful infusion of traditional 
ecological knowledge shared by rural Alaskans. ANILCA also stipulates 
that subsistence uses by rural Alaskans may be eliminated on Federal 
lands only in cases when there is a looming threat to the viability of 
a fish, shellfish or wildlife population.
Federal Subsistence Regulatory Process
    Stakeholders and the general public play a vital role in initiating 
changes to Federal subsistence fishing, hunting and trapping 
regulations, and providing input on proposed changes to ensure 
regulations meet the needs of subsistence users while also conserving 
healthy populations of fish and wildlife. Any individual or group can 
submit proposals to request changes to the Federal subsistence 
regulations or the areas and users eligible for the subsistence 
priority. The FSB very rarely generates proposals to change Federal 
subsistence regulations. Instead, changes are almost exclusively 
initiated by users or resource managers through an annual public 
process.
    The FSB receives administrative and technical support from the 
Department of the Interior Office of Subsistence Management (OSM), 
which is housed within the Alaska Regional Office of the U.S. Fish and 
Wildlife Service. The OSM is mandated to serve each of the agencies and 
rural members represented on the FSB.
    The FSB recognizes the critical importance of local and traditional 
knowledge in informing management decisions in the Program. It relies 
on the knowledge shared by local people and strives to consider it 
equitably alongside of western scientific knowledge. This expertise can 
provide a spatial and temporal scale of knowledge that is otherwise 
unavailable to resource managers. All OSM analyses of proposals to 
change Federal subsistence regulations incorporate available 
traditional ecological knowledge to help the FSB better understand 
subsistence resources and the people who depend on them.
    The FSB holds annual public meetings to make regulatory decisions. 
During its meetings, the FSB engages in tribal consultation, accepts 
verbal and written public comments, and hears regional advisory council 
recommendations as well as comments by the FSB's technical review 
committee called the Interagency Staff Committee and the State of 
Alaska. Only after receiving all of this input do the FSB members 
discuss and vote on each proposal.
Conclusion
    Since 1990, the Federal Subsistence Management Program has 
endeavored to provide rural residents of Alaska the opportunity to 
pursue the subsistence way of life, as envisioned by Congress and 
enacted in ANILCA. One of the Program's greatest strengths is its 
bottom-up approach that relies on direct input from the local people 
who will be directly affected by the FSB's actions. The program is 
intentionally designed to be highly collaborative and primarily driven 
by stakeholder input, biological data and local and traditional 
knowledge. The Program will continue to seek balance between the 
harvest needs of rural subsistence users, conservation mandates of land 
management agencies and the diverse values that undergird each of the 
many user groups seeking opportunities to hunt and fish on Federal 
public lands.
    We appreciate the Committee's interest in subsistence harvest on 
Federal public lands in Alaska under ANILCA. I would be happy to answer 
any questions the Committee may have.

    The Chairman. Thank you, Dr. Hardin.
    Chairman Brown.

  STATEMENT OF HON. ROY B. BROWN, CHAIRMAN, NORTHERN ARAPAHO 
                             TRIBE

    Mr. Brown. [Greeting in native tongue.]
    Good afternoon, Chairman Hoeven, Vice Chairman Udall and 
members of the Committee. Thank you for holding this oversight 
hearing and giving me the opportunity to testify.
    My name is Roy Brown. It is an honor to represent the 
Northern Arapaho as their Chairman. The Wind River Reservation 
is located in west-central Wyoming and, for generations, has 
been the home of two sovereign Nations, the Northern Arapaho 
and the Eastern Shoshone Tribes.
    The Northern Arapaho and Eastern Shoshone are unique in 
that we are the only separate sovereign tribes who share 
jurisdiction and ownership of the same reservation. Today, I 
share the perspective of the Northern Arapaho Tribe.
    The reservation is over 2.2 million acres of gorgeous wide-
open spaces with an abundance of natural resources, plants, and 
wildlife which are central to our culture and traditions. For 
this reason, we are very protective of the land and resources 
the land provides. One reason that is currently changing the 
landscape of the reservation is the invasion of wild and feral 
horses.
    In 2012, the tribes and the Wyoming Fish and Wildlife 
Service, in separate surveys, estimated there were over 2,100 
horses in the lower mountainous areas in the northwest portion 
of the reservation.
    Today, our best estimates are that there are over 6,500 
horses in the wilderness of the reservation. As the wild and 
feral horse population increases, their impact to the natural 
resources, and thus our way of life, becomes more and more 
critical.
    The emergence of this population can likely be attributed 
to a number of factors. Wild horses have been able to thrive 
because of lack of natural predators, little to no human 
contact, and the abundance of forage after the area recovered 
from a long drought.
    Additionally, the lack of adequate horse markets in the 
last decade suppressed the horse industry and created a market 
where only the most desirable horses would have buyers which 
has resulted in more feral horses.
    The cost of horse ownership becomes particularly burdensome 
if the horse is injured, sick, old, or untrainable. These 
horses are sometimes let out in the wilderness near or within 
the reservation boundary.
    The Wind River Fish and Game Department has the budget to 
hire three wardens, three wardens to patrol 2.2 million acres, 
the vast majority of it wilderness. This has not proven to be 
effective in catching or deterring domestic horse abandonment.
    As the horse herds increase in numbers, so does the 
negative impacts to the environment. The horses will take every 
opportunity to overgraze on grasslands they come across. A herd 
of horses can decimate the natural grasses and forbs not only 
through eating but by eroding the ground to the extent the 
plants are unable to grow back.
    The overgrazing leads to noxious weed infestation, long 
term or permanent loss of native grass and forb species, and 
sedimentation and topsoil loss. Mule deer, elk bighorn sheep 
and moose have all been displaced because of increased shortage 
of grasslands.
    This has been particularly taxing on tribal members who 
have traditionally depended on big game for subsistence. Each 
June, the Wind River Fish and Game sells permits to eligible 
tribal members participating in the Tribe's traditional 
Sundance ceremony.
    Historically, this has been a way to allow tribal members 
to carry on the tribal tradition of taking big game for various 
uses in the tribal ceremony. The Sundance hunting season eases 
the financial burden of tribal members as well as fosters the 
continuation of tribal traditions.
    However, with the growing impact of wild and feral horses, 
the game has been more and more difficult to locate and hunt 
because they have migrated off the reservation or in areas that 
are very difficult to access.
    Additionally, as horse herds grow and migrate to different 
parts of the reservation, they begin to threaten the plants and 
materials used traditionally and ceremonially. A long-term or 
permanent loss of these plants and materials would be 
culturally devastating.
    It will take a multi-partner approach to fully address the 
wild and feral horse problem on reservation lands across Indian 
Country. It will take the cooperation and input of tribes, 
government agencies, and interest groups to assess current 
impacts and develop plans for removal and mitigation of future 
impacts.
    On the Wind River, horse removal is a priority. The Tribes, 
along with government agencies, have developed a methodology 
for removal of the wild and feral horse population. However, 
this is only one step to addressing the issue.
    We will require the knowledge of tribal members, wildlife 
and ecology experts, and Federal agencies to help return our 
lands to their former state. To protect the lands from future 
invasion of feral horses, the Wind River tribes will require 
more enforcement figures from our Fish and Game Department.
    Thank you.
    [The prepared statement of Mr. Brown follows:]

  Prepared Statement of Hon. Roy B. Brown, Chairman, Northern Arapaho 
                                 Tribe
Introduction
    Good afternoon Chairman Hoven, Vice-Chairman Udall and members of 
the Committee. Thank you for holding this oversight hearing and giving 
me the opportunity to testify. My name is Roy Brown. It is my honor to 
represent the Northern Arapaho Tribe as Chairman.
Background
    The Wind River Reservation is located in west-central Wyoming and, 
for generations, has been the home of two sovereign nations, the 
Northern Arapaho and the Eastern Shoshone Tribes. The Northern Arapaho 
and Eastern Shoshone are unique in that we are the only separate 
sovereign tribes who share jurisdiction and ownership of the same 
Reservation. Today I share the perspective of the Northern Arapaho 
Tribe. The Reservation is over 2.2 million acres of gorgeous wide-open 
spaces with an abundance of natural resources, plants, and wildlife 
which are central to our culture and traditions. For this reason, we 
are very protective of the land and resources the land provides. We 
have encountered several threats to these natural resources throughout 
the years and have learned to adapt and manage so that our tribal 
citizens may still enjoy the full benefit of what the land provides. 
One recent threat that is currently changing the landscape of the 
reservation is the invasion of wild and feral horses.
    In 2012, the Tribes and the Wyoming Fish and Wildlife Service, in 
separate surveys, estimated there were over 2,100 hoses in the lower 
mountainous areas in the northwest portion of the reservation. Today, 
our best estimates are that there are over 6,500 horses in the 
wilderness of the reservation. As the wild and feral horse population 
increases, their impact to the natural resources, and thus our way of 
life, becomes more and more critical.
Contributing Factors of Invasive Horses
    The emergence of this problem can likely be attributed to a number 
of factors. Wild horses have been able to thrive because of lack of 
natural predators, little to no human contact, and the abundance of 
forage after the area recovered from a long drought. Additionally, the 
lack of adequate horse markets in the last decade suppressed the horse 
industry and created a market where only the most desirable horses 
would have buyers which has resulted in more feral horses. Individuals 
with horse ownership could no longer market aggressive or untrainable 
horses. The cost of horse ownership becomes particularly burdensome if 
the horse is injured, sick, old, or untrainable. These horses are 
sometimes let out in the wilderness near or within the reservation 
boundary.
    Which leads to another contributing factor. Wind River Fish and 
Game department has the budget to hire three wardens, one of whom 
serves as the Director of the program and carries out day-to-day 
administrative tasks. Three wardens to patrol 2.2 million acres, the 
vast majority of it wilderness, has not proven to be effective in 
catching or deterring domestic horse abandonment.
Ecological Impacts
    As the horse herds increase in numbers, so does the negative 
impacts to the environment. The horses will take every opportunity to 
overgraze on grasslands they come across. A herd of horses can decimate 
the natural grasses and forbs not only through eating but by eroding 
the ground to the extent the plants are unable to grow back. The 
overgrazing leads to noxious weed infestation, long-term or permanent 
loss of native grass and forb species, and sedimentation and topsoil 
loss. The reservation, particularly the northwestern portion, has many 
areas that used to be grasslands but are now eroded to point where only 
weeds and other invasive plants can grow. Other ecologically related 
impacts are loss of naturalized water such as springs, downcutting or 
downsizing perennial streams, and degrading water quality.
    Below are pictures of a study from 2014 to measure the impact of 
wild and feral horse herds. Exclusion cages were put in place to 
prevent horses from grazing in small circles of grassland. The picture 
on the left is a wide shot of grasslands with the exclusion cage in 
place. The picture on the right is a close up of the circular plot of 
excluded grassland after the cage has been removed. The pictures 
illustrate the extent to which the horses overgraze by highlighting the 
comparison of what the grassland looked like prior to and after grazing 
by horse hers in the wilderness.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Impacts on Culture and Tradition
    Mule deer, elk, big horn sheep and moose have all been displaced 
because of increasing shortage of grasslands. The Fish and Wildlife 
Service have observed less use by wintering groups of elk on crucial 
winter ranges in the northwest area of the reservation. When big game 
are not able to find grasslands on which to forage on the reservation, 
they will migrate to areas where they can find food. Many times, that 
means they migrate off the reservation or to higher elevations. This 
has been particularly taxing on tribal members who have traditionally 
depended on big game for subsistence. Each June, the Wind River Fish 
and Game sells permits to eligible tribal members participating in the 
Tribe's traditional Sundance ceremony. Historically, this has been a 
way to allow tribal members to carry on the tribal tradition of taking 
big game for various uses in the tribal ceremony. The Sundance hunting 
season eases the financial burden of tribal members as well as fosters 
the continuation of tribal traditions. However, with the growing impact 
of wild and feral horses, the game have been more and more difficult to 
locate and hunt because they have migrated off the reservation or in 
areas that are very difficult to access.
    Additionally, tribal members have a traditional and/or ceremonial 
use for many plants and materials found on the reservation. As the 
horse herds grow and migrate to different parts of the reservation, 
they begin to threaten the plants and materials used traditionally and 
ceremonially. A long-term or permanent loss of these plants and 
materials would be culturally devastating.
Unknown Impacts
    The tribes and its partners are just beginning to discover the ways 
in which the wild and feral horse overpopulation is impacting our 
reservation. While we cannot know with specificity, we suspect the wild 
and feral horse population has the potential to permanently affect our 
culture, environment, ecology and economy.
Addressing the Problem
    It will take a multi-partner approach to fully address the wild and 
feral horse problem on reservation lands across Indian country. It will 
take the cooperation and input of tribes, government agencies, and 
interest groups to assess current impacts and develop plans for removal 
and mitigation of future impacts. On the Wind River, horse removal is a 
priority. The Tribes, along with government agencies, have developed a 
methodology for removal of the wild and feral horse population. 
However, this is only one step to addressing the issue. We will require 
the knowledge of tribal members, wildlife and ecology experts, and 
federal agencies to help return our lands to their former state. And to 
protect the lands from future invasion of feral horses, the Wind River 
tribes will require more enforcement figures in our Fish and Game 
Department.
    Thank you.

    Senator Barrasso. Mr. Chairman, let me just point out the 
size of their reservation is, as you described, 2.2 million 
acres and is larger than the combined sizes of the State of 
Rhode Island and Delaware. It is an amazing amount of area.
    The Chairman. Are you bragging now?
    Senator Barrasso. It is quite a place.
    The Chairman. It is a very big area.
    Thank you for being here, Chairman. We appreciate it very 
much.
    I should not tease my fellow Senator. He does a fantastic 
job. I appreciate him being here.
    Ms. Peltola.

         STATEMENT OF MARY SATTLER PELTOLA, EXECUTIVE 
          DIRECTOR, KUSKOKWIM RIVER INTER-TRIBAL FISH 
                           COMMISSION

    Ms. Peltola. Thank you, Mr. Chairman and members of the 
Committee.
    [Greeting in native tongue.]
    My name is Mary Peltola. I am from the community of Bethel, 
Alaska. I am the Executive Director of the Kuskokwim Inter-
Tribal Fish Commission.
    As Senator Murkowski mentioned a moment ago, in May 2015, 
the Fish Commission was formed as a consortium of all of the 33 
federally-recognized Alaska Native tribes located along the 
Kuskokwim River. This historical unity of tribes was driven by 
our understanding and insistence that we must have at least a 
co-management role if our Chinook salmon and way of life are to 
survive.
    Despite agreements with the U.S. Department of the Interior 
for a tribal role in management of traditional subsistence 
fisheries, the burdensome Federal administrative structure and 
misplaced policy priorities of Fish and Wildlife have 
undermined the unified effort of the tribes to protect our 
salmon stocks and way of life.
    Tribal self-determination is minimized in this most vital 
aspect of tribal health and well being. Two unique 
circumstances complicate the Fish Commission's efforts to 
manage the Kuskokwim River Chinook salmon stock.
    We are federally-recognized tribes. We have a government-
to-government relationship with the Department of the Interior 
and Interior has ample discretion to implement and administer 
the subsistence rights provided under Federal law for rural 
tribal members through co-management with our rural tribal 
governments.
    Roughly half of the Kuskokwim River from the village of 
Aniak to the mouth of the Bering Sea flows through the Yukon 
Delta National Wildlife Refuge, and is subject to Federal 
jurisdiction. However, before the river passes through Aniak, 
it is subject to State jurisdiction. I should also note the 
Kuskokwim River is 900 miles long.
    Under ANILCA, Federal managers are required to prioritize 
non-wasteful subsistence uses of fish and wildlife resources by 
Alaska's rural residents, many of which include the Fish 
Commission's tribal members.
    However, State law prohibits prioritizing subsistence uses 
of fish and game resources for Alaska's rural residents. 
Instead, State managers must provide all Alaskans with equal 
access and opportunities to take fish and wildlife resources.
    Despite the obvious conflict between these two management 
regimes, it is Federal policy to defer to State management of 
the Federal portion of the Kuskokwim River Chinook salmon 
whenever possible.
    Federal managers currently apply and enforce State 
regulations in Federal waters even though those regulations do 
not meet ANILCA's mandate to prioritize subsistence uses and 
they defer to State management decisions.
    The Federal Subsistence Board administers the subsistence 
taking and uses of fish and wildlife under ANILCA. The regional 
directors who sit on the Subsistence Board frequently band 
together and at times their loyalty to support one another 
undermines their protection of subsistence interests.
    The Federal Subsistence Board receives administrative 
support from another Federal agency, the Office of Subsistence 
Management. While OSM purports to represent the interests of 
Alaskan subsistence users, those interests are oftentimes in 
conflict with Fish and Wildlife Service political and 
bureaucratic interests limiting OSM's effectiveness.
    These jurisdictional and administrative issues motivated 
the Fish Commission to enter into a Memorandum of Understanding 
with the Fish and Wildlife Service in February 2016. While on 
paper, the MOU places the Fish Commission as a management 
partner with the Fish and Wildlife Service, the equity of 
relationship has not been borne out in real life.
    The Fish Commission needs clear and enhanced authority to 
develop and implement management plans without having to go 
through the burdensome administrative process required by 
ANILCA.
    Congress should consider Federal legislation authorizing a 
pilot project for the Fish Commission that provides authority 
for the Commission to bypass the existing administrative 
structure and process of ANILCA and directly implement the 
Federal subsistence priorities for rural and tribal members.
    Congress should also encourage the Secretary of Interior to 
engage in rulemaking to create a direct management structure 
between the Secretary and the Alaska tribal co-management 
commissioners such that the Secretary can simply delegate 
authority to our tribes to implement subsistence fishery 
management.
    With that, I would be happy to answer any questions.
    [The prepared statement of Ms. Peltola follows:]

    Prepared Statement of Mary Sattler Peltola, Executive Director, 
              Kuskokwim River Inter-Tribal Fish Commission
    My name is Mary Peltola. I am the Executive Director of the 
Kuskokwim Inter-Tribal Fish Commission (KRITFC). I come from Kwethluk, 
Alaska, a small Yupik Alaska Native village located on the Kuskokwim 
River. I have been fishing with my family in the Kuskokwim in our 
traditional ways my whole life. Despite agreements with the U.S. 
Department of Interior (DOI) for a tribal role in management of 
traditional subsistence fisheries, the burdensome federal 
administrative structure and misplaced policy priorities of the FWS 
have undermined the unified effort of the tribes to protect their 
salmon stocks and way of life. Tribal self-determination is minimized 
in this most vital aspect of tribal health and well-being. We are in a 
constant, ineffective struggle, and our tribes and salmon are suffering 
the consequences. After describing the KRITFC and our issues, I have 
some recommendations for Congress to address these issues.
    In May 2015, the KRITFC was formed as a consortium of all of the 33 
federally-recognized Alaska Native tribes that are located along the 
Kuskokwim River. This historical unity of the tribes was driven by 
their understanding, and insistence, that they must have at least a 
comanagement role if their Chinook salmon and way of life are to 
survive. Each tribe appoints a Commissioner to the KRITFC who is 
authorized to make decisions on behalf of the Tribe. The Commissioners 
select seven of their own members to serve on an Executive Council. The 
KRITFC strives to achieve consensus in all decisions.
    For about a decade, the Chinook salmon stocks in the Kuskokwim 
River have been crashing. This has had disastrous consequences for 
Alaska Natives who depend on Chinook salmon for their nutritional, 
spiritual, and cultural well-being. In light of these conservation 
issues, the KRITFC has consistently and unanimously agreed to voluntary 
fishing restrictions to protect these stocks. The Commission uses its 
collective traditional knowledge and expertise concerning the Kuskokwim 
River to develop culturally appropriate conservation management plans. 
And, together with the Bering Sea Fishermen's Association, the KRITFC 
also designs and implements harvest data collection programs. The 
Commission's goal is to jointly implement those plans with U.S. Fish 
and Wildlife Service (FWS) and, when possible, with the State of 
Alaska. A central aspect of the tribal management plans is the 
unfulfilled goal that once a management plan is agreed to, and 
consistent with conservation, the tribes are authorized to implement 
and enforce that plan for their rural tribal members.
    While each KRITFC member tribe has a unique relationship with the 
Kuskokwim River, all of our tribal members are unified by the vitally 
important role salmon--in particular, Chinook salmon--plays in our 
nutritional, cultural, and spiritual well-being. Since before contact 
with Russian traders and missionaries, and certainly before statehood, 
Alaska Natives were stewards of this resource. We successfully managed 
the harvest and conservation of all Kuskokwim River salmon stocks 
according to our traditional Yupik and Athabascan rules and values: 
Providing for children, the sick, and the elderly first. Only catching 
what you can eat. Sharing what you cannot. Treating our resources with 
respect.
    However, since the advent of Federal and State management of 
Kuskokwim River Chinook salmon stocks, tribal management has been 
sidelined, our Chinook salmon stocks are crashing, and both our tribes 
and our salmon are suffering. Despite our proven expertise and interest 
in sustainably managing our river's resources, the current 
interpretation and administration of federal subsistence laws makes it 
very difficult for the KRITFC to fully engage in traditional 
subsistence ways of life and to exercise self-determination in this 
most essential right.
    Two unique circumstances complicate the KRITFC's efforts to manage 
Kuskokwim River Chinook salmon stocks under the existing federal and 
state subsistence management programs. The first is that unlike the 
Lower 48, neither the Federal nor the State government recognizes our 
right as a matter of policy or law to manage our fish and wildlife 
resources, despite having successfully done just that for thousands of 
years. As you know, with the exception of the Metlakatla Reserve in 
Southeast Alaska, there are no reservations in Alaska. This is, 
however, simply one excuse used to minimize tribal co-management. We 
are federally recognized tribes, we have a government to government 
relationship with the DOI, and DOI has ample discretion to implement 
and administer the subsistence rights provided under federal law for 
rural tribal members through co-management with their rural tribal 
governments.
    Empowering tribal management or co-management is the only way to 
overcome the ineffective and inefficient State/Federal dual management 
system currently in place. The Kuskokwim River salmon fisheries are 
subject to both Federal and State management. These management regimes 
are inescapably tangled by conflicting laws and policies. Roughly half 
of the Kuskokwim River, from its mouth on the Bering Sea to the village 
of Aniak, flows through the Yukon Delta National Wildlife Refuge, and 
is subject to federal jurisdiction. But, after the river passes through 
Aniak, it is subject to State jurisdiction. Some of our tribes must 
subsistence fish under State regulations, others under federal 
regulations, and at times it appears the purpose of the different 
regulatory schemes is to undermine tribal unity. Currently, there is no 
recognized place for all tribes to fish under a united tribal 
management plan that has been negotiated with all management partners, 
which would thereby bring an effective, unified management plan 
throughout the entire drainage.
    Under the Alaska National Interest Lands Conservation Act (ANILCA), 
\1\ Federal managers are required to prioritize non-wasteful 
subsistence uses of fish and wildlife resources, such as Kuskokwim 
River Chinook salmon, by Alaska's rural residents, \2\ many of which 
include the KRITFC's tribal members. If conservation concerns require 
Federal managers to restrict people from hunting or fishing from a 
certain stock, they must consider a user's customary and direct 
dependence upon the resource as the mainstay of livelihood, the user's 
local residency, and the availability of alternative resources before 
any restrictions are put in place. \3\ ANILCA helps to ensure that the 
people who depend on a resource the most have the best opportunity to 
harvest that resource.
---------------------------------------------------------------------------
    \1\ 16 U.S.C.  3101 et seq.
    \2\ 16 U.S.C.  3114.
    \3\ 16 U.S.C.  3114(1)-(3).
---------------------------------------------------------------------------
    Absent FWS agreeing about the existence of a specific conservation 
concern or threat to subsistence uses, the State manages the Federal 
portion of the Kuskokwim River through State regulations. However, 
State law prohibits prioritizing subsistence uses of fish and game 
resources for Alaska's rural residents. \4\ Instead, State managers 
must provide all Alaskans, regardless of whether they live in a rural 
village where food is costly and scarce or in an urban city where food 
is plentiful and relatively affordable, with equal access and 
opportunity to take fish and wildlife resources. This means that a 
lawyer who lives in Anchorage is provided the same opportunity to come 
to Bethel and fish for Kuskokwim River Chinook salmon as an elder 
subsistence user who is unemployed and depends on the nutrition 
provided by Chinook salmon to make it through the winter without going 
hungry.
---------------------------------------------------------------------------
    \4\ See McDowell v. State, 785 P.2d 1 (Alaska 1989).
---------------------------------------------------------------------------
    Despite the obvious conflict between these two management regimes, 
it is Federal policy to defer to State management of the federal 
portion of the Kuskokwim River whenever possible. \5\ These conflicting 
management regimes create serious problems that restrict our 
subsistence opportunities and impede our ability to fully engage in our 
traditional subsistence ways of life and to be fully self-determined in 
that engagement. One problem is that despite the fact that Federal 
management is required to prioritize subsistence opportunities for 
rural residents, Federal managers currently apply and enforce State 
regulations in Federal waters even though those regulations do not meet 
ANILCA's mandate to prioritize subsistence uses, \6\ and defer to State 
management decisions. This is done over the KRITFC's objection, to the 
detriment of Alaska Native subsistence opportunity and self-
determination.
---------------------------------------------------------------------------
    \5\ 50 C.F.R.  100.14(a)(State Fish and game regulations apply to 
public lands and such laws are hereby adopted and made a part of the 
regulations in this part to the extent they are not inconsistent with, 
or superseded by, the regulations in this part).
    \6\ 50 C.F.R.  100.14(a).
---------------------------------------------------------------------------
    Alaska's tribes do not have a direct role in either the Federal or 
the State management systems. This means that the people who depend on 
the resource the most have little to no say in how that resource is 
managed. The extent to which the KRITFC is able to fully engage in 
Federal management of the Kuskokwim River is controlled by an 
ineffective and inefficient federal administrative process that is 
stacked against tribal interests and designed to disenfranchise our 
tribal voices.
    The Federal Subsistence Board (FSB or the Board) is an 
administrative body created by the Secretaries of Interior and 
Agriculture created to administer the subsistence taking and uses of 
fish and wildlife under ANILCA. \7\ The FSB has eight members--a Chair, 
two public members appointed by the Secretaries of Interior and 
Agriculture, and the Regional Directors of FWS, the Bureau of Indian 
Affairs, the Bureau of Land Management, National Park Service, and U.S. 
Forest Service. \8\ The Public Members are required to be familiar with 
subsistence users and uses; there is no such requirement for the agency 
Regional Directors. The FSB votes on all regulatory proposals and 
actions concerning subsistence uses of fish and wildlife on Federal 
public lands. The Regional Directors frequently band together and at 
times their loyalty to support each other undermines their protection 
of subsistence interests.
---------------------------------------------------------------------------
    \7\ 50 C.F.R.  100.10(a).
    \8\ 50 C.F.R.  100.10(b)(1).
---------------------------------------------------------------------------
    The FSB receives administrative support from another federal 
agency, the Office of Subsistence Management (OSM). It is staffed by 
anthropologists, biologists, technical and administrative employees, as 
well as liaisons to the ADFG and Alaska Native communities. OSM 
communicates with tribal members and other subsistence users to clarify 
regulatory proposals. OSM also conducts tribal consultations when 
deemed necessary by agency policy. And, OSM administers each FSB 
meeting, providing procedural guidance in an effort to ensure a 
consistent process. However, OSM is housed within FWS. While OSM 
purports to represent the interests of Alaska's subsistence users, 
those interests are oftentimes in conflict with FWS's political and 
bureaucratic interests, limiting OSM's effectiveness.
    During public hearings held approximately every four months, the 
FSB considers regulatory proposals concerning subsistence uses of fish 
and game, recommends subsistence regulations for Federal public lands 
in Alaska for approval to the Secretary of Interior, and makes 
management decisions concerning eligibility to take, allocation, and 
restriction of subsistence resources. \9\ The FSB also decides whether 
to delegate certain aspects of its authority to agency officials to 
make in-season subsistence management decisions consistent with 
frameworks established by the Board. \10\
---------------------------------------------------------------------------
    \9\ 50 C.F.R. 100.10(d).
    \10\ 50 C.F.R.  100.10(d)(6).
---------------------------------------------------------------------------
    These jurisdictional and administrative issues motivated the KRITFC 
to enter into a Memorandum of Understanding (MOU) with the FWS in 
February 2016. \11\ The MOU was designed to enable the KRITFC, together 
with the FWS, to cooperatively manage Kuskokwim River Chinook salmon 
fisheries, to ensure a stronger, more self-determined management 
structure, and to avoid the burdensome administrative process. However, 
the KRITFC continues to face the same administrative delays and 
bureaucratic obstacles which exclude tribal participation and fail to 
prioritize subsistence opportunities for the rural users who need them 
the most.
---------------------------------------------------------------------------
    \11\ A copy of the MOU is appended to this testimony.
---------------------------------------------------------------------------
    It is difficult to maintain our traditional Alaska Native 
subsistence ways of life when a federal agency dictates every aspect of 
the administration of the Federal subsistence management program in 
ways that are often contrary to our self-determination and traditional 
subsistence way of life. While on paper, the MOU places the KRITFC as a 
management partner with FWS that equity of relationship has not been 
borne out in real life. The KRITFC has attempted to work in good faith 
to cooperatively develop and implement management plans and decisions 
for Kuskokwim River Chinook salmon stocks and subsistence fishing. But, 
the KRITFC continues to find its positions and suggestions diminished 
or wholly sidelined. FWS's number one priority often appears to be 
getting along with the State rather than ensuring that the subsistence 
needs of the Kuskokwim tribes and other rural users are fulfilled, and 
that the Chinook stocks are rebuilt. It appears that the FWS does not 
want to be in the position of protecting subsistence rights and 
managing the fishery. The solution is to take the FWS and FSB out of 
the process, and implement ANILCA's subsistence priority on the 
Kuskokwim River directly through these rural tribes pursuant to a 
management plan developed in consultation with the State.
    The KRITFC needs clear and enhanced authority to develop and 
implement management plans without having to go through the burdensome 
administrative process required by ANILCA in order to address continued 
threats to stock conservation. This is vital given the growing impact 
of climate change on the natural resources Alaska Native subsistence 
users depend upon. The KRITFC offers these specific recommendations to 
ensure Tribes have central role in implementing and administering 
ANILCA.
    Congress should consider federal legislation authorizing a pilot 
project for the KRITFC that provides authority for the Commission to 
bypass the existing administration structure and process of ANILCA, and 
directly implement the federal subsistence fishery for rural tribal 
members. The Commission suggests that upon adoption of a unified 
conservation and subsistence fishery management plan, the tribes would 
implement that plan for their rural tribal members, as well as non-
tribal members residing in the villages so long as they agree to abide 
by the management plan. The Secretary of DOI would be authorized to 
review the plan to ensure conservation of fish stocks. If the Tribes 
and State could not agree on a management plan, the default would be 
federal management. Our Tribes have managed and depended upon Kuskokwim 
River Chinook salmon for thousands of years. Our Tribes understand 
salmon. They want to sustain it. They want to ensure its continued 
viability. Congress should recognize our conservation management 
experience and expertise and authorize this tribal co-management pilot 
project.
    Congress should also encourage the Secretary of Interior to engage 
in rulemaking to create a direct management structure between Secretary 
and Alaska Tribal co-management commissions such that the Secretary can 
simply delegate authority to our Tribes to implement subsistence 
fishery management, relieving us of the burden of having to constantly 
engage in an ineffective, inefficient federal subsistence 
administrative structure.
    It has been the KRITFC's experience that having only two public 
members on the FSB is woefully insufficient representation for Alaska's 
subsistence users. The agency Regional Directors on the FSB often have 
not lived and don't really understand the subsistence way of life. An 
immediate fix that Congress could implement would be to require the 
appointment of additional tribal representatives to the FSB resulting 
in an equal number of public and agency members on the Board.
    Finally, we recommend that it is essential to move OSM out from 
under FWS so that it operates independently of an agency whose policy 
and administrative actions are at times not consistent with providing 
fully for subsistence uses and needs. Ensuring that OSM is 
independently funded and managed would allow that agency to do its job 
free of potential ideological and political conflicts.

    Attachments

Prepared Statement of Michael Williams, Elected Tribal Official, Akiak 
                            Native Community
    Wha'Qaa! My name is Michael Williams, currently Vice Chairman of 
the Kuskokwim River Inter-Tribal Fish Commission (KRITFC), past 
Chairman of the KRITFC, Steering Committee Chair to organize KRITFC, 
former Area Vice President of the National Congress of American 
Indians, former Chairman of the Association of Village Council 
Presidents, Former President of the Rural Community Action Program, 
Board Member of the Native American Rights Fund, Former Vice Chairman 
on the Alaska State Board of Education, and an avid and long-time 
musher and lditarod Sled Dog Race veteran and retired US Army Veteran. 
I also testified before Congress concerning the impacts of climate 
change on Indigenous Peoples in Alaska.
    I appreciate the opportunity to submit my individual testimony in 
my capacity as a Tribal Council Member on an issue that is very close 
to my heart and mind. I am fortunate to have been raised in a Yupiaq 
Traditional way by my grandparents, my parents, and my uncles and aunts 
learning how to hunt, fish, and gather on our traditional lands in 
Western Alaska. They lived a Customary and Traditional way of life, 
living with the land, waters and air year-round. This life changed when 
the State and Federal Governments came to our communities with their 
laws that were crafted without our knowledge and participation. These 
laws continue to adversely affect the ability of Indigenous Peoples in 
Alaska to practice our ways of life.
    Akiak Native Community requests that this Committee take the 
following actions:

        1. Advance and protect Tribal Sovereignty;

        2. Meet with Tribes to address the impacts of State and Federal 
        laws on Indigenous Peoples of Alaska;

        3. Secure ongoing funding for Tribes in Alaska to co-manage and 
        manage natural resources.

Advance Tribal Sovereignty
    The decision of Kuskokwim River Indigenous fishermen in 2012 to 
fish outside State regulations in order to feed their families resulted 
in the indictment of Indigenous fishermen. \1\ While the Court found 
that the defendants were guilty of violating State law, Indigenous 
Peoples fished in order to uphold Tribal laws. We recognize that Tribal 
law and State and Federal laws are not always in agreement, and we 
strive to abide by the laws both by which we are governed and by which 
we also govern ourselves. Akiak Native Community is committed to 
working with Federal agencies to ensure that the Federal Government 
upholds its Trust Responsibilities to the 229 Federally-recognized 
Tribes in Alaska equally along with the other 338 Federally-recognized 
Tribes in the United States.
---------------------------------------------------------------------------
    \1\ State of Alaska v. Felix Flynn et al., District Court for State 
of Alaska (Alaska 2013)
---------------------------------------------------------------------------
    Indigenous Peoples are the first ``Natural Resource Managers'' of 
the lands and waters, and fish and wildlife, from which all Alaskans 
benefit. Because of Indigenous Knowledge--which draws upon Ancestral 
territorial ties, our understanding of our lands, and our respect and 
love for our Natural Resources--Tribal participation in management is 
paramount to managing fish and wildlife populations for conservation 
and to ensure future subsistence uses of such populations. Tribal 
sovereignty is upheld when Tribes are recognized as effective co-
managers of the territories and fish and wildlife that sustain us.
    On May 5, 2015, 33 Federally-recognized Tribes organized as the 
Kuskokwim River Inter-Tribal Fish Commission (KRITFC), modeling the 
Northwest Indian Fisheries Commission (NWIFC) that organized after the 
Boldt Decision in the 1970's with the great Billy Frank, Jr. of the 
Nisqually Indian Tribe. \2\ Billy traveled to our region to help Tribes 
in Alaska advocate to get on the management table. We are forever 
grateful for his contribution along with the ongoing support of the 
NWIFC Board.
---------------------------------------------------------------------------
    \2\ United States v. Washington, 384 F. Supp. 312 (W.D. Wash. 
1974), affirmed, 520 F.2d 676 (9th Cir. 1975).
---------------------------------------------------------------------------
    In addition to the KRITFC, there have been numerous other 
agreements between Indigenous Peoples in Alaska and the Federal 
government concerning fish and wildlife management, including 
management of migratory birds, marine mammals, whales, polar bear, and 
walrus. These agreements have yielded successful results. Indigenous 
Knowledge and participation played a huge part. Fish and wildlife 
populations were replenished when Tribes co-managed and when Tribal 
sovereignty was recognized.
    Following the creation of a Memorandum of Understanding between the 
KRITFC and the United States Fish and Wildlife Service (USFWS), KRITFC 
Tribes continue to work to increase their involvement as co-managers of 
Kuskokwim River fisheries with the USFWS. \3\ However, as Mary Sattler 
Peltola addressed in her testimony before this Committee on May 20, 
2018, the current Federal subsistence management structure impedes 
Tribal capacity to be effective co-managers.
---------------------------------------------------------------------------
    \3\ See attached Memorandum of Understanding.
---------------------------------------------------------------------------
    We ask that Congress recognize the vital importance of Ancestral 
territories and fish and wildlife to Indigenous Peoples in Alaska by 
amending the Alaska National Interest Lands Conservation Act (ANILCA) 
to create a clear management role for Tribes separate from rural Alaska 
residents.
Meet With Tribes
    Recognizing Tribal sovereignty requires, in part, that Federal 
agencies meaningfully negotiate with Tribes on issues that impact 
Tribal wellbeing. In this spirit, we ask that Congress authorize the 
Secretary of the Interior to conduct field hearings throughout Alaska 
with Tribes in order to better understand how Federal laws such as 
ANILCA affect Indigenous Peoples in Alaska. These hearings can inform 
legislators of the changes in Federal law necessary to more fully 
recognize Tribal sovereignty, protect Tribal uses of fish and wildlife, 
and support Tribal co-management of natural resources.
Secure Funding For Tribes
    We ask that Congress secure ongoing funding for individual Tribes 
in Alaska as well as for Tribal bodies, including KRITFC, charged with 
co-managing fish and wildlife. Funding will support Tribal management 
efforts as well as Tribal capacity to address the welldocumented 
effects of climate change. The negative effects of climate change to 
which Indigenous Peoples of Alaska must adapt are experienced also by 
Indigenous Peoples on a global scale. Adequate funding from Congress 
will help position Indigenous Peoples of Alaska to be partners in 
addressing the effects of climate change and resource extraction 
nationally and internationally. Many Tribes are reviving management 
practices that are time-tested, climate-resilient, and have value to 
all Peoples, Indigenous and nonIndigenous alike. We ask Congress to 
nurture these efforts to help them grow across all our lands and 
waters.
    Akiak Native Community is committed to preserving the health of our 
People and our fish and wildlife in perpetuity. Our goal is for our 
People and fish and wildlife to be well again. Without a meaningful 
role in the co-management and management of our Ancestral territories 
and fish and wildlife, the health of our People and our natural 
resources will remain threatened. Thank you very much.
                                 ______
                                 
           MEMORANDUM OF UNDERSTANDING BETWEEN UNITED STATES 
DEPARTMENT OF THE INTERIOR U.S. FISH AND WILDLIFE SERVICE ALASKA REGION 
                 AND KUSKOKWIM RIVER INTER-TRIBAL FISH 
                               COMMISSION
    This Memorandum of Understanding (MOU) is entered into in order to 
formalize the fishery management partnership between the United States 
Department of the Interior (Department), U.S. Fish and Wildlife Service 
(Service) and the Kuskokwim River Inter-Tribal Fish Commission 
(hereinafter referred to as ``Commission'').

    ARTICLE I--BACKGROUND AND OBJECTIVES

    In his address to the Alaska Federation of Natives Convention in 
October 2014, and to the National Congress of American Indians in 
February 2015, Deputy Secretary Mike Connor announced plans to develop 
a meaningful Partnership Project that could be implemented 
administratively, with the goal of more meaningfully integrating 
Kuskokwim Tribes and Federally qualified users into Federal fisheries 
management on the Kuskokwim River drainage. Development of this MOU is 
one component of the Kuskokwim River Partnership Project. It formalizes 
a management partnership that begins to address the long-standing 
desire of Alaska Native Tribes in the Kuskokwim Drainage to engage as 
co-managers of fish resources.
    The Association of Village Council Presidents (A VCP) and Tanana 
Chiefs Conference (TCC) are regional Tribal organizations whose 
membership includes all of the federally recognized tribes in the 
Kuskokwim drainage. The A VCP and TCC were instrumental in the 
establishment of the Commission and in the development of this MOU. 
Both AVCP and TCC have adopted resolutions that support the 
Commission's participation in the Kuskokwim River Partnership Project 
through the signing of this MOU.
    The Partnership Project sets forth a two-part structure to 
meaningfully integrate Kuskokwim Tribes and Federally qualified users 
into the decisionmaking process for fisheries management on Federal 
public waters of the Kuskokwim River drainage. The MOU represents one 
component of a two part structure that will implement the 2014 
directive from the Deputy Secretary to establish a demonstration 
project for the Kuskokwim River Drainage that integrates Alaska Natives 
into Federal fishery management into the decisionmaking process. The 
MOU builds upon the experience and success gained from consultations 
between the Commission and the Yukon Delta National Wildlife Refuge 
Manager related to Federal in-season fishery management decisions for 
the 2015 season, and will provide an opportunity to advance issues that 
are critical to the Commission and Federally qualified users in future 
years. The second component of the Partnership Project is a proposal 
cooperatively developed by the Commission, the Office of Subsistence 
Management (OSM), and the Service which was submitted to the two 
Regional Advisory Councils (Councils) in the Kuskokwim River drainage 
for a subcommittee jointly chartered by the two Councils. The goals of 
the proposal include providing a meaningful role for the Commission in 
the Federal subsistence management process and developing unified 
recommendations for fishery management for the Kuskokwim River 
drainage.
    The Department of the Interior and the Service also share a mutual 
concern with the Commission for the conservation of fish resources and 
their habitats and ensuring the opportunity for the continuation of the 
subsistence way of life. Both are engaged in fish management strategies 
and programs and desire to develop and maintain a cooperative 
relationship which will be in the best interests of the Parties and the 
resource.
    Additionally, the Department, Service, and Commission share the 
goal of meaningfully integrating the tribal governments located in 
Kuskokwim River drainage, through their membership and participation in 
the Commission, as broadly as possible, into the management of Federal 
public waters in the Kuskokwim River drainage fisheries.
    The Parties share the goal of effective and timely communication of 
all information and consultation and collaboration for in-season 
fishery management actions;

    ARTICLE II--AUTHORITY

    The following authorities support the MOU:

  <bullet> Alaska National Interest Lands Conservation Act (ANILCA) 
        Title VIII

  <bullet> Alaska Native Claims Settlement Act

  <bullet> Executive Order 13175 ``Consultation and Coordination with 
        Indian Tribal Governments''

  <bullet> Secretarial Order 3317, Department of Interior Policy on 
        Consultation with Indian Tribes (December 2011)

  <bullet> Secretarial Order 3335 ``Reaffirmation of the Federal Trust 
        Responsibility to Recognized Indian Tribes and Individual 
        Indian Beneficiaries''

  <bullet> U.S. Fish and Wildlife Service Native American Policy (1994)

  <bullet> Federal Subsistence Board regulations 36 CFR 242 and 50 CFR 
        100

    The Federal Subsistence Board (Board) is vested with authority 
delegated by the Secretaries of the Interior and Agriculture to manage 
subsistence uses and resources on the Federal public lands in Alaska. 
The Board may delegate specific regulatory authority related to the in-
season management of fish species for the Federal public waters in the 
Kuskokwim Area. The manager of the Yukon Delta National Wildlife Refuge 
(Refuge is currently delegated this authority. The Letter of Delegation 
from the Board to the Refuge manager is attached as an appendix.
    The Department has a government-to-government relationship and 
trust responsibility with the Federally recognized tribes in the 
Kuskokwim River Drainage and is committed to implementing programs that 
further tribal self-determination. The Federally recognized Kuskokwim 
River Tribes are the governing bodies for the tribal members who are 
residents of these rural communities in the Kuskokwim River Drainage. 
The Kuskokwim River Tribes established the Commission for the purpose 
of engagement in the management of Kuskokwim River fisheries.

    ARTICLE III--STATEMENT OF WORK

    This MOU formalizes an agreement for substantive consultation 
between the Federal in-season manager and the Commission prior to in-
season management decisions and actions. The MOU also acknowledges the 
collaborative development of a proposal by the Parties for a fisheries 
subcommittee jointly chartered by the Western Interior and Yukon-
Kuskokwim Delta Regional Advisory Councils (Councils).

    THE SERVICE AGREES:

    1. The Federal in-season manager will consult with the Commission 
for the purpose of collaboratively making fisheries management 
decisions with the integration and application of Commission knowledge, 
information, and management strategies.

    2. All relevant data and information will be provided by the 
Service to the Commission at the earliest practicable time before 
consultation.

    3. The Federal in-season manager will serve as the primary point of 
contact for the agency.

    4. To engage the Commission as partners in the development and 
implementation of fishery management projects for the Kuskokwim River 
drainage, such as research, monitoring, harvest surveys, subsistence 
studies, test fisheries, and other programs, and to enter into 
cooperative funding agreements with the Commission to support such 
capacity building to the degree funding is available from the Service 
or the Department.

    5. To provide a timely written justification to the Commission when 
the Refuge manager is unable to reach consensus with the Commission 
regarding Kuskokwim Fisheries in-season management decisions. The 
justification will include an explanation of how the Commission's 
traditional and scientific information and position were integrated and 
considered in the management decision.

    THE COMMISSION AGREES:

    1. To maintain its status as a tribal organization with membership 
open to all of the Federally recognized Tribes in the Kuskokwim River 
drainage, that the Commission represents a significant majority 
Kuskokwim tribes representing all segments of the drainage, and that 
the Commission is authorized by its member tribes to engage in the 
management activities formalized through this MOU.

    2. To recognize the Refuge Manager at Yukon Delta National Wildlife 
Refuge as the Federal in-season manager to the extent such authority 
has been delegated by the Board, including delegated authority to issue 
emergency special actions for the management of fish within the Federal 
public waters of the Kuskokwim River drainage. The scope of delegation 
set by the Board and limited by 36 CFR 242.10(d)(6) and 50 CFR 
100.10(d)(6).

    3. To provide all relevant data and information to the Service at 
the earliest practicable time before consultation, including local and 
traditional observations and knowledge and regional customary and 
traditional fishing practices.

    4. To inform the Kuskokwim River Villages about in-season and other 
fishery management plans and actions.

    5. To meaningfully engage in consultations with the Service to 
collaboratively manage fish in the Kuskokwim River drainage.

    6. To designate an in-season consultation committee composed of the 
fewest number of Commissioners that can adequately represent the member 
tribes, understanding that the lower, middle, and upper regions of the 
watershed will be equitably represented.

    7. To assist the Service with communication and outreach of 
critical biological and regulatory information to Commission members 
throughout the year.

    THE PARTIES MUTUALLY AGREE:
    1. To engage in consultation and collaboration throughout the year 
to coordinate planning for management actions regarding fish resources 
on Federal public waters of the Kuskokwim River, and to facilitate 
development of a unified management strategy that is informed by 
traditional ways of knowing and science that is biologically, 
environmentally and culturally sound.

    2. Each party will engage in consultation and collaboration with an 
open mind and without committing to a special action before 
consultation occurs between the Parties. The Parties will notify each 
other, in a timely manner, of discussions with other management 
agencies and provide a summary of the information exchanged.

    3. Both parties acknowledge the dynamics of in-season management 
and that in certain instances, due to the need for a timely decision, 
immediate consultation and collaboration may not be possible or will 
need to be abbreviated. Both parties will, in good faith, minimize the 
instances when abbreviated consultations occur and will meet soon 
thereafter to discuss the management action taken and modifications 
that may be necessary.

    4. The Service and Commission will contribute to and support a 
Technical Advisory Body (TAB) that consists of fisheries biologists/
scientists, social scientists, and traditional knowledge experts. The 
TAB will meet as requested by the Service or Commission, freely 
exchange information, and strive to cooperatively develop a unified 
presentation of information for consideration during negotiation, 
consultation and collaboration.

    5. The Federal in-season manager and the Commission will negotiate 
for the purpose of striving to reach consensus on in-season management 
decisions. The parties expect that consensus will be reached for a 
large majority of issues. If consensus cannot be reached by 
negotiation, the Commission may take one or more of the actions below:

        A. The Commission may request that a conference call or meeting 
        occur with the Service Regional Director/Deputy Regional 
        Director, the Assistant Regional Director of OSM, the Federal 
        in-season manager, and, at the request of the Commission, the 
        Bureau of Indian Affairs Regional Director or Deputy Regional 
        Director, in a timely fashion to engage knowledgeable experts 
        and key decision makers in a discussion for the purpose of 
        achieving a mutually beneficial compromise. This strategy is 
        consistent with the qasgiq model, a Yup'ik problem-solving 
        framework, similar to a collaborative decisionmaking framework 
        widely practiced among Federal agencies known as operational 
        leadership. The Federal in-season manager maintains delegated 
        authority. Members of the TAB may be requested to attend the 
        meeting.

        B. The Commission may submit a Special Action Request with 
        urgency to the Board in an effort to address a concern. The 
        Service agrees to request that the Commission's Special Action 
        Request be addressed with urgency.

        C. The Commission may submit a request to the Board to 
        reconsider an in-season management action.

    6. To support the development and establishment of a joint 
subcommittee appointed by the Councils. The goal for the Subcommittee 
is to develop recommendations to the Councils on the initiation, 
review, and evaluation of proposals for regulations, policies, 
management plans, special actions (in-season management), and other 
matters or potential impacts relating to management, conservation, and 
subsistence users of fish in the Kuskokwim River Area, or for fisheries 
which have impacts on Kuskokwim River Area stocks. Fishery proposals 
developed by the Subcommittee and forwarded to the Board by both 
Councils as recommendations will be entitled to deference in accordance 
with Section 805 of ANILCA and Board policy.

    7. If the Councils choose not to establish a Subcommittee that 
incorporates the substance of the Parties' proposal, the Parties will 
jointly develop a proposal for the Department of the Interior under the 
authority of ANILCA Section 805(a) or other legal authority that 
incorporates the objectives of the Subcommittee.

    8. To send the same representatives to attend consultations. The 
parties may send an alternate to consultations only when necessary, 
recognizing this should only occur on a very limited basis.

    9. To develop supplemental memoranda of understanding between the 
Commission and the Refuge, as may be required to implement the 
objectives of the Partnership Project as it develops.

    10. To attend and meaningfully participate in consultations during 
in-season fisheries management and at other times when requested by 
either Party, and to promote a professional, productive, and 
collaborative atmosphere, while avoiding confrontational speech or 
behaviors.

    11. To actively encourage and seek the participation of the State 
of Alaska fishery managers in the consultation and collaboration 
process.

    12. To jointly develop a proposal to the Board for an abbreviated 
process that will, to the degree practicable, provide an opportunity 
for timely relief when a request is submitted to reconsider an in-
season management action.

    ARTICLE IV--TERMS OF AGREEMENT

    1. This MOU shall become effective upon the signature of the 
Service and the Commission.
    2. This MOU shall continue until terminated by the Service or the 
Commission. A party may terminate this MOU by providing sixty (60) days 
advance written notice to the other party. Upon notice of termination, 
the Parties will meet promptly to discuss the reasons for the notice 
and to try to resolve their differences.
    3. Amendments to this MOU may be proposed by the Service or the 
Commission and shall become effective upon the signature of the 
Parties.
    4. If the Board changes the delegation of authority for the 
Kuskokwim River Federal in-season manager, this MOU will be carried 
forward and amended to reflect the new delegation.
    5. Any significant change in the scope of Federal public lands or 
tribal lands in the Kuskokwim region will require a re-evaluation and 
possible amendment of this MOU.
    6. This MOU shall be re-evaluated by the Parties after two (2) 
years from the date of execution.

    The Chairman. Ms. Romero-Briones.

        STATEMENT OF A-DAE ROMERO-BRIONES, J.D., LL.M, 
  DIRECTOR OF PROGRAMS, NATIVE AGRICULTURE AND FOOD SYSTEMS, 
              FIRST NATIONS DEVELOPMENT INSTITUTE

    Ms. Romero-Briones. [Greeting in native tongue.]
    It is an honor to be here Chairman Hoeven, Vice-Chairman, 
and members of the Committee.
    I come from the beautiful Cochiti Pueblo in New Mexico but 
I am also Kiowa from the Kiowa Tribe of Oklahoma.
    I have the honor of working as the Director of Programs for 
First Nations Development Institute. I run the Native 
Agriculture and Food Systems Initiative. First Nation's mission 
is to support tribal communities in economic development with 
the fundamental belief that tribes have the wherewithal, 
knowledge and ability to create their own solutions for their 
communities.
    I have submitted written comments for you to review at your 
pleasure. Those comments were generated by input from the many 
grantees we have. We currently serve or have served over 307 
different grantees that are working on community-based food and 
agricultural projects. A large number of those grantees are 
focused on documenting their subsistence practices as a way of 
giving clout to the practices that have sustained their 
communities for generations.
    I come to you at a special time in my community. We 
recently completed the harvesting of our scung which is wild 
celery. When you look at the harvesting time, it coincides with 
the different seasons and provides an important and sometimes 
the only source of iron and Vitamin C to the community after a 
long winter in New Mexico.
    Senator Udall, thank you for your work on behalf of tribal 
communities and also for describing New Mexico as beautiful as 
most think of it as a desert. It has much to offer this 
Country.
    I want to focus my oral comments on two important 
prospects. My community is located on the banks of the Rio 
Grande River. In order to manage whatever resources, whether 
elk, deer, turkey, and fish that makes its way to the Rio 
Grande River and have made their existence part of our 
existence in the subsistence lifestyle, we have to deal with 
over seven different Federal agencies starting at the top of 
the mountain where we have the National Forest Service all the 
way down to the Bureau of Reclamation to the Bureau of Land 
Management, BIA and even the Department of Defense.
    In order to manage our traditional lifestyles having to 
meet with so many different agencies, with so many different 
tribal consultation policies, and different perspectives from 
Federal managers, is a challenge. That is an understatement.
    In addition, one of the most critical issues happening in a 
lot of our communities around the Country is the threat of 
commercialization of some of our traditional foods and 
traditional products.
    I have the honor of serving as a National Organic Standards 
Board member within the Organic Food Production Act which does 
not recognize tribal communities. There is a provision allowing 
for organic certification of wild products. In California right 
now, when the tribes are making their way to process and save 
seaweed for the winter months, the commercialization of seaweed 
has created some conflicts along the coast.
    Thank you.
    [The prepared statement of Ms. Romero-Briones follows:]

  Prepared Statement of A-Dae Romero-Briones, J.D., LL.M, Director of 
     Programs, Native Agriculture and Food Systems, First Nations 
                         Development Institute
Introduction
    Chairman Hoeven, Vice-Chairman, and members of the Committee, my 
name is A-dae Romero-Briones. I am a member of the Cochiti Pueblo, one 
of 19 Pueblo communities in New Mexico. I am also Kiowa from the Kiowa 
Tribe in Oklahoma.
    I serve as the Director of Programs for the Native Agriculture and 
Food Systems Initiative (NAFSI) at First Nations Development Institute 
(First Nations). First Nations's mission is to strengthen American 
Indian economies to support healthy Native communities. We invest in 
and create innovative institutions and models that strengthen asset 
control and support economic development for American Indian people and 
their communities. We believe that when armed with appropriate 
resources, Native peoples hold the capacity and ingenuity to ensure the 
sustainable, economic, spiritual and cultural well-being of their 
communities. This belief largely stems from examples of long-standing 
food system management that includes subsistence practices in 
Indigenous communities.
    NAFSI began in 2002 because of the need in Indian Country for 
financial support for community-based food system projects that include 
financial and policy support for traditional gathering, hunting, and 
management practices. Since 2002, First Nations has awarded 307 grants 
totaling more than $7.58 million to Native organizations dedicated to 
increasing food access and improving the health and nutrition of Native 
children and families. This number, however, pales in comparison to the 
more than 1,450 requests received that totali more than $49.7 
millionover that time, illustrating that a huge unmet need for funding 
for these types of projects continues in Native communities.
    These comments were generated with input from communities we 
support at First Nations Development Institute, our friends at the 
Indigenous Food and Agricultural Initiative at the University of 
Arkansas, and from personal experience coming from a community that 
relied heavily on subsistence agriculture. With increased pressures for 
energy, urban expansion, and ever changing environmental conditions, 
Indigenous subsistence practices are becoming all the more important to 
the communities that practice them. It is my hope that we all recognize 
and acknowledge the ecological managing that subsistence practices 
(hunting, gathering, fishing, etc.) offer to support Indigenous 
communities and people, ecosystems, regional environments, and our 
country. These comments are also made with the understanding that there 
is a government recognition of Tribal Sovereignty and Trust 
Responsibility that underlies any government approach, whether through 
legislation or regulation or otherwise, meant to protect Tribal 
Nationhood which includes the food system institutions that sustain 
those nations. Lastly, these comments focus largely on Indigenous 
communities located in the lower 48 because Alaska presents its unique 
historical and present day circumstances.
Subsistence Practices Are Ecological Management Practices
    Subsistence should be recognized as sustainable ecological 
management practices worthy of protection. Far too often, subsistence 
practices are seen as passive activities isolated to Indigenous 
communities and focused solely on ``food gathering.'' Yet, subsistence 
practices include hunting, gathering for food, medicine, tools, 
traditional arts like clothing, dying, basketmaking and building, 
fishing, and controlled burning. Subsistence is not a singular ``food 
gathering'' activity, but encompasses a multi-dimensional approach to 
environmental understanding and management that is embodied in the 
lifeways of a community.
    In mainstream society, subsistence denotes production at a level 
sufficient only for one's own use or consumption without any surplus 
for trade or the action of maintaining or supporting oneself at a 
minimum level. \1\ However, Indigenous subsistence practices are much 
more than minimal levels of production, they are the practical 
manifestation of generations of Indigenous knowledge institutionalized 
in ecological management systems. In short, subsistence practices 
empower Indigenous communities, allowing them to manage their 
environments, and the human presence within that environment, and to 
adjust to environmental changes with the goal of ensuring environmental 
health for generations.
---------------------------------------------------------------------------
    \1\ ``Subsistence.'' Google Dictionary, Google, 19 June 2018, 
www.google.com/search?
q=subsistence&rlz=1C1EJFA_enUS800US800&oq=subsisten
&aqs=chrome.0.69i59j69i60j69i57j0l3.1924j1j9&sourceid=chrome&ie=UTF-8.
---------------------------------------------------------------------------
    This long-standing approach to environmental management ensures 
that a community is ``balanced'' within their own environments and eco-
systems.. In communities where we see a disruption of subsistence 
lifeways, we also tend to see a greater dependence on retail markets 
and their support networks, and thus a greater likelihood of over-
consumption and waste. Once lost, subsistence practices, that have been 
strengthened over generations, are much more difficult to re-create, 
re-teach, and re-learn.
    As a Nation and at First Nations Development Institute, we have 
numerous examples of subsistence practices maintaining and improving 
local ecosystems from watershed improvement, species population 
balance, endemic plant and animal protection, and creating a blue print 
for climate change adaption. More often than not, subsistence 
communities are often the first alarm when environmental changes occur 
as we see with climate change.
    Too often, we think of subsistence as a practice that is limited to 
places like Alaska where the remote nature of villages and communities 
is common. \2\ Yet, subsistence practices (ecological management) 
occurs in almost every Indigenous community through the lower 48, 
Alaska, and Hawai'i. Subsistence practices are not only important to 
some of the most food insecure Indigenous populations, subsistence 
practices are practiced intentionally and by choice by many Indigenous 
people across this nation to perpetuate a shared responsibility to our 
human and non-human community, and shape environmental conditions to 
ensure the continued environmental and human health for future 
generations.
---------------------------------------------------------------------------
    \2\ Subsistence use: The customary and traditional use by Native 
Americans of renewable resources. For Alaska, specific statutory 
definition of ``subsistence uses'' comes from section 803 of the Alaska 
National Interest Lands Conservation Act of 1980 and is paraphrased as 
``the customary and traditional uses by rural Alaska residents of wild 
renewable resources for direct personal or family consumption as food, 
shelter, clothing, tools, or transportation; for the making and selling 
of handicraft articles out of nonedible by-products of fish and 
wildlife resources taken for personal or family consumption; for 
barter, or sharing for personal or family consumption; and for 
customary trade.''
---------------------------------------------------------------------------
Subsistence Practices Today
         Toni Stanger-McLaughlin, an attorney, wife, and mother from 
        the Coleville Tribe in Washington spent several years working 
        for USDA in Washington, DC. She now resides with her family on 
        Coleville where she practices a subsistence lifestyle with her 
        husband and three children. She says, ``My family survives on 
        either three deer or one elk or one moose and a small deer for 
        dried meat. Last year, we got a cow elk and only needed one 
        other deer. Most years we get 3-4 smaller deer, just enough to 
        get our family through an entire year. We need 6-7 large wild 
        salmon, and three gallons of berries and a couple gallon size 
        bags of other assorted roots and medicine. We also get a few 
        small birds. All harvested on my reservation or in traditional 
        seeded areas. I grew up like this and so will my children. I 
        didn't buy salmon in a store until I was in law school. During 
        certain times of the year, areas of my reservation can 
        experience upwards of 67 percent unemployment and still survive 
        through subsistence hunting and fishing. \3\
---------------------------------------------------------------------------
    \3\ Email Communication. June 15, 2018.

    From the salmon fisherman and acorn gatherers on the California 
Coast to the maple syrup and clam shell gatherers on the coasts of New 
England, ecological management is tied directly to Indigenous food 
systems as a codification of the relationship between Indigenous people 
and their environment. When that environment changes, the effects of 
that change is directly tied to the people who depend on that 
environment. While modern science requires data collection over time, 
Indigenous people are perhaps the best examples of generational data 
keepers.
    Subsistence is, in fact, a process by which a community maintains 
their relationship with the environment. Through this process, the 
community continues to gather data and information about changing 
environments, and assist in managing those changes through time-proven 
practices such as hunting and gathering.
    Despite the presence and convenience of the American retail food 
system, many communities still continue to practice subsistence both by 
choice and necessity, as demonstrated earlier by Toni's story. Toni can 
live and work wherever she so chooses, yet chooses to live within her 
own community practicing subsistence. But also, there are many Tribal 
people who have no choice but to depend on subsistence.
    Indian Country has some of the highest insecurity rates among any 
population, some of the highest food costs, and lowest incomes. One out 
of 12 Native individuals is so food insecure as to be classified as 
hungry. \4\ American Indians have the highest food insecurity in the 
U.S., with Native households with children having a food insecurity 
rate of 28 percent compared to 16 percent for non-Natives. \5\ An 
overlay of the USDA Food Deserts Locator map with Native communities 
shows an absence of retail supermarkets. Local convenience stores 
emphasize high-priced, nutritionally-deficient and preserved foods.
---------------------------------------------------------------------------
    \4\ Henchy, G., Cheung, M., & Weill, J. (200). WIC in Native 
American communities: Building a healthier America--Report summary. 
Food Research and Action Center. Washington, DC.
    \5\ Gunderson C. (2008). MeasTuring the extent, depth, and severity 
of food insecurity: an application to American Indians in the USA. 
Journal of Population and Economics. 21: 191-215.
---------------------------------------------------------------------------
    In a recent First Nations Development Institute study called The 
Indian Country Food Price Index: Exploring Variation in Food Pricing 
Across Native Communities--A Working Paper II, we found that Tribal 
communities in the contiguous United States (or lower 48), over the 12-
month study, paid on average $8.41 more for a basket of food items than 
the national average. Similarly, in Alaska Native villages, shoppers on 
average paid $35.84 more when compared to the national average for the 
same basket of food items. The national average for the basket of items 
was $23.28. \6\ These price differences are significant when you 
consider that the median income of American Indian and Alaska Native 
households was averaged at $35,062, compared with $50,046 for the 
nation as a whole. \7\ In addition, 28.4 percent of American Indians 
and Alaska Natives that were in poverty in 2010, compared to 15.3 
percent for the general nation. \8\ Based on these statistics, many 
American Indian communities are more food insecure, have few retail 
food establishment options, and pay higher prices for small amounts of 
food. While this is seemingly a glum profile, many American Indian 
people thrive because of the Indigenous ecological management 
(subsistence) practices continue to provide purpose, continuity, and 
sustenance to the communities who practice them. However, increased 
environmental pressures for both energy and housing, urban sprawl, 
climate change, ecological management (subsistence) practices are 
consistently challenged and undermined.
---------------------------------------------------------------------------
    \6\ First Nations Development Institute. (2018) ``Indian Country 
Food Price Index: Exploring Variation in Food Pricing Across Native 
Communities--A Working Paper II''. Longmont, Colorado: First Nations 
Development Institute.
    \7\ 2010 American Community Survey for the American Indian and 
Alaska Native alone population
    \8\ 2010 American Community Survey for the American Indian and 
Alaska Native alone population
---------------------------------------------------------------------------
Barriers
    Although ecological management (subsistence) practices could once 
be exercised freely, the increasing limitations on Indian land 
ownership has created barriers that limit a Tribal Nation's ability to 
practice long-standing ecological management (subsistence). First, 
Indian Country is now only a small fraction of what Indigenous people 
once occupied, but even within those lands still under Indigenous 
ownership/occupation ecological management (subsistence) practices may 
be inhibited depending on the type of land title designation. Second, 
important lands outside of Tribal occupation are likely within federal 
agency like the US Forest Service, Bureau of Land Management, Bureau of 
Reclamation, and the Department of Defense. These lands are accessible 
at the discretion of the federal managers. While some progress has been 
made to develop protocols to allow for Tribal nations to access some 
federal lands, more needs to be done to ensure an objective, less 
discretionary, process.
Land Holdings
    Indian Country encompasses over 56 million acres. There are 302 
forested Indian reservations which encompass 17.9 million acres of 
Indian forest lands--7.7 million acres of timberlands and 10.2 million 
acres of woodlands. One hundred and ninety-nine reservations contain 
timberlands and 185 reservations contain woodlands. \9\ While these 
landholding is seemingly large, complications in land management looms 
larger. The differences in land title, Tribal trust lands, allotted 
trust lands, and fee lands often results in different management rules 
on designated parcels, so access to these lands for hunting, gathering, 
and management may be limited, or worse, inaccessible to Tribal people 
despite being within Tribal boundaries.
---------------------------------------------------------------------------
    \9\ National Congress of American Indians. ``Demographics.'' Home 
NCAI, 2018, www.ncai.org/about-tribes/demographics
---------------------------------------------------------------------------
    It is recognized that Tribal Nations are fully in control of treaty 
rights that often include ecological management (subsistence practices) 
within the boundaries of a reservation, yet, treaty rights over 
hunting, fishing, and gathering are heavily impacted by activities 
outside of reservation boundaries. It should be recognized that the 
exercise of Tribal treaty rights within reservation boundaries MUST be 
considered when making determinations about off-reservation activities 
that would affect treaty rights within the reservation, such as 
management of habitats and how those habitats relate to National forest 
timber harvest, recreation, water, grazing, and mineral exploration.
Federal Lands
    Federal land holdings are of significant importance and impact to 
Indigenous ecological management (subsistence) practices. A few, but 
not all, of the federal agencies that have impact on ecological 
management (subsistence) practices are listed and discussed below:
1. National Forest Service
         ``The Forest Service shares nearly 3,000 miles of contiguous 
        border with AI/AN-owned lands and acknowledges that many lands 
        now within the NFS are the ancestral homelands and ceded 
        territories of many Tribes. This makes the agency and Tribes 
        more than just neighbors; they are partners with common goals 
        for social, cultural, ecological, and economic sustainability. 
        Many Tribes have historically managed their own forests well 
        and in ways the Forest Service hopes to emulate. Tribal land 
        management is a testament to the Tribal land ethic, an ethic 
        rooted in traditions, stories, and cultures. Sacred sites, both 
        on AI/AN land and within the national forests, are important 
        facets of that land ethic and a common bond between us.'' (p 
        14) \10\
---------------------------------------------------------------------------
    \10\ USDA Office of Tribal Relations and USDA Forest Service. 
``Report to the Secretary of Agriculture: USDA Policies and Procedures 
Review and Recommendations Indian Sacred Sites.'' (Dec 2012)

    There has been great strides in improving the relationship between 
the US Forest Service and Tribal Nations. Yet, more can still be done 
to ensure the shared goal of natural resource management. The US 
National Forest Service (NFS) is required to administer the NFS for 
outdoor recreation, range, timber, watershed, and wildlife and fish 
purposes; to analyze the environmental impacts of decisions it 
authorizes; to protect threatened and endangered species; to conduct 
research; and to carry out a host of other responsibilities on NFS 
lands. In the Report to the Secretary of Agriculture dated December of 
2012 regarding Policies and Procedures to Allow Tribal Access to Indian 
Sacred Sites, there were several recommendations that should be 
implemented. These include: (1) improving relationships between Tribal 
Nations and the US Forest Service by creating a ``meaningful'' Tribal 
Consultation policy; (2) expanding the definitions used in E.O. 13007 
of ``Indian Sacred Sites;'' and (3) utilizing legal tools to protect 
Indian sacred sites within US Forest Lands against 3rd party damage to 
sacred sites.
    Of particular importance is the expansion of the definition of 
sacred sites in E.O. 13007. This definition should include a 
recognition of ecological management (subsistence) practices. It 
currently reads as so:

         ``. . .any specific, discrete, narrowly delineated location on 
        Federal land that is identified by an Indian Tribe, or Indian 
        individual determined to be an appropriately authoritative 
        representative of an Indian religion, as sacred by virtue of 
        its established religious significance to, or ceremonial use 
        by, an Indian religion; provided that the tribe or 
        appropriately authoritative representative of an Indian 
        religion has informed the agency of the existence of such a 
        site.'' \11\
---------------------------------------------------------------------------
    \11\ Sacred Sites, E.O. 13007, Public Notice; Request for Comment. 
76 Fed. Reg. 47,538 (Aug. 5, 2011).

---------------------------------------------------------------------------
    It should read as so:

         Any specific, discrete, narrowly delineated location on 
        Federal land that is identified by an Indian Tribe, or Indian 
        individual determined to be an appropriately authoritative 
        representative of an Indian religion, as sacred by virtue of 
        its established religious or ecological management significance 
        to, or ceremonial use by, an Indian religion; provided that the 
        Tribe or appropriately authoritative representative of an 
        Indian religion has informed the agency of the existence of 
        such a site.

2. Bureau of Land Management
    The Bureau of Land Management (BLM) is a significant federal agency 
in protecting and supporting ecological management (subsistence) 
practices as it manages federal lands in states where Tribes are the 
most numerous such as Alaska, Arizona, California, Colorado, Montana, 
North Dakota, South Dakota, Idaho, Nevada, Oregon, Washington, New 
Mexico, Utah, and Wyoming. BLM is given authority and guided by the 
Federal Land Policy and Management Act (FLPMA). The FLPMA does give 
some consideration to Tribal Nations such as in Title II, section 202 
(43 USC Section 1712(b)). \12\ However, this provision is limited to 
lands within the National Forest System. Management Plans for federal 
land bases that have significant ecological management (subsistence) 
practice value should include Tribal input, not just those within the 
National Forest System.
---------------------------------------------------------------------------
    \12\ b) Coordination of plans for National Forest System lands with 
Indian land use planning and management programs for purposes of 
development and revision In the development and revision of land use 
plans, the Secretary of Agriculture shall coordinate land use plans for 
lands in the National Forest System with the land use planning and 
management programs of and for Indian tribes by, among other things, 
considering the policies of approved tribal land resource management 
programs.
---------------------------------------------------------------------------
    Management plans for lands considered Outstanding Natural Areas, 
even if they are recognized as culturally significant lands to local 
Tribes, are not required to include Tribal consultation or 
considerations. \13\ For example, the Pierdas Blancas Historic 
Lighthouse Station is designatedas an Outstanding Natural Area. \14\ 
Within the same act, it is acknowledged that the Chumash and Salian 
Tribes used the area traditionally [for fishing and gathering]. \15\ 
Yet, they are not required to be consulted in the management plans 
surrounding that area. FLMPA states:
---------------------------------------------------------------------------
    \13\ https://www.blm.gov/sites/blm.gov/files/uploads/MS%201780.pdf
    \14\ 43 USC 1786 (a)(2)
    \15\ 43 USC 1786 (b)(4)

         ``The management plan shall be developed in consultation with 
        appropriate Federal, State, and local government agencies, with 
        full public participation, and the contents shall include--
         (E) cultural resources management strategies for the 
        Outstanding Natural Area, prepared in consultation with 
        appropriate departments of the State of California, with 
        emphasis on the preservation of the resources of the 
        Outstanding Natural Area and the interpretive, education, and 
        long-term scientific uses of the resources, giving priority to 
        the enforcement of the Archaeological Resources Protection Act 
        of 1979 (16 U.S.C. 470aa et seq.)'' \16\
---------------------------------------------------------------------------
    \16\ 43 USC 1786 (3)(A-E)

    This intentional exclusion of Tribal input from significant areas 
that retain or are of importance to ecological management (subsistence 
practices) should, at the very least, include Tribal input into how 
these areas are managed. There is a recognition of Tribal significance 
by giving the land managers the ability to close the park for religious 
or ceremonial purposes, but does NOT give input into management plans 
of these lands, much less, give recognition of or ability to practice 
ecological management (subsistence) practices on these lands. \17\
---------------------------------------------------------------------------
    \17\ 43 USC 1786 (10) states: (10) Native American uses and 
interests In recognition of the past use of the Outstanding Natural 
Area by Indians and Indian tribes for traditional cultural and 
religious purposes, the Secretary shall ensure access to the 
Outstanding Natural Area by Indians and Indian tribes for such 
traditional cultural and religious purposes. In implementing this 
subsection, the Secretary, upon the request of an Indian tribe or 
Indian religious community, shall temporarily close to the general 
public use of one or more specific portions of the Outstanding Natural 
Area in order to protect the privacy of traditional cultural and 
religious activities in such areas by the Indian tribe or Indian 
religious community. Any such closure shall be made to affect the 
smallest practicable area for the minimum period necessary for such 
purposes. Such access shall be consistent with the purpose and intent 
of Public Law 95-341 (42 U.S.C. 1996 et seq.; commonly referred to as 
the ``American Indian Religious Freedom Act'').
---------------------------------------------------------------------------
    Additionally, BLM has broad authority to enter into contracting 
agreements with Tribal Nations. \18\ In some instances, the agreements 
entered into with Tribal Nations for management of culturally 
significant land bases resulted in agreements that failed to compensate 
Tribal Nations for beneficial land management practices because some 
subsistence practices like hunting and gathering are not recognized as 
ecological management. The end result was that Tribal Nations were 
burdened with executing a contract that did not adequately cover the 
cost of the contract. BLM contracts with Tribal Nations should include 
recognition as subsistence practices as beneficial ecological 
management with costs covered to execute those activities within the 
Tribal/BLM contract.
---------------------------------------------------------------------------
    \18\ Bureau of Land Management Manual. Rel. N0. 1-1780 (7)
---------------------------------------------------------------------------
    Lastly, BLM has a robust Tribal Consultation policy that still can 
be improved to recognize ecological management (subsistence) practices. 
Native American Cultural and Religious significant places are mentioned 
throughout the internal BLM consultation policy. \19\ It should be 
recognized that this term includes traditional ecological management 
(subsistence) practices. \20\
---------------------------------------------------------------------------
    \19\ Bureau of Land Management Manual. Rel. N0. 1-1780 (7)
    \20\ Bureau of Land Management Manual. Rel. N0. 1-1780 defines as, 
``Traditional cultural property (TCP): A phrase often used in reference 
to a ``property of traditional religious and cultural importance'' as 
defined in the NHPA, which are identified by Indian tribes. The 
property derives significance from traditional values associated with 
it by a social and/or cultural group such as an Indian tribe or local 
community. It commonly refers to a culturally sensitive area that may 
qualify for the NRHP if it meets the criteria and criteria of 
exceptions at 36 CFR 60.4. See National Register Bulletin 38.'' (p 36).
---------------------------------------------------------------------------
3. National Park Service
    Like other agencies, the National Park Service has a robust tribal 
consultation policy. Although, much like other agencies the ability to 
respond and work with Tribal communities with significant ties to lands 
with the National Park service charge is left to the discretion on the 
National Park service director/manager of a particular park. This 
discretion can be frustrating to Tribes if the relationship with the 
National Park Service director/manager is not cordial. The National 
Park Service director/manager is NOT required to allow for ecological 
management (subsistence) practices. They are only directed to follow 
National Park Service Policy which reads as such:

         ``With regard to consumptive use of park resources, current 
        NPS policy is reflected in regulations published at 36 CFR 2.1 
        and 36 CFR Part 13. These regulations allow superintendents to 
        designate certain fruits, berries, nuts, or unoccupied 
        seashells that may be gathered by hand for personal use or 
        consumption if it will not adversely affect park wildlife, the 
        reproductive potential of a plant species, or otherwise 
        adversely affect park resources. The regulations do not 
        authorize the taking, use, or possession of fish, wildlife, or 
        plants for ceremonial or religious purposes, except where 
        specifically authorized by federal statute or treaty rights or 
        where hunting, trapping, or fishing are otherwise allowed.'' 
        \21\
---------------------------------------------------------------------------
    \21\ National Park Service. Management Policies: The Guide to 
Managing the Park Service System. 2006

    Because many ecological management (subsistence) practices are not 
specifically recognized by federal statute or treaty rights, many 
ecological management (subsistence) practices are disallowed and not 
practiced. It would be wise for federal legislatures to recognize 
ecological management (subsistence) practices as necessary 
environmental management tools even within Federal lands.
4. Bureau of Ocean and Energy Management
    The Bureau of Ocean and Energy Management (BOEM) has an incredible 
impact on ecological management (subsistence) practices on ocean 
resources. Historically, Tribal communities not only in coastal 
regions, but even in mid-continent of North America, depended on ocean 
resources for ceremonial, diet, and cultural patrimony. In more recent 
times, the rapid change in ocean and sea conditions and ocean resources 
is extremely concerning. Tribal people see important subsistence 
resources like clams, oysters, abalone, and seaweed, to name a few, 
depleting at unconscionable rates. Because these resources play an 
important role in ecological balance, Tribal Nations have been 
struggling to be recognized as stewards of these resources, participate 
in the management of these resources, and practice ecological 
management to ensure the continuation of these resources for future 
generations.
    BOEM's Tribal Consultation policy is not as robust or articulated 
as other federal agencies. While it is subject to federal law, and 
recognized as a government-to-government relationship with Tribes, BOEM 
does not spell out how federal law and the government-to-government 
relationship is reflected in agency action, policy, and practice. 
Articulating a Tribal Consultation policy would help Tribal 
stakeholders understand where and how to influence BOEM agency 
decisionmaking in order to advocate for the practice ecological 
management (subsistence) practices.
    Additionally, many of the ocean resources that are of importance to 
Tribal communities are within BOEM management scope. A full 
understanding of what ocean resources are of concern should be explored 
through a Tribal/BOEM relationship exploration process much like the US 
Forest Service did with sacred sites. \22\ Many Tribal Nation concerns 
over ocean resources could be documented and explored, but this process 
may also provide valuable information and data about ocean resources to 
BOEM that have yet to be considered or documented.
---------------------------------------------------------------------------
    \22\ See USDA Office of Tribal Relations and USDA Forest Service. 
``Report to the Secretary of Agriculture: USDA Policies and Procedures 
Review and Recommendations Indian Sacred Sites.'' (Dec 2012)
---------------------------------------------------------------------------
5. US Fish and Wildlife Service
    The US Fish and Wildlife Service (USFWS) has an important mechanism 
for including Tribal participation in ecological management 
(subsistence) practices through the State and Tribal Wildlife Grants 
Program. This program should continue to be supported, but should also 
be considered for expansion to include more Tribes. USFWS should also 
consider providing technical assistance webinars to increase Tribal 
participation by Tribes who do not normally participate.
Recognition of Indigenous Ecological Management (Subsistence) Practices
1. Fishing
    Fishing is an important practice that is vital to many Tribal 
communities, particularly those along the coastal areas. However, I am 
honored to be sitting on the panel with communities who represent these 
communities and can articulate the issues around subsistence fishing 
more adequately than I can. I will defer my comments to them.772. 
Hunting and Gathering
    It has long been recognized that Tribal communities have treaty 
rights that extend beyond reservation borders. The phrase ``usual and 
accustomed places'' has been interrupted to include off-reservations, 
which is critical to Tribal Nations actively practicing Tribal 
ecological management (subsistence). The ability to exercise Treaty 
rights off-reservation interpretation should continue to be upheld. In 
Minnesota v. Mille Lacs Band of Chippewa Indians, 526 U.S. 172, 119 S. 
Ct. 1187, 143 L. Ed. 2d 270 (1999), the US Supreme Court ruled in favor 
of the Chippewa Indians' right to fish and hunt in northern Minnesota 
without state regulation. The ruling marked a final victory for the 
Tribe in its long fight to assert its treaty rights and to defend its 
cultural traditions. \23\ Presently, the US Supreme Court has a similar 
case listed on its docket, Herrera v. Wyoming. \24\ Tribal Nations 
throughout the country are watching anxiously for this court case to be 
adjudicated with the hopes that continued recognition of ecological 
management (subsistence) practices will be honored even in ``usual and 
accustomed'' places off reservation. The recognition of these 
ecological management (subsistence) practices will support the 
continuation of ecological tools that will keep our environments 
healthy.
---------------------------------------------------------------------------
    \23\ Read more: Native American Rights--Hunting And Fishing 
Rights--Court, Tribes, Tribe, and Treaties--JRank Articles http://
law.jrank.org/pages/8750/Native-American-Rights-Hunting-Fishing-
Rights.html#ixzz5IhIKR38Z
    \24\ US Supreme Court Docket No. 17-532
---------------------------------------------------------------------------
Organic Food Production Act--Wild Gathering Provision
    The Organic Foods Production Act (OFPA) and subsequent USDA 
regulations has a provision for gathering of wild crops. \25\ 
Unfortunately, within this act there is NO recognition of Tribal 
Nations, communities, or people. Authorizing legislation, OFPA, and the 
subsequent USDA-AMS regulations specify that wild crop harvesting must 
``support the long-term viability of the habitat.'' However, organic 
crops like wild crops are certified organic bythird party certifiers. 
There is inconsistent enforcement of what it means to ``support the 
long-term viability of habitat.'' Furthermore, without the recognition 
of Tribal Nations, communities, and people and their relationship to 
some of these wild crops, some Tribal Nations are being purged of 
important traditional resources.
---------------------------------------------------------------------------
    \25\ (7 U.S 7 U.S.C. ch. 94, 7 U.S.C.   6501 et seq.) and Section 
5022 of the USDA-AMS Organic Handbook (can be found at: https://
www.ams.usda.gov/rules-regulations/organic/handbook/5022)
---------------------------------------------------------------------------
    While many Tribes harvest and gather wild crops consistent with 
traditional ecological management practice that may include techniques, 
timing, and processes that ensure its propagation, non-tribal 
harvesting of the same crop for commercial purposes may not follow the 
same techniques, timing, and processes leaving the crops vulnerable for 
over-harvesting, and much worse, extinction. Abalone and seaweed are 
only two examples of over-harvesting. Had there been some recognition 
of the importance of these wild crops to Tribal Nations and Tribal 
Nations participated in the management of these crops, perhaps over-
harvesting could have been slowed or even prevented. Commercialization 
of wild foods, especially those important to Tribal Nations, should be 
fully explored by USDA-AMS and the USDA Organic Program before 
permissive harvesting of wild crops is allowed for sale under the USDA 
Organic label.
    We see a commercialization of culturally important foods typically 
gathered by Indigenous people. These foods, once relegated as a 
``commodity,'' become over-harvested significantly with no regional 
management systems in place. Indigenous people should be the managers 
of their culturally important foods like leeks, wild onions, seaweed, 
and maple sugar, among others. At the very least, Tribal Nations should 
be a stakeholder that develops management plans for these resources.
1. Seaweed in California
    Of immediate concern is the over-harvesting of seaweed along the 
coasts of California. Seaweed has been an important product in 
ecological management (subsistence) lifestyles for thousands of years 
for California communities along the coast and as far in-land to Tribes 
in Nevada. Recently, seaweed has been deemed a ``super food''' by 
American food culture. As a result, seaweed has been harvested by non-
Tribal commercial harvesters that is resulting in shortages for Tribal 
Nations who follow traditionally timed seaweed gathering. Not only is 
there a concern for future seaweed harvests, but there is a concern for 
diet shortages of California Tribal people who rely on this source of 
food during winter months. BOEM should create a Tribal Resource 
Management Plan specifically for seaweed along the coast of California 
to ensure that this resource is not over harvested, Tribal communities 
have first priority, and that this resource is healthy for future 
generations.
    Because of the lack of clarity between federal authority and Tribal 
recognition around ocean resource management, states have taken a large 
role in making determinations about ocean resources. There are times 
when practicing ecological management (subsistence) may be adverse to 
economic interests within a state, which can create a polarized 
environment for Tribes to advocate for ecological management 
(subsistence) practice. Federal recognition of the importance of 
ecological management (subsistence) practice would give a new 
perspective in environmental management that is greatly needed, 
particularly in seaweed commercialization.
Supportive Legislation that should continue to be protected
    There are current pieces of legislation that serve as a solid 
beginning for the protection of ecological management (subsistence) 
practices. These pieces of legislation should continue to be supported. 
These are:

  <bullet> The Agricultural Act of 2014 (Farm Bill) Section 4033 the 
        Service of Traditional Foods in Public facilities \26\
---------------------------------------------------------------------------
    \26\ SEC. 4033. SERVICE OF TRADITIONAL FOODS IN PUBLIC FACILITIES. 
(a) PURPOSES.--The purposes of this section are--(1) to provide access 
to traditional foods in food service programs; (2) to encourage 
increased consumption of traditional foods to decrease health 
disparities among Indians, particularly Alaska Natives; and (3) to 
provide alternative food options for food service programs. (5) 
TRADITIONAL FOOD.--(A) IN GENERAL.-The term ``traditional food'' means 
food that has traditionally been prepared and consumed by an Indian 
tribe. (B) INCLUSIONS.--The term ``traditional food'' includes--(i) 
wild game meat; (ii) fish; (iii) seafood; (iv) marine mammals; (v) 
plants; and (vi) berries. (c) PROGRAM.-The Secretary and the 
Commissioner shall allow the donation to and serving of traditional 
food through food service programs at public facilities and nonprofit 
facilities, including facilities operated by Indian tribes and 
facilities operated by tribal organizations, that primarily serve 
Indians if the operator of the food service program--(1) ensures that 
the food is received whole, gutted, gilled, as quarters, or as a roast, 
without further processing; (2) makes a reasonable determination that--
(A) the animal was not diseased; (B) the food was butchered, dressed, 
transported, and stored to prevent contamination, undesirable microbial 
growth, or deterioration; and (C) the food will not cause a significant 
health hazard or potential for human illness; (3) carries out any 
further preparation or processing of the food at a different time or in 
a different space from the preparation or processing of other food for 
the applicable program to prevent cross-contamination; (4) cleans and 
sanitizes food-contact surfaces of equipment and utensils after 
processing the traditional food; (5) labels donated traditional food 
with the name of the food; (6) stores the traditional food separately 
from other food for the applicable program, including through storage 
in a separate freezer or refrigerator or in a separate compartment or 
shelf in the freezer or refrigerator; (7) follows Federal, State, 
local, county, tribal, or other non-Federal law regarding the safe 
preparation and service of food in public or nonprofit facilities; and 
(8) follows other such criteria as established by the Secretary and 
Commissioner.

    However, there should be a change in the language under Section 
4033(c)(7)
    It currently reads:

        (7) follows Federal, State, local, county, tribal, or other 
        non-Federal law regarding the safe preparation and service of 
        food in public or nonprofit facilities; and

    But this should read:

        (7) follows Federal, State, local, county, and tribal law 
        regarding the safe preparation and service of food in public or 
        nonprofit facilities; and

  <bullet> (Proposed provision in current Farm Bill Discussions) Title 
        VIII--Forestry Sec. 8624--Good Neighbor Authority

    Includes Tribes as eligible under the Good Neighbor Authority; and 
Adds trust land, restricted fee, land held for a Tribe's benefit, fee 
land, Section 17 corporation owned land, and an Alaska Native Village 
Corporation.

  <bullet> The Food, Conservation, and Energy Act of 2008 (Pub.L. 110-
        234) (2008 FARM BILL PROVISIONS)--

    Previous Farm Bill Provisions, included a section that allowed for 
ecological management (subsistence) practices. It said:

         SEC. 8105. FOREST PRODUCTS FOR TRADITIONAL AND CULTURAL 
        PURPOSES.(a) In General- Notwithstanding section 14 of the 
        National Forest Management Act of 1976 (16 U.S.C. 472a), the 
        Secretary may provide free of charge to Indian Tribes any 
        trees, portions of trees, or forest products from National 
        Forest System land for traditional and cultural purposes.

    (b) Prohibition- Trees, portions of trees, or forest products 
provided under subsection (a) may not be used for commercial purposes.
    This should be included and supported in future versions of the 
farm bill.
Recommendations
    1) Include Tribal Nations in Land Management Planning on Federally 
held lands

    While we do have laws and policies that protect sacred sites and 
protect historic places significant to the US Nation such Executive 
order 13007 and the National Historic Preservation Act (NHPA), \27\ 
these laws are often used to designate protections to specific land 
sites. Protections should and need to extend to the ecological 
management (subsistence) activities that take place on these lands. 
Protecting a parcel or historic land base without the ecological 
management (subsistence) activities historically used to maintain its 
health is analogous to watching a house deteriorate from non-use.
---------------------------------------------------------------------------
    \27\ E.O. 13007, 61 Fed. Reg. 26771 (May 24, 1996). E.O. 13007 
refers to ``Indian Sacred Sites.'' In this report we generally use the 
term ``American Indian/Alaska Native'' as a broadly inclusive term to 
refer to American Indians, Alaska Natives, First Nations, First 
Peoples, Native Americans, and other indigenous people. E.O. 13007 
references Executive Memorandum of April 29, 1994, ``Government-to-
Government Relations with Native American Tribal Governments,'' which 
requires federal executive agencies to consult with Tribes on a 
Government-to-Government basis to the greatest extent practicable and 
to the extent permitted by law on actions that affect Federally 
Recognized Tribal Governments. National Historic Preservation Act, 16 
U.S.C.   470 et seq. (1966), Section 101(d)(6)(B).
---------------------------------------------------------------------------
    Additionally, the FLMPA gives authority to land managers to allow 
closure of federal lands for cultural and ceremonial purposes, yet 
there is NO inclusion of Tribal Nations in the creation of the land 
management plans of these same areas. Tribal Nations should be included 
in the creation of land management plans of the places that have been 
and continue to be closed for the cultural and ceremonial purposes. In 
the alternative, ecological management (subsistence) practices should 
be included in the definition of cultural and ceremonial purposes 
stated in Executive Order 13007. \28\
---------------------------------------------------------------------------
    \28\ As used in Executive Order 13007, ``. . .any specific, 
discrete, narrowly delineated location on Federal land that is 
identified by an Indian Tribe, or Indian individual determined to be an 
appropriately authoritative representative of an Indian religion, as 
sacred by virtue of its established religious significance to, or 
ceremonial use by, an Indian religion; provided that the Tribe or 
appropriately authoritative representative of an Indian religion has 
informed the agency of the existence of such a site.''

    2) Provide a budget within USDA to create Tribal Land Resource 
---------------------------------------------------------------------------
Management Plans

    There are several federal agencies, the US Forest Service and 
Bureau of Land Management that include Tribal Resource Management Plans 
for consideration and implementation within Federal lands. Typically, 
these Tribal Resource Management Plans are developed within the 
Department Interior Bureau of Indian Affairs. However, too few 
resources are allocated to developing these plans and are a limited to 
certain land designations. Congress should consider allocating more 
funding to developing Tribal Resource Management Plans and expanding 
the reach of these plans to include all Tribal lands, regardless of 
designation if the Tribe so chooses.

    3) Provide guidance to National Forest managers to support 
subsistence practices

    The Multiple Use--Sustained Yield Act of 1960 (or MUSYA) (Public 
Law 86-517) is a federal law passed by the United States Congress on 
June 12, 1960. This law authorizes and directs the Secretary of 
Agriculture to develop and administer the renewable resources of 
timber, range, water, recreation and wildlife on the national forests 
for multiple use and sustained yield of the products and services. This 
is the first law to have the five major uses of national forests 
contained in one law equally, with no use greater than any other. \29\ 
The Multiple-Use Sustained-Yield Act of 1960 (MUSYA), does not 
currently include consideration of sacred sites and traditional 
subsistence practices, and states ``It is the policy of the Congress 
that the national forests are established and shall be administered for 
outdoor recreation, range, timber, watershed, and wildlife and fish 
purposes.'' 16 U.S.C.  528 (1960). This law makes it harder for 
forest land managers to give weight to Indigenous subsistence practices 
within those federal lands. Tribal Traditional subsistence practices 
should be included as a sixth major use in determining multiple use and 
sustained yield of the products and services.
---------------------------------------------------------------------------
    \29\ ``Multiple-Use Sustained-Yield Act of 1960.'' Wikipedia, 
Wikimedia Foundation, 19 June 2018, en.wikipedia.org/wiki/Multiple-
Use_Sustained-yield_Act_of_1960.

    4) Ensure Co-management agreements duly compensate Tribal 
---------------------------------------------------------------------------
communities for their participation

    Federal agencies have broad power to contract with Tribal 
communities, whether through grants, co-management agreements, 
memorandums of understanding, cost-share agreements, Wyden agreements, 
participating agreements and stewardship agreements. These agreements 
should include a recognition of the important of ecological management 
through subsistence practices. Tribes should be adequately compensated 
for management of ecological management through subsistence practices. 
Far too often, we have seen agreements between federal agencies and 
Tribal Nations inadequately compensate Tribes for participation and 
management which creates a hardship on Tribal Nations to fully manage 
these contracts. Not only will compensation for ecological management 
through subsistence recognize subsistence practices as a vital 
practice, it will ensure that more funding is directed toward Tribal 
execution of any agreement between Tribal Nations and federal agencies.

    5) Increase Indigenous Representation on Advisory Boards

    Many agencies have advisory boards authorized under the Federal 
Committee Advisory Act. \30\ These advisory boards are important bodies 
that allow non-federal stakeholder participation. Few of these boards 
ever include Tribal Nation citizenship. Agencies should increase 
outreach to Tribal Nations to include Tribal citizenship. Tribal 
citizenship participation should be included (but not limited to) the 
following advisory boards:
---------------------------------------------------------------------------
    \30\ The Federal Advisory Committee Act (FACA) of 1972 (Public Law 
92-463)

---------------------------------------------------------------------------
  <bullet> Rural Schools Resource Act Advisory Committee

  <bullet> Regional Recreational Advisory Committees (BLM)

  <bullet> Regional Advisory Boards for the Bureau of Land Management

  <bullet> National Organic Standards Board

  <bullet> Hunting and Shooting Sports Conservation Council(FWS)

  <bullet> Sport Fishing and Boating Council (FWS)

  <bullet> Alaska Regional Subsistence Councils (These same councils 
        should be created for the lower 48 and Hawaii)

  <bullet> National Academies on Committee on Off-Science and 
        Assessment

  <bullet> The National Park Service Advisory Board (because it's site 
        specific, Tribal Nations surrounding the sites should be 
        included)

    6) Change the definition of ``sacred sites'' Executive Order 13007 
to include lands significant to ecological management (subsistence) 
practices.

    The current definition of sacred sites in E.O. 13007 reads, ``Any 
specific, discrete, narrowly delineated location on Federal land that 
is identified by an Indian Tribe, or Indian individual determined to be 
an appropriately authoritative representative of an Indian religion, as 
sacred by virtue of its established religious significance to, or 
ceremonial use by, an Indian religion; provided that the Tribe or 
appropriately authoritative representative of an Indian religion has 
informed the agency of the existence of such a site.
    E.O. 13007 should be changed to read as follows:
    Any specific, discrete, narrowly delineated location on Federal 
land that is identified by an Indian Tribe, or Indian individual 
determined to be an appropriately authoritative representative of an 
Indian religion, as sacred by virtue of its established religious or 
ecological management significance to, or ceremonial use by, an Indian 
religion; provided that the Tribe or appropriately authoritative 
representative of an Indian religion has informed the agency of the 
existence of such a site.
Conclusion
    Thank you for allowing me time to address the committee and to 
advocate for the recognition of Indigenous ecological management 
(subsistence) practices. There are increasing pressures on Tribal 
Nations economically and socially, yet subsistence practice is one of 
the few tools we have in monitoring environmental changes like climate 
change and resource depletion. Rather than viewing these practices as 
simplistic activities such as ``just food gathering,'' we need to 
recognize these practices for the ecological management practices that 
have created and ensured the health of some of our country's greatest 
environmental treasures. The continued health our country's lands and 
Tribal Nations is inextricably tied. To ensure their continued 
existence, it's time to listen, recognize, acknowledge, and protect the 
traditional food systems of Tribal Nations and the long-standing 
practices that support those systems.
    Na'cha,

    The Chairman. Thank you.
    We will begin with our five minute rounds of questioning. I 
would like to start with Dr. Hardin.
    The Alaska National Interest Lands Conservation Act sets 
forth a broad and sweeping example of Federal management and 
oversight of subsistence activities specific to the needs and 
complexities in your State of Alaska.
    Can you highlight some of the effective management 
approaches developed pursuant to that law which might be 
helpful in protecting and promoting subsistence lifestyles and 
practices in tribal communities throughout the rest of the 
Country?
    Dr. Hardin. Thank you, Mr. Chairman, for that question.
    I think we are very fortunate in Alaska to have the Alaska 
National Interest Lands Conservation Act which does prioritize 
subsistence on Federal public lands. I think one of the keys to 
the success of that program is the bottom-up approach built 
into the law and implemented through the Federal program.
    In that process, the drivers of the program and the 
regulations that guide the program are the users themselves. 
The Federal Subsistence Board does not generate regulations and 
initiate regulatory changes. Those are all driven from the 
local level, from local resource managers.
    Similarly, recommendations to the board are directly from 
the local users themselves, with the board's understanding that 
people at the local level are really the ones who have the most 
knowledge about the resource and the conditions affecting the 
resources.
    I think that process the Federal program has implemented 
and continues to develop over time is one that has broad 
applicability.
    The Chairman. Thank you, Doctor.
    Ms. Peltola, the Federal Subsistence Management Program is 
designed to elicit input on the subsistence use of fish and 
wildlife within Alaska. The program includes five Federal 
agencies, the Federal Subsistence Board, ten regional advisory 
councils on subsistence issues and numerous partnerships from 
the State of Alaska as well as other stakeholders.
    In your written testimony, you referenced some of the 
inefficiencies and concern about the lack of representation of 
Native subsistence users on the board. To address that piece in 
regard to having Alaska Natives who are subsistence users, talk 
about how they should be incorporated on the board and, in 
general, whether you think this type of stakeholder board is an 
appropriate method for managing or overseeing subsistence use?
    Ms. Peltola. Thank you, Mr. Chairman.
    I do think this type of board is effective for overseeing 
management of subsistence. I do believe, though, the board does 
not have parity among its voting members. There are five agency 
regional department heads, one from the Fish and Wildlife 
Service, one from the Bureau of Indian Affairs, one from Parks, 
and one from BLM.
    Then there are three public members, one of whom is the 
Chair who does not have an active voting membership. In effect, 
there are two public members. In order for them to get on the 
Federal Subsistence Board, they have to have an in-depth 
knowledge of subsistence activities as well as regulations.
    That same standard is not applied to the agency 
representative and the agency voting members, many of whom are 
very new to Alaska and do not stay in their posts longer than 
three to five years. Many of them also have alternates who sit 
in for them when they cannot make the meeting.
    In my opinion, the way to make the Federal Subsistence 
Board more effective for actual subsistence users is to have at 
least as many public members as there are agency 
representatives. In my opinion, preferably, there would be one 
person from every region of the State. I see Alaska as having 
six different, distinct regions.
    Having six public members or even five public members or 
maybe five public members, the chairman and then five agency 
members, I think would provide more equality, effectiveness and 
efficiency.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Chairman Brown, in regard to the wild horse and burro 
management, BLM indicated that roughly their number for wild 
horses and burros on the 26.9 million acres of BLM-managed 
lands, their recommended management numbers would be to have 
about 26,000 to 27,000 animals but they estimate they have a 
population of 83,000 at this point.
    Talk to me about some of the effects and recommendations 
you have in regard to those numbers.
    Mr. Brown. Thank you, Mr. Chairman.
    Those numbers seem likely. On the Wind River Reservation in 
2012, we did a couple of studies where we saw over 2,000 
animals. It is widely known that wild horses and feral horses 
breed at the rate of 20 percent per year. Every five years, the 
herd of horses doubles in size.
    In 2012, we did the study and are estimating, through 
science and observations, the horses on the reservation number 
between 6,000 and 8,000 animals. A lot of what is happening on 
the reservation is we are surrounded by many public lands and 
feral horses on those public lands often migrate onto the 
reservation. The numbers we are seeing on the reservation still 
find their way to us. They are decimating our grasslands, 
displacing our elk, and displacing our mule deer, making it 
more difficult for tribal members to rely on traditional 
subsistence.
    We recommend that money be diverted to addressing the 
removal of wild horses as well as returning the landscape to 
its former state and to addressing Federal legislation that 
creates a suppressed marketplace for horses and encourages or 
makes it easier for domestic horses to be abandoned on public 
or reservation lands.
    The Chairman. Thank you.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    It is no secret the Trump Administration does not believe 
in climate change but Indian Country does not have the luxury 
of putting its head in the sand. In Hawaii, for example, sea 
level rise, salt water intrusion and long periods of drought 
threaten the cultivation of taro and other traditional crops.
    Communities across Indian Country are fighting drought, 
wildfires, changing habitats, decreased biodiversity and the 
list goes on and on and on.
    Dr. Hardin, what is the Office of Subsistence Management 
doing to make sure the Federal Government is providing Alaska 
Native villages and Indian Tribes with the tools to address 
climate change impacts to subsistence?
    Dr. Hardin. Thank you, Senator.
    The Office of Subsistence Management is a mere advisor to 
the Federal Subsistence Board and regional advisory councils. 
First of all, I would emphasize that. However, we work very 
closely with all of the local users.
    One of the very valuable methods and approaches we have is 
we coordinate and manage a program called the Fisheries 
Resource Monitoring Program. Through that program, we find, 
through a competitive proposal process, collaborative fisheries 
research throughout the State of Alaska that includes research 
to look at the stock status and trends of fish stocks, 
traditional ecological knowledge studies to better understand 
what is happening in communities and the important 
relationships between these resources and local communities and 
harvest monitoring.
    Through these research projects, we track the status of the 
available stocks. In all of our analyses, we also utilize the 
best available data that we have to analyze what is causing 
declines in important subsistence resources. We will continue 
to do so as the information becomes available.
    Of course traditional ecological knowledge is really key to 
understanding those over time.
    Senator Udall. As we have heard from each of the tribal 
witnesses today, subsistence practices are vital to Native 
communities across the Country. However, Dr. Hardin, it is my 
understanding the U.S. Fish and Wildlife Service primarily 
supports tribal subsistence through the Office of Subsistence 
Management which, in turn, supports the Federal Subsistence 
Management Program established to serve rural and tribal 
Alaskan residents.
    Does the Fish and Wildlife Service support tribal 
subsistence practices in the lower 48 and should it?
    Dr. Hardin. Thank you, Senator.
    Again, I work at the Office of Subsistence Management. Our 
charge is to implement Title VIII of ANILCA. Although we are 
administratively housed in the Fish and Wildlife Service, we 
are mandated to serve all of the agencies represented on the 
Federal Subsistence Board, as well as the public members.
    I am really not able to speak to the individual agency 
actions in the lower 48.
    Senator Udall. Maybe you can help me and the record on 
that, people in their department answering that question a 
little more thoroughly?
    Dr. Hardin. Absolutely, sir.
    Senator Udall. Thank you.
    Chairman Brown and Ms. Romero-Briones, is the Federal 
Government, the Department of the Interior, and the U.S. Fish 
and Wildlife Service providing enough resources to support 
tribal subsistence practices?
    Mr. Brown. Thank you, Senator.
    I think the Federal Government could do more to promote 
tribal traditional subsistence practices. I think part of it 
begins with consulting with tribes. Many times Federal agencies 
develop policies regarding wildlife management or ecosystem 
management without consultation with tribes.
    I think tribal traditional knowledge is key in a lot of 
these discussions. Tribes have extensive knowledge on how their 
environment has operated in order to promote tribal traditional 
subsistence.
    I think consulting with tribes is the first step and 
devoting more resources is another big step.
    Senator Udall. Director Romero-Briones.
    Ms. Romero-Briones. Thank you, Senator.
    I would echo Chairman Brown's comments. At First Nations 
Development Institute, we also have a grant program that was 
created largely to fill the hole that the Federal agencies have 
in Indian Country.
    We have awarded over 307 grants to food and agriculture 
projects. Three-fourths of those are to support subsistence and 
traditional lifestyles. That pales to the $49 million ask that 
we are not able to fulfill.
    There is definitely a need for more financial resources to 
support not only communities trying to document their 
practices, but also to create networks within Federal agencies 
to actually get the conversations and a seat at the table for 
the protection of these practices.
    Senator Udall. Thank you very much.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mary, thank you again for coming all the way as you have.
    Mr. Chairman, if I was really thinking, I would have 
brought the jar of fish that Mary Sattler Peltola provided me 
in my office today because that would have given us all the get 
up and go you would need and reminded us all of the 
significance of the subsistence fishing that goes on. I 
understand you just had an opener out there in the YK area and 
people were happy to get out on the water.
    I know when we talk about the agreement we have between the 
Kuskokwim Inter-Tribal Fish Commission and the Department of 
the Interior, it is probably best described as a cooperative 
agreement.
    Can you help educate me on the difference between a 
cooperative agreement and co-management and the opportunities 
to the region if the Commission was involved in a co-management 
agreement as you described with this proposed pilot you 
mentioned earlier in your opening statement?
    Ms. Peltola. Thank you, Senator Murkowski.
    We have had two openings. Just for perspective, when I was 
growing up, subsistence fishing was unrestricted. We could go 
out any time we wanted as long as it was not in that buffer 
right before the commercial opening. We no longer have a 
commercial fishery for any of the species of salmon on our 
river.
    In past years, the average harvest was about 96,000 Chinook 
salmon. Last year and this year, we estimate that the harvest 
will be around 16,000. The highest amount of harvest was 
110,000 Chinook salmon. We are all the way down to 16,000. That 
has created a lot of anxiety and unhappiness.
    The Fish Commission has done a very good job, if I can say 
so, in helping explain the issue of there being a lack of 
Chinook statewide and that our river is not the only river that 
is experiencing restrictions. Some rivers are experiencing full 
closure.
    My belief is we should not be called to join the table and 
become managers only in times of crisis when things are bad. My 
preference is that we be asked to participate and be managers 
even in times of abundance with all our species.
    Senator Murkowski. Especially in times of abundance so you 
can ensure that abundance continues, that sustainability.
    Ms. Peltola. Sustainability. That is my hope, that the 
Inter-Tribal Fish Commission can be a manager all the time, not 
just when we are facing this grim reality.
    Cooperative management, cooperative agreements are usually 
discretionary partnerships. Those are not legally binding. The 
Kuskokwim Inter-Tribal Fish Commission is asking for a co-
management structure where there is a specific legal basis, 
such as a treaty or statute, in this case, which would require 
the delegation of some aspect of Federal decision-making 
authority to tribes, in this case, specifically the 33 tribes 
that live along the Kuskokwim River.
    Senator Murkowski. It is that legal binding aspect of this 
that makes the difference in ensuring there really is this seat 
at the table, this level of participation.
    With regard to your suggestion that you move OSM out from 
Fish and Wildlife so that it can operate independently, making 
sure OSM is free from levels of conflict is important, I think. 
Are there functions of the Federal Subsistence Board and OSM 
that could perhaps be compacted or contracted right away?
    Ms. Peltola. I am not 100 percent sure but I do believe 
there are opportunities to compact and contract.
    Senator Murkowski. Is that something we are looking to 
explore?
    Ms. Peltola. Yes, absolutely.
    Senator Murkowski. Do we need to do more on this end to 
encourage our agencies, the Federal Subsistence Board and OSM, 
to work more directly with those of you involved on the ground 
to pursue something like that?
    Ms. Peltola. We have a very good relationship with the 
Office of Subsistence Management. In my opinion, there is a 
difference within the culture of OSM and the culture of Fish 
and Wildlife.
    In my opinion, there is a very strong desire for the Fish 
and Wildlife Service to work in concert or collaboration with 
great deference to the State of Alaska which does not have a 
rural subsistence priority.
    OSM's mission, the way I have seen it over the last two 
years, is they are very focused on making sure we are in 
compliance with ANILCA, which I have not seen borne out at the 
refuge level.
    Senator Murkowski. All I know is that when I am out there 
on the river, when I am out there in the fish camps, people are 
not talking about compliance with some Federal laws. They are 
wondering how they are going to be able to feed their families.
    Ms. Peltola. Yes.
    Senator Murkowski. And fair allocation of a fishery, not 
just for the resource that is there today, but going to be 
there next summer, the summer thereafter and thereafter.
    Ms. Peltola. That is exactly right, Senator. I have not met 
anyone whose primary interest is jurisdictional boundaries or 
jurisdictional oversight.
    Right now, on our river, we have a very bifurcated system. 
On the 12th when we had a chance to fish, the whole river, 
State and Federal waters, were open. On the 16th, only Federal 
waters were open. On the 18th, only State waters were open.
    This is very confusing when you hear an announcement that 
there is a 24-hour chance to fish. You do not know if that is 
in State or Federal waters. I believe the Fish Commission can 
really address that issue.
    Senator Murkowski. The fish do not care whether it is 
Federal or State.
    Mr. Chairman, thank you so much.
    Thank you for being here.
    Senator Udall. [Presiding.] Thank you.
    Senator Smith.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Thank you, Vice Chairman Udall.
    To our panelists, thank you all so much for being here 
today. It is very interesting to have this conversation.
    Senator Murkowski, if I had been thinking, I would have 
brought wild rice and walleye to this hearing. We could have 
lunch which would have been great.
    As I listened to this conversation about subsistence and 
traditional practices, I think a lot about the work we are in 
the middle of right now with the farm bill. With Senator 
Heitkamp and I serving on both the Indian Affairs Committee as 
well as on the Agriculture Committee, I think we are the two 
who have overlap on these committees.
    I have been looking for areas where the opportunities and 
synergies are with those two committees. In Minnesota, I 
created a farm bill working group to bring together the issues 
and views from farmers in rural communities and also the 
tribes, along with those who care a lot about energy issues, 
nutrition and conservation.
    That was extremely helpful to be able to bring all those 
views to the discussion about the farm bill. Certainly the farm 
bill touches the lives of every single American and certainly 
the lives of everyone who lives in tribal communities.
    In the farm bill, we were able to include some of the 
issues brought forth as being important. We did this with the 
help of Senator Hoeven, Senator Udall and Senator Heitkamp, 
including strategies to help minority and disadvantaged 
farmers.
    In Minnesota, that often includes helping Native farmers 
who are just getting going and also looking at issues related 
to expanding markets. In Minnesota, that is extending wild rice 
markets but I am sure it runs the gamut all across the Country. 
There is also the issue of especially fighting tribal food 
fraud which is a problem.
    One thing that came up quite a bit with the Native Farm 
Bill Coalition was recommending we look at and understand how 
to do a better job of expanding consultation with tribes on 
conservation issues. I would like to touch on that a bit 
because it seems to relate a lot to your comments today.
    I want to go to Ms. Romero-Briones for this, but I would be 
interested in hearing everyone's comments.
    What should the Federal Government be doing to ensure that 
tribes have the appropriate jurisdiction under the Natural 
Resources Conservation Service and that Indian producers can 
engage in the kind of conservation work they desire that aligns 
with traditional practices? What can we be doing better there?
    Ms. Romero-Briones. Thank you for the question.
    First, there is an underlying issue about what subsistence 
means both to lawmakers and those working in agriculture. Often 
they are seen as separate issues. Like many of the panelists 
said today subsistence is actually ecological management and 
should be considered forms of sustainable agriculture which 
would put it in the purview of the farm bill.
    With the conservation programs, particularly with NRCS, one 
of the limitations is the recognition of groups of tribal 
farmers and tribal communities as a collective of farmers as 
opposed to individual farmers with specified farm lands, which 
is one of the limitations to participating in many of the 
conservation programs.
    I think there are several provisions the Native Farm Bill 
Coalition has put forward like those in EQUIP that recognize a 
collection of farmers as opposed to single farmers. Those are 
great starts in increasing tribal participation in these 
programs. That is a wonderful insight.
    Thank you.
    Senator Smith. That is great. Does anyone else wish to 
comment on that?
    Mr. Brown. Thank you, Senator.
    The farm bill serves as an excellent example of how 
valuable tribal input is. I think tribes are well prepared and 
well equipped to be able to have a common and comprehensive 
outlook on the things the farm bill addresses.
    For example, the tribes on the Wind River own minerals, are 
stewards of the lands, and also owners of the lands. When we do 
mineral extraction, we also have to be aware of environmental 
protections.
    We have Native ranchers with whom we lease lands but also 
have wildlife that is traditional and which we want to protect. 
Native tribes have been able for centuries to reconcile those 
different viewpoints among themselves.
    I think that viewpoint is valuable when you are crafting 
such a massive bill like the farm bill. I appreciate your 
outreach to the tribes through the Native Farm Bill Coalition 
in which the Northern Arapaho was engaged.
    I think that input will be critical moving forward when 
talking about sustaining subsistence as well as encouraging 
agricultural management as well.
    Senator Smith. I look forward to continuing that 
conversation and that work. In many ways, this is a strong farm 
bill but it is also certainly not a revolutionary bill. I 
appreciate there are many more opportunities to work together 
on this.
    Thank you, Mr. Chair.
    The Chairman. [Presiding.] Vice Chairman Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Director Romero-Briones, you testified Native peoples hold 
the capacity and ingenuity to ensure the sustainable economic, 
spiritual and cultural well being of their communities if given 
the right tools.
    You go on to say this belief largely stems from 
longstanding food system management. I could not agree with you 
more. I have repeatedly said decisions made by tribes for 
tribes produce the best results.
    That is why I have introduced legislation to allow tribes 
to manage their own child nutrition programs and joined the 
Chairman in legislation to allow tribes to 638 their own food 
distribution and forestry functions on adjacent forest lands. 
We are working to provide those tools.
    What can we do to help push the envelope on food 
sovereignty? Do you feel the 638 model is best or are there 
other solutions?
    Ms. Romero-Briones. The 638 model would revolutionize, and 
I use that word with a lot of reservation, how Federal feeding 
programs support Native communities. In addition, if you take 
that in conjunction with the traditional foods provision in the 
farm bill, you really have a good foundation for supporting 
subsistence practices and traditional lifestyles.
    The caveat is that right now the USDA and the FDA are 
concerned about traditional foods entering these Federal 
programs because of food safety concerns. I think one further 
step would be trying to mitigate and insert ourselves into that 
conversation now.
    Senator Udall. An important tool for tribes to have direct 
involvement in their ecological management is through the BIA's 
integrated resource management planning process. Unfortunately, 
the process for tribes to create an IRMP is overly long and 
excessively technical and can take up to five years for a tribe 
to simply collect and compile its data.
    Due to the effects of climate change, we are seeing more 
severe and unpredictable weather events that can have traumatic 
effects on the environment and subsistence activities.
    Director Romero-Briones, how can tribes and the BIA make 
the IRMP process more efficient and adaptable to the effects of 
climate change?
    Ms. Romero-Briones. Again, thank you for that comment 
because I think you hit on the most important. Those definitely 
need to come out of that agency much faster. I am not privy to 
the barriers causing the delay. Perhaps it is staffing or 
perhaps the way a tribe has to approach the BIA to get one 
started, but I would love to see those move faster.
    Senator Udall. Are there any comments from the other 
witnesses on what I just asked? Chairman Brown.
    Mr. Brown. I would like to emphasize that it would be 
incredibly beneficial to tribes to be able to 638 programs like 
food distribution which is at the core of our issues on the 
Wind River Reservation and I am sure across Indian Country.
    I think the intent of the 638 Self Determination Act was 
really that tribes know how to best take care of their 
communities, having the ability to do that. I echo Director 
Romero-Briones' statements. That would revolutionize the way 
that we live.
    Senator Udall. Thank you.
    Dr. Hardin, as I close, I just want to emphasize again the 
climate change front and how serious is the situation the 
tribes face. In northern New Mexico in one particular 
circumstance, there is a small canyon that Santa Clara of 
Pueblo has. It has been wiped out by forest fires and floods. 
It was a beautiful area where there were three ponds and people 
could fish. Now it is ground zero for climate change.
    I do not care what you call it or if you want to call it 
adaptation. The issue is there is money there to do these kinds 
of things. I think we are being very shortsighted in saying 
because we call it something, we are not going to use that 
money at all.
    I hope you take back that message to Interior because I 
think these tribal communities are right at ground zero, in the 
bulls-eye, when it comes to the impacts of climate change.
    Thank you very much, Mr. Chairman. I really appreciate your 
focusing on this issue.
    The Chairman. Certainly, Vice Chairman Udall. Thank you.
    With that, again, I want to thank our witnesses.
    If there are no more questions, members may submit follow-
up questions for the record. The hearing record will be open 
for two weeks.
    With that, again, thank you.
    The hearing is concluded.
    [Whereupon, at 3:44 p.m., the Committee was adjourned.]

                         A  P  P  E  N  D  I  X

     Prepared Statement of Kevin Bartley, Rural Resident of Alaska
    Thank you for the opportunity to share my experiences with and 
recommendations for improving the Federal Subsistence Management 
Program. Effective and responsible management or care of our fish, 
wildlife, lands, and waters in Alaska requires meaningful 
communications and collaborations between federal, state, tribal, and 
public partners. Our children's future depends on our commitment to 
work together.
A Way of Life
    Rural residents and residents of non-subsistence use areas harvest 
33.8 million pounds of fish and game annually in Alaska. \1\ There are 
vast differences in the ways in which people understand the term 
subsistence. Many urban peoples unfamiliar with Alaska understand 
subsistence in the context of the definition to subsist or acquire the 
minimum needs for survival. Some agency managers and scientists in 
Alaska understand the term subsistence to refer to customary and 
traditional harvest practices. Tribal and rural residents of Alaska 
understand subsistence as our culture; our way of life. Subsistence for 
Alaska Native Peoples and rural residents is associated with tastes, 
smells, and feelings. It is relationships and togetherness. It is 
community. It is life. When mismanagement and regulation deprive us 
from practicing our cultures or ways of life, we lose pieces of who we 
are. These hardships especially affect our children and elders.
---------------------------------------------------------------------------
    \1\ Alaska Department of Fish and Game. Division of Subsistence. 
Subsistence in Alaska: A Year 2014 Update. By James A. Fall. Anchorage, 
Alaska: ADF&G, 2016. 1-4.
---------------------------------------------------------------------------
Background
    The 1971 Alaska Native Claims Settlement Act (ANCSA) extinguished 
all indigenous land claims in exchange for 44 million acres and 962.5 
million dollars. \2\ Four hundred million was distributed over 11 years 
among 13 Alaska Native Regional Corporations. The remaining 562.5 
million was distributed following the completion of the Trans-Alaska 
Pipeline. One unforeseen consequence of ANCSA included the 
extinguishment of aboriginal hunting and fishing rights. To resolve 
this concern among Alaska Native Peoples, a 1971 House Conference Joint 
Statement declared:
---------------------------------------------------------------------------
    \2\ Alaska Native Claims Settlement Act,  43 U.S. Code Chapter 33 
(1971)

         ``All Native interests in subsistence resource lands can and 
        will be protected by the Secretary through the exercise of his 
        existing withdrawal authority. The Secretary could, for 
        example, withdraw appropriate lands and classify them in a 
        manner which would protect Native subsistence needs and 
        requirements by closing appropriate lands to entry by non-
        residents.The Conference Committee expects both the Secretary 
        and the State to take any action necessary to protect the 
        subsistence needs of the Natives''. \3\
---------------------------------------------------------------------------
    \3\ Joint Statement. In 2247 P.L. 92-746, Alaska Native Claims 
Settlement Act. Proceedings of House Republican Conference Report. Vol. 
746. Washington, D.C.: 92ST Congress, 1971.

    The absence of a self-governance option or protections for Alaska 
Native hunting, fishing, and gathering rights remain unfinished 
business. \4\ Congress broke their promise to protect Alaska Native 
Peoples hunting and fishing rights in the 1980 Alaska National 
Interests Lands Conservation Act (ANILCA). Instead, Congress 
strengthened hunting and fishing privileges for all rural residents in 
Alaska, exclaiming to do otherwise would constitute a discriminatory 
policy.
---------------------------------------------------------------------------
    \4\ Anderson, Robert. Alaska Native Rights, Statehood, and 
Unfinished Business. Tulsa Law Review 43, no. 17 (2007): 17-42.
---------------------------------------------------------------------------
    ANILCA Title VIII did take several important steps to ensure that 
the fish, wildlife, and people of Alaska remain healthy. Rural 
residents were provided a meaningful role in the management of fish and 
wildlife. Non-wasteful subsistence uses of fish and wildlife by 
federally qualified subsistence users were prioritized over all other 
consumptive uses. A Federal Subsistence Board (FSB) and regional 
advisory councils were established to develop hunting and fishing 
regulations on federal lands. A duty and responsibility was created to 
ensure the continued viability of fish and wildlife and opportunity for 
subsistence uses. Finally, tools were identified to restrict the take 
of fish and wildlife to federally qualified subsistence users only and 
among these same users when necessary.
Agreements with Tribes
    Federal agencies often refer to consultation as a unique and 
special privilege that tribes enjoy as sovereign nations. The term 
consult means to seek information or advice. This inadequately 
describes the relationship between tribes and the U.S. Government. 
Federally recognized tribes possess the right to negotiate government-
to-government with the U.S. Government under the 1934 Indian 
Reorganization Act (IRA). The word negotiate means to arrange for and 
bring about through discussion and compromise. A negotiating role is 
more closely synonymous with a decisionmaking role than an advisory 
role. Any agreements with sovereign federally recognized tribes must 
honor tribes' right to negotiate towards a mutually beneficial 
compromise.
Amending the ANILCA
    Congress declared, ``that an administrative structure be 
established for the purpose of enabling rural residents. . .to have a 
meaningful role in the management of fish and wildlife and of 
subsistence uses on the public lands in Alaska. \5\ Two challenges 
remain in regards to ANILCA Section 801 (5). First, the still undefined 
term meaningful role is meaningless to Alaska Native Peoples and rural 
residents. Second, tribal and rural residents' involvement on the 
regional advisory councils and the FSB is limited to subsistence uses 
of fish and wildlife only. Twenty-one Western Alaskans define the term 
meaningful role as the capacity to work together and share equal 
decisionmaking authority. \6\ Tribal and rural residents I work with 
across Alaska also share similar understandings of what a meaningful 
role is. Significant amendments will be necessary to improve the 
Federal Subsistence Management Program (FSMP) if a bottom up approach 
is desired as suggested by OSM Policy Coordinator Jennifer Hardin.
---------------------------------------------------------------------------
    \5\ Alaska National Interests Lands Conservation Act,  Public Law 
96-487 (1980).
    \6\ Bartley, Kevin, and Jeffrey J. Brooks. Understanding and 
Improving Collaborative Management of Fish and Wildlife in Western 
Alaska. Final Report. Office of Subsistence Management, U.S. Fish and 
Wildlife Service, 2014. 1-117.
---------------------------------------------------------------------------
    I echo and applaud Mary Sattler Peltola's testimony and 
recommendation to remove the Office of Subsistence Management (OSM) 
from under the U.S. Fish and Wildlife Service (USFWS). \7\ Housing the 
OSM beneath the USFWS continues to present clear ethical concerns. How 
can the OSM adequately serve the rural residents of Alaska while also 
charged with the task of serving each of the five federal agencies that 
makeup the FSB? Many Alaskans observe the strong influence that 
advocacy groups like the Sierra Club, Defenders of Wildlife, and the 
Alaska Outdoor Council have on these federal agencies and the State of 
Alaska. The missions of these five agencies and the many advocacy 
groups who support them often do not intertwine with tribes' and rural 
residents' fish and wildlife management goals. It is inappropriate to 
charge the OSM to serve in such a role mired by conflicts of interest. 
Nothing makes this point clearer than OSM Policy Coordinator Jennifer 
Hardin's testimony that, ``the [Federal Subsistence Management] Program 
will continue to seek balance between the harvest needs of rural 
subsistence users, conservation mandates of land management agencies, 
and the diverse values of.the many user groups seeking opportunities to 
hunt and fish on Federal public lands''. Balancing the conservation 
mandates of the federal agencies with the diverse values of many user 
groups seeking to hunt and fish on federal public lands is not the 
intent or purpose of ANILCA Title VIII.
---------------------------------------------------------------------------
    \7\ U.S. Senate, Committee on Indian Affairs, Oversight Hearing on 
``Keep What You Catch: Promoting Traditional Subsistence Activities in 
Native Communities.'' June 20, 2018.
---------------------------------------------------------------------------
    I also support Mary Sattler Peltola's recommendation to restructure 
the FSB. \8\ Rural residents must have equal representation and 
decisionmaking authority on the FSB to possess a truly meaningful role. 
The FSB includes five federal agency directors and three rural 
residents. Many FSB members representing the federal agencies begin 
their service the same year they arrive to Alaska and most rarely serve 
beyond five years. Failing to require all FSB Members to possess 
personal knowledge of local conditions presents a scary reality for 
many Alaskans. A single vote from a FSB member unknowledgeable about 
our unique ecospheres, fish, wildlife, and cultures could mean the 
difference between whether our children eat or go hungry. Observing the 
food prices at any rural grocery store in Alaska will drive home the 
seriousness of this point. Most tribal and rural residents prefer wild 
caught foods and overwhelmingly attest to the physical, mental, and 
spiritual importance of harvesting, storing, sharing, and eating them.
---------------------------------------------------------------------------
    \8\ U.S. Senate, June 20, 2018.
---------------------------------------------------------------------------
    Figure 1 demonstrates the rising percentage of Alaska Native 
Peoples living in non-subsistence areas of Alaska. The percentage of 
Alaska Native Peoples living in non-subsistence areas of Alaska in 1980 
was 27.7 percent. \9\ An average of 52.4 percent of Alaska Native 
Peoples were living in non-subsistence areas of Alaska during the 
period between 2012 and 2016. \10\ Prior to 2000, census polls asked 
only whether people were Alaska Native. Census polling in 2000 began 
asking whether people identified themselves as Alaska Native alone or 
in combination with other racial descents. A rising percentage of 
Alaska Native Peoples living in non-subsistence areas of Alaska 
presents significant implications for and further substantiates the 
need to amend the ANILCA. ANILCA Title VIII can no longer deliver on 
the promise and intent to protect Alaska Native hunting, fishing, and 
gathering rights with more than 52.4 percent of Alaska Native peoples 
now living in non-subsistence areas of Alaska.
---------------------------------------------------------------------------
    \9\ Fall, James A. ``Governance Systems for Subsistence in 
Alaska''. Proceedings of Western Division, American Fisheries Society, 
Anchorage, Alaska. 2018.
    \10\ Fall, James A. ``Governance Systems for Subsistence in 
Alaska''. 2018. 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Congress should consider the following amendments to fulfill the 
intent and promises associated with the ANILCA. Insert the words 
``Alaska Native Peoples and'' in front of each use of the words ``rural 
residents''. Create a truly meaningful and equal decisionmaking role 
for Alaska Native Peoples and rural residents in the management of fish 
and wildlife. Revise tribal consultation procedures to ensure tribes 
possess the negotiating role they are due under the IRA with an 
obligation from federal partners to seek and achieve mutually 
beneficial compromises. Expand Alaska Native Peoples and rural 
residents' involvement to include equal representation on all boards 
and committees deciding on federal undertakings that may affect the 
health of lands, waters, fish, and wildlife in Alaska. This should 
include equal representation on the North Pacific Fisheries Management 
Board. Developing an outreach and scoping plan to gather additional 
insights from each tribe and rural community in Alaska will increase 
the potential for a meaningful, pragmatic, and lasting amendment to the 
ANILCA.
Improving Relationships and Understanding
    Communication challenges and partners' lack of understanding of 
each other's cultures, worldviews, and management approaches are 
significant challenges to meaningful and effective collaborative 
management of fish and wildlife in Alaska. \11\ We can overcome this 
challenge by investing in and sharing informal interactions with each 
other. Frequent communications and collaborations between partners is 
critical. \12\ Productive negotiations are linked to how well 
stakeholders know and understand each other. Strong relationships are 
the product of shared experiences.
---------------------------------------------------------------------------
    \11\ Bartley, Kevin A. They Don't Know How We Live: Understanding 
Collaborative Management in Western Alaska. Master's thesis, University 
of Alaska Anchorage, 2014. 1-423.
    \12\ Jacobs, Melanie, and Jeffrey J. Brooks. "Alaska Natives and 
Conservation Planning: A Recipe for Meaningful Participation." Native 
Studies Review 20, no. 2 (2011): 91-135.
---------------------------------------------------------------------------
    Urban-based training seminars are not enough to educate FSB Members 
about Alaska. Funding to develop and implement a program that brings 
FSB Members and rural residents together to engage in informal 
activities such as hunting and fishing will strengthen their 
understandings of and relationships with each other. Sharing informal 
experiences with those we do not know in settings that we are 
unfamiliar with are often uncomfortable. Such experiences are 
opportunities to grow because we tend to listen more. Conversations and 
collaborations help us to reflect, see, learn, process, and act. \13\ 
Truly listening to each other will enable us to stretch our 
understandings and create new and promising realities together. \14\
---------------------------------------------------------------------------
    \13\ Scharmer, Otto. The Essentials of Theory U: Leading from the 
Future as It Emerges. 2nd. ed. San Francisco, CA: Berrett-Koehler 
Publishers, 2016.
    \14\ Kahane, Adam. Solving Tough Problems: An Open Way of Talking, 
Listening, and Creating New Realities. San Francisco, CA: Berrett-
Koehler Publishers, 2007.
---------------------------------------------------------------------------
Climate Change
    ``It's no secret the Trump Administration does not believe in 
climate change, but Indian Country doesn't have the luxury to put its 
head in the sand''. \15\ Senator Udall's words hit home to those of us 
living in rural Alaska. Failing to respond to our changing climate is 
not an option. Global famine and war will surely follow if we do not 
invest in sustainable futures, technologies, and infrastructure. 
Funding to better understand, plan for, and respond to climate change 
is critical to the health of all Alaskans.
---------------------------------------------------------------------------
    \15\ U.S. Senate, June 20, 2018.
---------------------------------------------------------------------------
    Climate changes in Alaska and across the Arctic are outpacing 
changes observed across the globe. \16\ Land and sea ice loss is 
accelerating. Anthropogenic or human derived forces are linked to and 
exacerbating ocean acidification, increasing river runoff, warming 
permafrost, and rising sea levels. Annual average Arctic sea ice is 
decreasing 3.5 percent and 4.1 percent per decade since 1980. \17\ 
There is high confidence that human activities are contributing to more 
than half of the observed rise in Arctic surface temperatures and 
September sea ice decline since 1979. \18\ Warming permafrost poses a 
significant and potentially uncontrollable release of carbon. \19\ 
Coastal permafrost is warming faster than interior regions in northern 
Alaska and northwest Canada. Ground temperatures rose from 16.5oF to 
21.5 oF in Deadhorse, Alaska between 1977 and 2015. \20\
---------------------------------------------------------------------------
    \16\ USGCRP, Climate Science Special Report: Fourth National 
Climate Assessment, Volume I [Wuebbles, D.J., D.W. Fahey, K.A. Hibbard, 
D.J. Dokken, B.C. Stewart, and T.K. Maycock (eds.)]. U.S. Global Change 
Research Program, Washington, DC, USA, 2017. 1-669. doi:10.7930/
JOJ964J6.
    \17\ USGCRP, Climate Science Report, 446.
    \18\ USGCRP, Climate Science Report, 443.
    \19\ Tarnocai, et al. Soil Organic Carbon Pools in the Northern 
Circumpolar Permafrost Region. Global Biogeochemical Cycles 23, no.2 
(2009): 1-11.
    \20\ Cable, et al. Scaling-up Permafrost Thermal Measurements in 
Western Alaska Using an Ecotype Approach. The Cryosphere 10 (2016): 
2517-2532.
---------------------------------------------------------------------------
    We are observing significant declines in salmon populations across 
Alaska. Most Alaska Native and rural residents share a deep 
relationship with wild salmon. Salmon declines are affecting the 
physical, mental, and spiritual health of Alaska Native and rural 
residents. Commercial fishing harvest accounted for 3.667 billion 
pounds in 2014. \21\ This number represents 98.5 percent of all fish 
and game harvested among user groups in pounds. It is clear that 
commercial fishing represents single most significant human impact on 
fisheries and those dependent on fish living across rural Alaska. How 
commercial fishing operations in Alaska directly and indirectly affect 
the continued viability of fish and opportunity for subsistence fishing 
warrants further exploration.
---------------------------------------------------------------------------
    \21\ Alaska Department of Fish and Game, Subsistence in Alaska: A 
Year 2014 Update, 2.
---------------------------------------------------------------------------
    Ensuring that continual hard funding exists to support the upstart 
and operations of intertribal resource commissions will help to address 
the many resource challenges we are experiencing throughout rural 
Alaska. The recently established Ahtna Intertribal Resource Commission 
and Yukon and Kuskokwim Inter-tribal Fish Commissions are improving 
partnerships and expanding opportunities between tribes and federal 
land and resource management agencies. Making these funds available 
through the Bureau of Indian Affairs with the option for compacting and 
contracting will present a more flexible, pragmatic, and effective 
fiscal pathway.
    I hope these insights and recommendations lead to meaningful 
negotiations and actions in the near future. Forming a Statewide 
Committee to address fish and wildlife management and climate change in 
Alaska would be an excellent next step. Thank you for your time in 
reviewing this testimony.
                                 ______
                                 
    Prepared Statement of Karen Linnell, Executive Director, Ahtna 
                    Intertribal Resource Commission
    Thank you for the opportunity to share our experiences with and 
recommendations for improving the Federal Subsistence Management 
Program. Effective and responsible stewardship of our fish, wildlife, 
lands, and waters in Alaska requires dialogue and collaborations 
between federal, state, tribal, and public partners. Future generations 
depend on our commitment to work together.
    The Ahtna Intertribal Resource Commission (AITRC) was established 
in 2011 as part of a long-standing desire of Ahtna tribes and 
organizations to conserve, manage, and develop the fish, wildlife, and 
plant resources of the Ahtna region according to culturally-relevant 
values. AITRC's core purpose is to exercise tribal sovereignty and 
self-determination to promote traditional resource stewardship on the 
ancestral lands of the Ahtna people.
    A Memorandum of Agreement was adopted on November 29, 2016, between 
the U.S. Department of the Interior and the AITRC to promote co-
management with Ahtna tribes. This agreement formalizes our wildlife 
management partnership and seeks to resolve the disappearance of a 
reasonable opportunity to practice our customary and traditional moose 
and caribou hunting patterns. We agreed:

         The Department will immediately commence rulemaking to allow 
        the issuance of AITRC-managed community harvest permit(s).Such 
        permit(s) may be for the benefit of the AITRC's member tribal 
        communities only [and]. . .will allow AITRC to establish 
        harvest limits, quotas, season dates, and methods and means. 
        \1\
---------------------------------------------------------------------------
    \1\ MOA: Memorandum of Agreement between United States Department 
of the Interior and Ahtna Intertribal Resource Commission. Anchorage: 
Department of the Interior, 2016.

    Increasing participation in Community Subsistence Hunts managed by 
the State of Alaska drove us to begin negotiations with the DOI on this 
MOA. Challenges stemming from this hunt continue to intensify. Roadside 
pull-offs are plugged with trucks, trailers, and four wheelers. Some 
report that they are unable to bring their children hunting due to the 
growing prevalence of unsafe hunting practices observed in the Copper 
Basin. Once quiet and peaceful places to teach our children are 
becoming noisy and trash filled areas. There is nothing respectful or 
customary and traditional about the intensive hunting observed on our 
ancestral homelands today.
    Ahtna Elder Roy S Ewan spoke to a group of young people days before 
his passing. Roy's message focused on the unfinished business 
pertaining to the Alaska Native Claims Settlement Act. He recalled the 
promise by federal and state congressional leaders during the House 
Conference Committee. On the protection of Alaska Native hunting and 
fishing rights, the House Conference Joint Statement declared:

         The Conference Committee. . .believes that all Native 
        interests in subsistence resource lands can and will be 
        protected by the Secretary through the exercise of his existing 
        withdrawal authority. . ..The Conference Committee expects both 
        the Secretary and the State to take any action necessary to 
        protect the subsistence needs of the Natives''. \2\
---------------------------------------------------------------------------
    \2\ Joint Statement.'' In 2247 P.L. 92-746, Alaska Native Claims 
Settlement Act. Proceedings of House Republican Conference Report. Vol. 
746. Washington, D.C.: 92ST Congress, 1971.

    Many Alaska Native Peoples believe the promise to protect their 
subsistence needs has been largely unrealized. We view this MOA as an 
opportunity for Ahtna Peoples to exercise our right to negotiate as 
sovereign Nations with the United States Government to protect our 
subsistence needs, culture, and ways of life.
    Since the signing of the MOA, we have been met with delays and 
resistance to the implementation of our MOA. We believe that this is 
because the Office of Subsistence Management is housed within the US 
Fish and Wildlife (USFWS). AITRC agrees and endorses Mary Sattler 
Peltola's testimony and recommendation to remove the Office of 
Subsistence Management (OSM) from under the U.S. Fish and Wildlife 
Service. \3\ Housing the OSM beneath the USFWS continues to present 
clear ethical concerns. How can the OSM adequately serve the rural 
residents of Alaska while also charged with the task of serving each of 
the five federal agencies that makeup the FSB? Moving the Office of 
Subsistence Management out of the US Fish & Wildlife Service would be a 
move to strengthen and lend autonomy to the OSM.
---------------------------------------------------------------------------
    \3\ U.S. Senate, Committee on Indian Affairs, Oversight Hearing on 
``Keep What You Catch: Promoting Traditional Subsistence Activities in 
Native Communities''. June 20, 2018.
---------------------------------------------------------------------------
    We would also like to see tribal representation at the Interagency 
Staff Committee meetings to represent tribal interests to the FSB. 
Currently, proposals are submitted to the Federal Subsistence Board are 
reviewed by an Interagency Staff Committee (ISC). The ISC makes 
comments and recommends whether or not the proposals go on a consent or 
non-consent agenda. The opportunity to participate in all future ISC 
meetings would provide us with a more meaningful role in the Federal 
Subsistence Management Program. AITRC defines a meaningful role as a 
decisionmaking role engaged in all levels of management, including 
planning, negotiation, and implementation. Input at this table will 
undoubtedly improve the recommendations before the Board. Participating 
in ISC meetings will also present opportunities to learn about each 
other's concerns and discuss pragmatic and mutually beneficial 
solutions. Certainly, there could be no harm from working together; a 
goal all stakeholders seem to share.
    Rural FSB members must meet a criteria of personal knowledge of 
local conditions. No such criteria exist for Agency FSB members. Agency 
representatives are often new to Alaska and here for a short time 
before beginning their service on the Federal Subsistence Board. 
Expanding the FSB to include additional tribal/rural seats will 
strengthen our meaningful participation and improve the Board's overall 
personal knowledge of rural Alaska.
    AITRC's vision is to manage our traditional lands to ensure that 
our lands, waters, air, fish, wildlife, and people remain healthy. We 
look to regain a meaningful role in the management of our traditional 
lands through this MOA. The opportunity to work together as negotiating 
partners is a welcome change. Building strong partnership will help us 
accomplish our mutual goals and prepare our young people to respond 
responsibly to our changing world.
    We sincerely thank and respect the Committee of Indian Affairs for 
their time and support.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                        to Mary Sattler Peltola
    Question 1. You stated that tribal subsistence fishers are often 
subject to conflicting laws and policies governing natural resources. 
The clash between State, Federal, and Tribal regulations complicates 
the practice of subsistence fishing and undermines tribal sovereignty. 
You also suggested that there should be specific locations set aside 
for tribal communities to engage in subsistence fishing. Who should be 
responsible for identifying and reserving areas specifically for tribal 
subsistence fishing?
    Answer. The Kuskokwim River Inter-Tribal Fish Commission (KRITFC or 
Commission) appreciates the additional opportunity to discuss its 
members' traditional subsistence activities, and ways in which those 
activities are being helped and hindered by existing government 
actions. As I discussed during my testimony on June 20, 2018, the 
Commission believes that a legislative fix to the Alaska National 
Interest in Lands Conservation Act (ANILCA) is essential. Until 
Congress acts, significant reform in the regulations and administration 
of the Federal Subsistence Management Program (FSMP), is necessary 
maintain existing subsistence opportunity and advance self-
determination in managing Alaska's fish and wildlife.
    In order to fully address the numerous problems with Title VIII, 
Congress needs to amend ANILCA to explicitly recognize the right of 
Alaska Natives to hunt and fish on federal lands and waters, and to 
regulate these uses for their tribal members on lands and waters 
traditionally used for subsistence. Alaska Natives have well-
established, identified, traditional hunting and fishing territories 
within the boundaries of federal parks, forests and refuges. These are 
the public lands where tribes should have hunting, fishing and 
management rights.
    Additionally, Congress needs to ensure that Alaska Natives have the 
right to use and manage the traditional lands retained by Alaska Native 
Corporations through the Alaska Native Claims Settlement Act (ANCSA) 
for hunting and fishing. Many Alaska Native Corporations chose their 
settlement lands based on their value for subsistence uses. Yet, the 
State of Alaska currently claims jurisdiction to manage all hunting and 
fishing on these Native lands, and the Department of Interior has done 
nothing to challenge this injustice. Some of the prime Alaska Native 
hunting and fishing grounds were identified, claimed and conveyed to 
ANCSA corporations more than 50 years ago. It is time for Congress and 
DOI to ensure that Alaska Natives can use these lands without being 
restricted or forbidden by State management.
    However, the situation demands action until Congress acts. The DOI 
Secretary needs to revise the regulations establishing the 
administrative structure for implementing Title VIII. The revisions 
need to be based on recognition of the government to- government status 
of Alaska's tribes and maximum implementation of self-determination in 
implementing subsistence hunting and fishing. Title VIII needs to be 
recognized by DOI as ``Indian'' legislation, despite the ``rural'' 
priority since it was clearly the intent of Congress to protect the 
Alaska Native cultural, nutritional and traditional subsistence way of 
life. \1\ DOI should then enter into 638 compacts and annual funding 
agreements with tribes for federal subsistence management programs. DOI 
can do all of this without diminishing the protection for those rural 
residents who are dependent on subsistence resources and are not tribal 
members. Much of the current administrative structure can be retained 
for these rural residents.
---------------------------------------------------------------------------
    \1\ 16 U.S.C.  3111.
---------------------------------------------------------------------------
    The existing federal protections for Alaska Native hunting and 
fishing rights are inadequate to provide the full and meaningful access 
and opportunity to meet traditional, nutritional and cultural needs. 
Title VIII of ANICLA fails to explicitly recognize the right of Alaska 
Natives to use federal public lands and waters to hunt, fish and 
sustain their way of life. Instead section 804 of ANILCA provides for a 
``rural'' instead of Native priority. It is therefore not currently 
accepted as legislation adopted for the benefit of Native Americans and 
not interpreted pursuant to the cannons of construction that favor 
decisions supporting Native rights. Federal agencies resist compacting 
federal programs related to subsistence management because Title VIII 
is not ``Indian'' legislation or a right reserved for Alaska Natives. 
The administrative structure established for implementing Title VIII 
fails to provide the tribes with any regulatory, management or 
enforcement authority over their members hunting and fishing. Instead, 
those who have practiced this way of life as far back as we can 
remember, and whose culture and welfare remain tied to their 
traditional lands and resources, are completely sidelined while federal 
boards and agencies make all of the rules. This kind of dominant and 
culturally destructive policy was abandoned in most all other cases in 
favor of a policy of maximizing self-determination.
    Congress has clearly empowered the Secretary of the Interior (the 
Secretary) with discretion to implement the federal subsistence rights 
mandated in ANILCA. However, conflicting State and Federal regulations, 
and the nature of the political relationship between the State and the 
Federal government have resulted in a Federal subsistence management 
program that is highly deferential to the State of Alaska (the State), 
to the detriment of our tribes, our self-determination, and our 
customary and traditional subsistence uses of available fish and 
wildlife resources.
    The State interprets its Constitution and statutes such that every 
resident is a subsistence user regardless of whether those residents 
are genuinely engaged in living a subsistence way of life. Federal 
regulations prioritize subsistence uses by rural residents, emphasizing 
the importance of food security and historical dependence on 
subsistence resources in Alaska's rural communities. These conflicting 
eligibility requirements create a number of regulatory, political, and 
cultural conflicts frustrating effective subsistence management in our 
state, and confirm the need for the Secretary of the Interior actively 
engage in reforms that fully implement the rights protected in ANILCA 
and do so through empowering those most impacted and knowledgeable, 
Alaska Natives.
    There is only one reservation in Alaska. \2\ Outside of the Annette 
Islands Indian Reserve, no public lands are reserved specifically for 
Alaska Native subsistence uses.
---------------------------------------------------------------------------
    \2\ The Metlakatla Indian Community is located on Annette Islands 
in southeastern Alaska and is the only Indian Reservation in the State 
of Alaska called the Annette Islands Reserve. See www.metlakatla.com/ 
for more information.
---------------------------------------------------------------------------
    Following the enactment of ANCSA in 1971, Alaska Native 
Corporations selected and withdrew from the public domain millions of 
acres of land based upon their historical significance and importance 
to Alaska Native subsistence uses of available fish and wildlife 
resources. However, these lands are not recognized as Indian Country, 
and the State with the passive acceptance by DOI, has simply presumed 
the regulation of fish and wildlife resources found on and adjacent to 
these ANCSA lands. The result is that the traditional hunting and 
fishing territory retained by Alaska Natives in exchange for 
extinguishment of their aboriginal land claims have no federal 
protection, and in some cases state law forbids providing for a 
subsistence priority on Native lands.'' \3\ Alaska Native allotments, 
and the fish and wildlife resources found on and accessed from these 
lands, are also managed under State jurisdiction, despite the fact that 
most Alaska Native allotments are held in trust by the federal 
government on behalf of the Alaska Native allottee.
---------------------------------------------------------------------------
    \3\ Anderson, Robert T. 2016. Sovereignty and Subsistence: Native 
Self-Governance and Rights to Hunt, Fish, and Gather After ANCSA, Legal 
Studies Research Paper No. 2017-01, 33 Alaska Law Review 187-227, p. 
218.
---------------------------------------------------------------------------
    In 1971, when Alaska Native land claims were addressed by the 
passage of ANCSA, \4\ a House Conference Joint Statement stated 
Congress's intent that Alaska Native interests in subsistence resources 
would be protected by the Secretary of Interior and the State of 
Alaska:
---------------------------------------------------------------------------
    \4\ Alaska Native Claims Settlement Act,  43 U.S. Code Chapter 33 
(1971).

         ``All Native interests in subsistence resource lands can and 
        will be protected by the Secretary [of the Interior] through 
        the exercise of his existing withdrawal authority. The 
        Secretary could, for example, withdraw appropriate lands and 
        classify them in a manner which would protect Native 
        subsistence needs and requirements by closing appropriate entry 
        by non-residents. . . . The Conference Committee expects both 
        the Secretary and the State [of Alaska] to take any action 
        necessary to protect the subsistence needs of the Natives.'' 
        \5\
---------------------------------------------------------------------------
    \5\ Joint Statement, in 2247 P.L. 92-746, Alaska Native Claims 
Settlement Act. Proceedings of House Republican Conference Report. Vol. 
746. Washington, D.C.: 92ST Congress, 1971.

    Despite Congress's clearly stated intent about the role the 
Secretary and the State were to take in protecting our subsistence 
uses, the protections provided to us by both parties are not 
sufficient. Both the State and federal subsistence management systems 
are broken and simply cannot succeed for Alaska Natives because of the 
complete lack of self-determination in this most essential right. We 
know what is needed for our cultures, the health of our peoples, our 
culture, and resources, but have no power to act.
    Congressional action, taken in consultation with our tribes, is 
critical to continued protections for our subsistence uses of fish and 
wildlife. Such action is not without precedent. For example, Congress 
has acted to ensure continued protections for Alaska Native subsistence 
uses of marine mammals and migratory birds through passage of Alaska 
Native exemptions in the Marine Mammal Protection Act and the Migratory 
Bird Treaty Act. \6\ And, Congress recently passed the Huna Tlingit 
Traditional Gull Egg Use Act of 2014 that authorizes the Secretary of 
the Interior to allow the collection of glaucous-winged gull eggs in 
Glacier Bay National Park by members of the Hoonah Indian Association. 
\7\ This type of congressional intervention is needed to address 
ongoing challenges faced by the Kuskokwim River Inter-Tribal Fish 
Commission.
---------------------------------------------------------------------------
    \6\ Anderson 2016:217.
    \7\ Pub. L. No. 113-142, 128 Stat. 1749 (2014).
---------------------------------------------------------------------------
    Congress's broad authority to restore tribal powers over people and 
territory should be used to restore tribal territorial jurisdiction 
over fish and wildlife resources in Alaska. This should include 
recognition of Native hunting and fishing rights on ANCSA corporation 
land, Federal public, and even State lands. \8\ Congress's obligation 
to recognize and assist our self-determination demands such action. 
Without congressional action amending Title 8 of ANILCA to specifically 
provide for an Alaska Native subsistence preference, OSM, through its 
administration of the FSMP, will not take action to implement 
strengthened protections solely for Alaska Native subsistence uses 
through ANILCA, as doing so would be considered discriminatory.
---------------------------------------------------------------------------
    \8\ Anderson 2016:218.

    Question 1a. What sort of regulations should or would be in place 
for non-tribal individuals that visit these natural resources?
    Answer. The Commission is not aware of a meaningful conflict 
between tribal hunting and fishing and the public's right to visit and 
enjoy the federal parks, refuges and forests, and therefore does not 
have a position on any regulations to manage the visiting public to 
protect subsistence opportunity.
    The Commission also wants to be clear that in advocating for 
explicitly recognizing a subsistence right for Alaska Natives, and 
self-determination, it is not discounting the need or right of other 
non-tribal Alaska residents who are truly dependent on subsistence 
resources for their nutritional and social way of life to have a 
federally protected opportunity to do so. Congress and the Secretary 
can explicitly protect Native subsistence opportunity and self-
determination while also establishing a right for non-tribal 
subsistence users and an administrative system that serves the needs of 
these users.

    Question 2. Many tribes are facing additional barriers due to state 
regulations. Indigenous peoples who have practiced subsistence fishing 
and hunting for generations are experiencing large fines for not 
abiding by state regulations and a seizure of goods and supplies 
necessary for subsistence harvesting at the hands of the state. How can 
the federal government assume an active role in protecting the 
sovereignty of native peoples and continuing this tradition and what 
would tribal co-management over subsistence activities look like?
    Answer. Our answers to the above questions explain the Commission's 
position on necessary Congressional and Secretarial action. We will 
therefore take this opportunity to further discuss the existing 
shortcomings with the current federal subsistence regulation process.
    The existing federal administrative process is contrary to self-
determination and tribal engagement in federal management of 
subsistence uses of salmon in the Kuskokwim River in several ways. 
Every year, the Commission spends an exorbitant amount of time 
navigating and participating in the federal subsistence management 
administrative process, at great expense and inconvenience to the 
Commission's members, many of whom live in rural areas hundreds of 
roadless miles away from where administrative events take place. This 
hinders the Commission's ability to regularly and effectively engage 
the thousands of tribal citizens living along the Kuskokwim River and 
who make up the Commission's thirty-three member tribes.
    Too commonly, the Commission's positions and management plans are 
diminished by its Federal management ``partners.'' At times, it appears 
that U.S. Fish and Wildlife's primary priority is getting along with 
the State rather than ensuring that our subsistence needs are 
fulfilled. The Commission needs clear and enhanced authority to develop 
and implement management plans that will serve the needs of its tribal 
members, provide for conservation, and allow for the needs of other 
federally qualified subsistence users. The Secretary needs to revise 
the administrative structure so that there is a clear path between the 
Secretary and tribes for subsistence management. The Secretarial 
authority that is currently delegated to the Federal Subsistence Board 
should be delegated to the Commission. This is vital given the growing 
impacts of climate change on natural resources we depend on. It is 
vital that tribes have a central role in implementing and administering 
ANILCA, rather than be relegated to the sidelines as the Federal and 
State governments implement their own uninformed policies.
    Alaska Native tribes and tribal entities have successfully co-
managed the subsistence use of fish and wildlife resources throughout 
Alaska under other federal statutes for a number of years. These 
successful co-management programs provide excellent examples of how the 
Commission should be empowered for co-management under Title VIII. For 
example, the Alaska Eskimo Whaling Commission (AEWC), in partnership 
with NOAA, co-manages the take of bowhead whales, and enforces the 
provisions of a management plan with its own members with great 
success. Through co-management, the AEWC has expanded the collective 
scientific and traditional understandings of bowhead whale biology and 
behavior while providing sustainable, customary, and traditional 
whaling hunts. As a result, the numbers of bowhead whales in Alaskan 
waters have increased while ensuring that AEWC-member subsistence needs 
are met.
    In the 1980s, migratory bird populations experienced historic 
declines. Conservation efforts resulted in prohibiting the subsistence 
take of specific species. One such species was the Emperor Goose, a 
valued subsistence food. Along with U.S. Fish and Wildlife and the 
State, the Native Caucus of the Alaska Migratory Bird Co-Management 
Council (AMBCC) began co-managing the subsistence take of migratory 
birds in Alaska pursuant to the Migratory Bird Treaty Act. Through the 
co-management of the AMBCC, the Emperor Goose population began to climb 
again, and a subsistence and non-subsistence hunt for Emperor Goose was 
recently implemented for first time since 1983. Yet another example of 
exemplary co-management is found in the many Alaska Native marine 
mammal commissions, which develop and implement management plans 
regulating the take of specific marine mammals pursuant to the Marine 
Mammal Protection Act (MMPA).
    Kuskokwim River tribes are the most dependent users of returning 
spawning runs of Pacific salmon, yet are most vulnerable if populations 
crash and become extinct. These examples demonstrate that not only is 
tribal co-management of fish and wildlife resources important, but 
necessary to our ongoing physical and spiritual wellness.
    The Commission has actively participated in the management of 
subsistence fisheries on the Kuskokwim River since 2015. A tangible 
benefit of our involvement has been the widespread compliance with 
stringent salmon fishing restrictions necessitated by the poor returns 
of Chinook salmon. In the past, compliance with harvest restrictions 
was difficult or otherwise impossible to ensure because there was no 
role for our own tribes to provide input and become actively engaged in 
the promotion and implementation of these conservation measures.
    The Commission's goal is to assume primary responsibility for the 
management of Kuskokwim River subsistence fisheries for its tribal 
members through co-management with the State and Federal governments. 
The Commission believes that a demonstration project authorized and 
funded by Congress would be the logical vehicle to enable the 
Commission to do this. With input and involvement from other 
stakeholders, including the State and U.S. Fish and Wildlife Service, 
the Commission would draft and implement a management plan for tribal 
subsistence fisheries throughout the Kuskokwim River. Conservation of 
healthy fish stocks would be a primary concern for all parties, as well 
as providing subsistence opportunity for other qualified non-tribal 
users. The Commission's member tribes would be responsible for 
implementing and enforcing the management plan for its own members. 
Subsistence users who are not tribal members would have their 
opportunity and rights implemented and protected pursuant to applicable 
state and federal systems and regulations.
    Providing the Commission this enhanced authority could happen in a 
number of ways:

        1.  The only way to solve the numerous obstacles presented by 
        Title VIII is for Congress to enact federal legislation that 
        explicitly recognizes Alaska Native subsistence rights and 
        tribal management of this right.

        2.  In the meantime, Congress could direct the Secretary to 
        engage in rulemaking to create a direct management structure 
        between the Secretary and the Commission under which the 
        Secretary delegates authority directly to our tribes to manage 
        subsistence uses of fish on the Kuskokwim.

    These remedies will allow KRITFC to focus efforts on important 
engagement and research efforts with the 33-member tribes including 
discussions about issues of concern, documentation of traditional 
knowledge, and current observations of tribal elders. This type of work 
is vital to support more effective salmon management.
    The Commission also continues its outreach role to inform and 
educate the public about salmon conservation initiatives and the 
management approaches taken by the KRITFC's In-Season Managers and 
federal and state agency actions. State and federal agencies face 
ongoing challenges in interacting with the public and it is necessary 
that the KRITFC have more opportunity to serve as a critical bridge in 
overcoming communication gaps.

    Question 2a. How could we balance state interest to protect 
endangered species with tribal rights to subsistence activities?
    Answer. The current regulatory structure in place under ANILCA 
builds in ample protections for state interests and endangered species. 
For example, federal management must defer to State regulations except 
where those State regulations conflict with federal regulations. \9\ 
Alaska Native co-management of fish and wildlife resources, examples of 
which I discussed above, effectively maintains the balance between 
State and Federal interests in protecting endangered species and tribal 
rights to engage in customary and traditional subsistence uses of 
available fish and wildlife resources.
---------------------------------------------------------------------------
    \9\ 50 CFR 100.14(a).
---------------------------------------------------------------------------
    Traditional tribal management principles shared by to the 
Commission's members also protect endangered species without harming 
tribal subsistence rights. For example, one such principle enforced by 
all of the Commission's tribal members includes ``Take only what you 
need, don't waste or play with your food, and keep what you catch, it 
is food.'' The Commission and its members firmly believe that 
disrespecting fish and wildlife resources will cause those resources to 
decline such that human beings will suffer. Tribal co-management 
principles implicitly incorporate protections for endangered species, 
and balance those protections against tribal rights to continue 
engaging in subsistence uses of those species.
    Question 3. One of the prominent barriers to subsistence activities 
is the harmful role of climate change in natural ecosystems in Indian 
Country. We know that when lakes and other natural resources are 
polluted, and communities are unable to harvest resources, they lose an 
important source of nutrition? Have you collected any data or research 
on the relationship between environmental pollution and native health 
in communities that practice subsistence fishing, hunting, or fishing? 
If so, can you talk about how native health is impacted by climate 
change?
    Answer. Climate change is affecting the lives of all residents of 
the 33 KRITFC member tribes in the Kuskokwim region. The Commission 
lacks the resources to conduct ``formal'' climate change studies 
demonstrating how climate change is affecting our subsistence 
resources. However, by the measure of the traditional knowledge used 
and recognized by our elders, the Commission is well aware that climate 
change is making it more challenging to predict weather, river 
conditions, and fish and wildlife behavior. Tribal elders are observing 
changes in weather, temperature, river water levels, returning species, 
and other indicators of natural resource status, health, changes which 
all suggest that climate change and the coincident escalation of global 
temperatures is having a detrimental effect upon our subsistence 
resources--which, in turn, has a detrimental effect upon our physical, 
psychological, and spiritual well-being.
    With regard to pollution, the Commission is fortunate in that point 
sources of pollution are not something that is widespread in our 
region. However it is an area of significant concern for us, especially 
in light of proposed development projects. While the historical mineral 
mining and the development of a military industrial complex has 
resulted in polluted waters and other areas of concern, efforts are 
underway to minimize impacts to protected tribal rights, resources, and 
lands. Such programs include the Native American Lands Environmental 
Mitigation Program (NALEMP) and CERCLA or the Superfund which has been 
recently mitigating mercury contamination associated with historic 
mining activities in Red Devil.
    In 2007, state and federal agencies issued a health advisory 
regarding high levels of mercury contamination found in northern pike, 
one of our resident fish species that is widely enjoyed by area 
residents. A 2001-2003 state household survey found that Bethel 
residents alone harvested about 25,000 to 44,000 pounds of northern 
pike. \10\ However, pregnant women and children were advised not to eat 
northern pike because of concerns about mercury. This is especially 
concerning when you realize how much pike we eat on the Kuskokwim 
River, not to mention all the other fish we catch for food and is a 
good example of why the Commission's member tribes are concerned about 
point sources of pollution.
---------------------------------------------------------------------------
    \10\ Simon, J. et al. 2007. Bethel Subsistence Fishing Harvest 
Monitoring Report, Kuskokwim Fisheries Management Area, Alaska, 2001-
2003. Alaska Department of Fish and Game, Division of Subsistence, 
Technical Paper No. 330, pp. 30-32.
---------------------------------------------------------------------------
    It is of the utmost importance that the Commission continues to 
monitor the effects of global warming and pollution upon available fish 
and wildlife resources necessary to maintain our subsistence ways of 
life. There have been funding proposals, unsuccessful to date, to 
establish a discharge and temperature monitoring network throughout the 
Kuskokwim River. However, the Commission cannot do this while operating 
on a shoestring budget. The Commission's operating budget for the 
current fiscal year is only $550,000.00. It is highly unlikely that the 
Commission will be able to fund, or otherwise develop the capacity to 
administer, projects and programs that take an enhanced look at the 
effect of climate change and pollution on our subsistence lifestyle. 
This network would be established by contracting scientists, then 
maintained by participants in select villages.
    Climate change has a broad range of impacts upon the lands, waters, 
and natural resources of Alaska. From milder, drier winters to warmer, 
wetter summers, these impacts change our physical landscape right 
before our eyes. These impacts also affect health and strength of the 
natural resources we depend on, as well as the lives and health of our 
tribal members. We need secure, dependable funding in order to build 
our capacity and commit to monitoring the effects of climate change. 
Additional congressional appropriation is one of the only ways to 
secure this necessary funding.
    It is difficult to know the full extent to which climate change has 
affected the health and bounty of Kuskokwim River Chinook salmon 
stocks. But recent years of disastrously low Chinook salmon returns 
have deeply impacted our emotional, nutritional, economic, social, and 
spiritual well-being. We are no longer able to harvest enough Chinook 
salmon to meet our family's nutritional needs throughout Alaska's long 
and harsh winters. When our families can barely feed themselves, it 
then becomes additionally challenging for us to engage in our 
traditional practices of sharing and trading food resources with our 
friends and family who cannot otherwise provide for themselves. The 
Commission believes that the negative effects of climate change have 
created an ongoing scarcity of essential resources, which in turn is 
causing an ongoing crisis in our tribal communities as we lose our food 
security and watch one another suffer.

    Question 4. I understand that Native populations are the most 
vulnerable group to climate change and that environmental pollution of 
tribal lands and resources generally comes from surrounding businesses, 
plants, and communities that do not belong to the tribal community. 
What can we do to protect tribal lands from surrounding environmental 
pollution and what course of action can tribes or the government take 
against organizations, communities, or individual who contaminant 
tribal lands?
    Answer. Alaska Natives are highly vulnerable to climate change and 
environmental pollution. Climate change and environmental pollution 
compromise our food security, damage our lands, and are responsible for 
rapidly changing the physical and cultural landscape in which we exist. 
This is why it is so important for Congress to support laws, programs, 
and projects, such as the Commission's proposed co-management and 
tribal stewardship of Kuskokwim River salmon stocks, which enfranchise 
our members and support our self-determination by enabling us to 
directly address these negative influences. Without an enfranchised 
tribal management system in place, these vulnerabilities, and the legal 
and administrative roadblocks preventing our ability to successfully 
address these vulnerabilities, will only deepen. Tribes need a real 
seat at the table to address these significant issues.
    Congress must also resist efforts to water down existing 
environmental protections found within the National Environmental 
Policy Act (NEPA) and the Endangered Species Act (ESA), and must 
continue enforcing the full scope of protections found in these 
important laws. Climate change and environmental pollution are directly 
caused by business and industry's failure to voluntarily put adequate 
protections in place for the development of their products. The answer 
to addressing climate change and environmental pollution is not to 
water-down legal obligations and protections with regard to industry 
and business actions, but to strengthen and continue enforcing those 
obligations and protections.

    Question 4a. How can traditional knowledge help address climate 
change impacts facing tribes? Do you think western science takes your 
suggestions seriously?
    Answer. There is a role for both western science and traditional 
knowledge to address the impacts of climate change affecting our 
members. While I personally do not think that western science values 
traditional knowledge in the same way that it values empirical data, 
there is increasing interest in and attention being paid to traditional 
knowledge in the context of resource management. Traditional knowledge 
passed down from our tribal ancestors helps us understand how we are to 
act and behave to ensure future success for our children and 
communities. Traditional knowledge guides our customs, ceremonies, 
cultural practices, and our individual behaviors to ensure that respect 
is shown to the land, water, and natural resources upon which our 
people depend.
    Traditional knowledge should not need to be ``proven'' by western 
scientific methods and ways of knowing before it is considered in 
making resource management decisions, but oftentimes, our traditional 
knowledge is disregarded in favor of western scientific predictions and 
models. For example, in 2017, the Commission and U.S. Fish and Wildlife 
agreed on a conservative harvest of 40,000 Chinook salmon during pre-
season negotiations and meetings. This harvest estimate was based upon 
the State's estimated Chinook returns--estimates based wholly on 
western science.
    However, when the run actually started, the U.S. Fish and Wildlife 
Service and the Commission disagreed about the size and timing of the 
Chinook salmon run in the Kuskokwim River. Real-time western science 
used by U.S. Fish and Wildlife suggested that the Chinook run was weak, 
whereas real-time traditional knowledge suggested that the Chinook run 
was strong, but returning in ways--running deeper in the river, and 
returning later in the summer--for which western science could not 
account. At the end of the summer, the post-season escapement numbers 
confirmed that the traditional knowledge advanced by the Commission was 
correct, and there was a surplus of at least 10,000 Chinook salmon. 
While the conservation of these fish was important, those 10,000 fish 
represent lost opportunity and food security for hundreds of our tribal 
members. Had our traditional knowledge been fully acknowledged and 
recognized, we would not have lost important fishing opportunity.
    Many people misunderstand traditional knowledge or are confused by 
what it means. Traditional knowledge is holistic. Often one species can 
be used as an indicator of presence and abundance of a completely 
different species. Indigenous peoples' ways of knowing are holistic in 
nature. What one thinks, what one says, and what one does, all has the 
potential to impact or influence another aspect of one's world. Wasting 
a resource or treating a resource disrespectfully incurs consequences 
for the individual, those around them, as well as the resource. In 
comparison, the western way of knowing is compartmentalized and 
specialized, some might say narrow. A western scientific observer may 
study a particular aspect of the world, like salmon run-timing and 
abundance, take notes, gather data, test hypotheses, confirm or 
formulate new theories, and develop a predicted salmon run forecast for 
the next season based on mathematic models.
    Here are some examples of traditional knowledge. In 2014, my mom's 
younger brother taught me how to use a little set net to fish for red 
(sockeye) salmon. We went to the mouth of the Gweek River, a small 
tributary of the Kuskokwim River north of Bethel, where his 
grandparents had their fish camp. He knew exactly where to put the net 
to catch 95 percent reds, and avoid Chinook salmon. Many biologists and 
fisheries managers imagine that gill nets are indiscriminate killers of 
fish. But if you know where each species tends to swim, if they prefer 
sandbars, slower currents or deeper depths, gill nets can be a very 
targeted and discreet gear type. To me, traditional knowing is having a 
detailed and deep understanding of an ecosystem. My friend Charlie 
Wright on the Yukon River told me that on his section of the Yukon, an 
indicator of the arrival of Chinook salmon is yellow butterflies. When 
he sees a yellow butterfly, he knows the Chinook salmon are there. He 
also said the abundance of yellow butterflies reflects the abundance of 
Chinook salmon. In 2017 when the Chinook salmon came back in real 
numbers, there were big swarms of butterflies again. These 
interconnections are inherent to indigenous knowledge systems and 
represent a very different way of viewing the relationship between 
human beings and the natural world compared western science.
    Our Commission's four In-Season Managers all value the western 
science that is presented by our state and federal managing partners 
and used to make management decisions. However, our In-Season Managers 
also recognize the value of traditional knowledge, and know that 
incorporating traditional knowledge into resource management 
decisionmaking strengthens the end result.
    The Commission's In-Season Managers are skilled at incorporating 
western science and traditional knowledge into their consideration of 
management decisions. For example, upon receiving a mathematical 
forecast of the anticipate salmon return, our In-Season Managers will 
also use other traditional information before deciding when and how 
long to fish. These additional considerations include observations 
about river water levels, snow depth of the previous season, height of 
grasses, when shoots of green grass emerge, numbers of migrating birds 
arriving and when they arrive, when mosquitos present themselves, where 
people have been catching certain kinds of fish and which stock of fish 
are presently migrating, the nature of and direction of winds at the 
river mouth, when cotton flies, when there are storms in Kuskokwim Bay, 
river water temperatures, water clarity, amount of debris floating 
downriver, anticipated fishing interests, and fish-drying weather 
conditions, and the effect that these interconnected observations have 
on one another insofar as fisheries management is concerned.
    The recognition and incorporation of traditional knowledge is 
essential in any study of climate change in the Kuskokwim River region. 
Traditional knowledge represents the most significant data set of 
systematic observations of our ecosystem.

    Question 5. A large part of our discussion today has revolved 
around the numerous barriers to subsistence activities, particularly 
focusing on the role of the Federal Subsistence Board in management. 
However, we know that for native communities, subsistence activities 
are an important source of cultural identity and heritage. We know that 
cultural connections including traditional values, customs, activities, 
and ceremonies serve as protective factors in the lives of tribal youth 
by discouraging delinquent behavior, encouraging academic success, and 
alleviating various stressors on native youth. Could you talk about the 
emotional, spiritual, and cultural toll these barriers to subsistence 
activities have had on native communities, specifically related to 
native youth?
    Answer. I really think that the restrictions and barriers to 
subsistence activities negatively impacts our youth, in many ways. One 
way is in the development of work ethic. We prepare fish to smoke and 
dry at fish camp, where there is a role for everyone, no matter what 
gender or what age., even a 2 or 3-year old has a role to play in the 
productivity at fish camp--by retrieving needed objects like nets and 
buckets, for example. Five-year olds can cut notches in salmon belly 
strips, tie strings, or help people apply bug spray. 7, 8, and 9 year 
olds help inspect drying fish for blue fly maggots and remove them. 11 
and 12 year olds often help start or tend the smoke house fire. It is 
especially important for teens to experience fish camp because that is 
when you learn your skills and develop confidence.
    When we don't have family time at fish camp it leaves a void in our 
family seasonal rounds. The biggest risk in my opinion is to the 
youngest family members, because they miss out on learning about and 
experiencing the opportunity we've always had to instill in them their 
self-worth and need to be productive. It is at fish camp where our 
youth learn that feeling that their family needs them. I think about my 
cousins and their girls. Their kids (girls and boys) are so proud to 
show me their cuts of salmon and whitefish. It makes such a difference 
to grow up at fish camp and every year, as children learn more, it is 
truly transformative.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                        to A-Dae Romero-Briones
    Question 1. Many Tribes are facing additional barriers due to state 
regulations. Indigenous peoples who have practices subsistence fishing 
and hunting for generations are experiencing large fines for not 
abiding by state regulation and a seizure of goods and supplies 
necessary for subsistence harvesting at the hands of the state. How can 
the federal government assume and active role in protecting the 
sovereignty of native peoples and continuing this traditional and what 
would tribal co-management over subsistence activities look like?

    Question 1a. How could we balance state interest to protect 
endangered species with tribal rights to subsistence activities?
    Answer. Tribal subsistence hunters, gatherers, and fishermen and 
women are a Tribal nation's and the United State's most important 
conservationists. Their dependence on a resource requires knowledge, 
management, and protection of that very resource. However, subsistence 
hunting, gathering, and fishing practices are not often acknowledged as 
a conservation or ecological management practices. In worst case 
scenarios, subsistence hunters, gatherers, and fishermen and women are 
labeled ``poachers'' or ``rule-breakers'' when subsistence practices, 
behaviors, and timing are not acknowledged or recognized in state 
hunting, fishing, and gathering regulation. More often than not, Tribal 
Nations' and state conservation goals are often aligned in that both 
State and Tribal Nations have shared goals of natural resource 
perpetuation for future generations. Unfortunately, Tribal Nations and 
State conservation offices may define ``practicing'' conservation and 
resource protection differently.
    In general, many Tribal communities practice conservation through 
interaction with the resource. On the contrary, mainstream conservation 
efforts almost always require resources to ``be left alone'' or remain 
untouched. There is some evidence that suggests human interactions with 
nature, that closely imitate natural disturbances have allowed 
ecosystems to co-evolve with human and thus creating stronger eco-
systems. \1\ M. Kat Anderson and Eric Wholgemuth in an article called 
California Indian Proto-Agriculture: Its Characterization and Legacy 
state, ``indigenous disturbance was so finely tuned and similar to 
certain types and scales of natural disturbances that it conserved the 
renewal capacity of individual plants, populations, and whole 
ecosystems'' (Pp 204). This ecological knowledge is a critical resource 
for environmental and conservation practices, but in order to maintain 
this knowledge, Indigenous people must be allowed access to ancestral 
territories and resources to practice management in the form of 
harvesting, hunting, fishing, and gathering.
---------------------------------------------------------------------------
    \1\ Harlan JR. 1992. Crops and Man, 2nd Edition. Madison, WI: 
American Society of Argonomy and Crop Science Society of America. 
Harris DR. 1989. An evolutionary continuum of people-plant interaction. 
Pp. 11-26 in DR. Harris and GC Hillman (eds.) Forging and Farming: The 
Evolution of Plant Exploitation. London: Unwin Hyman.
---------------------------------------------------------------------------
    There are several Federal actions that can be taken to ensure the 
continued practice of Indigenous ecological management.

        1)  Ensure federal agencies with land holdings in Indigenous 
        ancestral territories have processes for allowing Tribal 
        nations access to those lands. I go into more detail about 
        specific processes of federal agencies who have lands 
        significant to Indigenous communities in the written comments.

        2)  The Multiple Use Sustained Yield Act requires a balance in 
        land use planning among the competing values of recreation, 
        grazing, timber, watershed protection, wildlife and fish, and 
        wilderness. \2\ The Multiple Use Sustained Yield Act should be 
        amended to include Tribal nations' consideration on federal 
        lands within Tribal ancestral territories.
---------------------------------------------------------------------------
    \2\ The Multiple Use--Sustained Yield Act of 1960 (or MUSYA) 
(Public Law 86-517) is a federal law passed by the United States 
Congress on June 12, 1960. This law authorizes and directs the 
Secretary of Agriculture to develop and administer the renewable 
resources of timber, range, water, recreation and wildlife on the 
national forests for multiple use and sustained yield of the products 
and services.

        3)  Federal Government should invest in research dollars for 
        documenting and strengthening Indigenous conservation and 
---------------------------------------------------------------------------
        ecological management practices.

        4)  Amend the Organic Foods Production Act (OFPA) and 
        subsequent USDA regulations to include Tribal authority where 
        state authority is recognized in the act. Specifically, the 
        provision for gathering of wild crops \3\ should include Tribal 
        consultation.
---------------------------------------------------------------------------
    \3\ (7 U.S 7 U.S.C. ch. 94, 7 U.S.C.  6501 et seq.) and Section 
5022 of the USDA-AMS Organic Handbook (can be found at: https://
www.ams.usda.gov/rules-regulations/organic/handbook/5022)

    There are some co-management examples that offer some promising 
models. In the state of New Mexico, there is a licensing system where 
Tribal Nations are given a certain number of hunting licenses for state 
hunts. The Tribal Nation in turn uses those licenses in an internal 
process in accordance with their subsistence practices. While the model 
is not perfected, the this model shows that is possible for State and 
Tribal agencies to cooperate within both systems of management.
    We also have co-management examples from the Bureau of Land 
Management (BLM) and the Forest Service where Tribal communities co-
manage significant national monuments. For example, there was a co-
management agreement between Pueblo de Cochiti and Bureau of Land 
Management over Kasha Katuwe National Park. From this model we can 
glean several lessons:

        1)  Tribal Nations should be duly compensated for their 
        expertise and knowledge in managing their ancestral homelands. 
        In fact, Indigenous management of federal lands often improves 
        the land. Since the federal government is ultimately the land 
        owner, Tribal Nations should be compensated for the 
        improvements. Often, Indigenous land management practices 
        through subsistence are not recognized as land management.

        2)  Co-management agreements should mean that Tribal Nations 
        have equal or ample authority to manage the land. Often times, 
        co-management agreements give greater power to federal 
        agencies.

        3)  Co-management agreements should also be financially sound 
        in that all costs of Tribal Nations are adequately covered in 
        order to fully manage and engage according to the co-management 
        agreements. Too often, Tribal Nations are inadequately 
        compensated to execute co-management agreements, yet expected 
        to fulfill co-management provisions.

    Balancing state interests to protect endangered species and tribal 
interests to practice subsistence activities are often thought of as 
different goals, but in fact, they are often aligned. Indigenous 
subsistence practitioners, more often than not, have vested interest in 
ensuring endangered animals endure. One perspective is that endangered 
species become endangered because subsistence practices are hampered. 
While this concept may seem counter-intuitive, it is quite practical to 
understand species disappearance when animal and plant species are NOT 
intimately and closely monitored. Random and periodic observation are 
not intimate monitoring. In order to intimately and closely monitor 
animal and plant species, human interaction, if not dependence, on 
those species are guarantee real time monitoring and understanding of 
the health of specific species. Even more profound is that subsistence 
practices often require a thorough understanding of ecological 
relationships. If one plant species is endangered, more often than not, 
the animals and other organisms dependent on that plant is also 
endangered. However, learning and understanding of ecological 
relationships requires practice, often over long periods of time. 
Indigenous communities are often the longest standing residents of 
specific places, but their interaction and presence in those lands may 
be limited by the many barriers already discussed surrounding 
subsistence practice. These not only damages the cultural practices of 
a people, but on the health of our ecosystems nationally. For these 
reasons, Indigenous subsistence practices should be encouraged and 
protected in order to ensure endangered species do endure.
    Endangered Species designation and conversations should include 
Indigenous perspectives whether on boards, in consultation, or in key 
staff positions where such determinations are made. Again, federal 
investment in ecological management practices, particularly of 
endangered species, may give new perspectives on endangered species 
recovery, new approaches to recovery, and I would argue, faster 
recovery times. Indigenous people, in their wealth of understanding of 
the environments that they have cultivated for centuries have so much 
to offer to the world of conservation and management.

    Question 2. One of the prominent barriers to subsistence activities 
is the harmful role of climate change in natural ecosystems in Indian 
Country. We know that when lakes and other natural resources are 
polluted and communities are unable to harvest resources, they lost an 
important source of nutrition. Have you collected any data or research 
on the relationship between environmental pollution and native health 
in communities that practice subsistence fishing, hunting, or farming?

    Question 2a. If so, can you talk about how native health is 
impacted by climate change?
    Answer. First Nations Development Institute has worked with over 
300+ Tribal Nation or Tribal non-profit grantees on Indigenous food 
systems throughout Indian Country. We have collected antidotal 
information/data on connections between environmental pollution and 
health or on connections between subsistence practice disruption and 
the effects on health. We do have information on specific tribal 
communities who have collected their own empirical data on health and 
environmental factors such as the Akwesasne Community in New York, the 
Pueblo de Cochiti in New Mexico and the White Earth Community in 
Minnesota, just to name a few. There are several other Tribal specific 
organizations that collect and analyze such data such as the Tribal 
Epidemiology Center and the Center for Native American Environmental 
Health Equity Research.
    There are a few conclusions we can make about climate change and 
native health based on the projects that have been funded under the 
Native Agriculture and Food Sovereignty Initiative at First Nations. 
One, is that subsistence practices are an important process for 
building the resiliency capacities of Tribal communities, individuals, 
and surrounding regional communities. Subsistence practices allow 
Tribal Nations to monitor their environments, take note of the changes 
in that environment, and eventually, adjust behaviors to that changing 
environment. Two, we know that climate change rates are outpacing the 
rates of adjustment of Tribal Nations. With limited access to land 
bases, disrupted subsistence practices, the ability to move or 
transition to other areas is hampered in Tribal Nations. This causes 
reliance on outside sources to help Tribal Nations adjust to climate 
change factors. To bring balance to rates of adjustment and climate 
changes, it is critical for Tribal Nations to be supported in 
subsistence practice.

    Question 3. I understand that Native populations are the most 
vulnerable group to climate change and that environmental pollution of 
tribal lands and resources generally comes from surrounding businesses, 
plants, and communities that do not belong to the tribal community. 
What can we do to protect tribal lands from surrounding environmental 
pollution and what course of action can tribes or the government take 
against organizations, communities, or individuals who contaminate 
tribal lands?

    Question 3a. How can traditional knowledge help address climate 
change impacts facing tribes? Do you think western science takes your 
suggestions seriously?
    Answer. Surrounding environmental pollution is always a concern for 
Tribal communities. Over the course of development of Tribal law, there 
have been innovative and effective mechanisms to hinder surrounding 
environmental pollution. Unfortunately, many of those mechanisms and 
tools have been undermined in the last few years. Perhaps the best 
example of controlling surrounding environmental pollution is the Clean 
Water Act (CWA), The Clean Air Act (CAA), Clean Water Act (CWA), and 
Safe Drinking Water Act (SDWA). These statutes allow Tribal Nations to 
set environmental quality standards and to implement strategies to meet 
those standards. These acts should be protected, used as models for 
other pieces of environmental legislation, and expanded in other 
environmental quality statutes. These acts can be strengthened in that 
rather than having Tribal Nations apply for status as States, status as 
state should be assumed unless a Tribal Nations opts out of such 
treatment.
    Additionally, Tribal Courts should be recognized as having the 
authority to prosecute environmental pollution on Tribal lands. It has 
taken an act of Congress to acknowledge Tribal court jurisdiction over 
non-Indian perpetrators of domestic violence. A similar action should 
be taken to acknowledge Tribal jurisdiction over non-Indian 
perpetrators of environmental population.
    As stated earlier, subsistence practices ensure resiliency in 
Tribal Nations specifically in response to climate change. In order for 
the development of climate change resiliency, it is critical for Tribal 
Nations to practice subsistence. There are currently so many barriers 
to subsistence practice such as land access, transference of 
traditional knowledge, rates of climate change, prosecution of 
Indigenous subsistence practitioners under state hunting/gathering/
fishing laws that subsistence practice is hampered, thereby weakening a 
community's ability to respond to climate change.
    Western Science, often, dismisses subsistence practices. Hunting, 
gathering, and fishing are often viewed as a ``lesser'' form of 
existence than efficient market systems where a person has to work less 
for more. However, subsistence practices often ensure that demand 
doesn't outpace supply in that demand is directly tied to hard work, 
ecological understandings, and direct interactions with natural 
resources. In short, subsistence practices have to be balanced within 
the environments and natural
    resources that support those practices, humans being included in 
those environments. Federal investment into documenting these concepts 
would have far reaching consequences for not only Indigenous 
communities, but for our larger national approach to conservation.

    Question 4. A large part of our discussion today has revolved 
around the numerous barriers to subsistence activities, particularly 
focusing on the role of the Federal Subsistence Board in management. 
However, we know that for native communities subsistence activities are 
an important source of cultural identity and heritage. We know that 
cultural connections including traditional values, customs, activities, 
and ceremonies serve as protective factors in the lives of tribal youth 
by discouraging delinquent behavior, encouraging academic success, and 
alleviating various stressors on native youth. Could you talk about the 
emotional, spiritual, and cultural toll these barriers to subsistence 
activities have had on native communities, specifically related to 
native youth?
    Answer. While I am not a mental health expert, I can relate to the 
question through personal experience as a once native youth who comes 
from a community where barriers to subsistence farming disrupted my 
entire community's way of life. Within a period of ten years, the ill 
social effects of losing a Pueblo lifestyle, based on subsistence 
farming, were raging in my community. The loss of a life way, a 
connection to ancestral ties, changes in diet, and a dependence on 
sources of food outside of one's one community and hands, is 
unquantifiable, but can be seen in the detrimental health and social 
ills that have come to characterize many Tribal Nations.
    As one might predict, a community not only struggles with the loss, 
but also has to determine a substitute for that loss. During that 
period of transition, many young people struggle with a sense of 
identity because often identity is transmitted from one generation to 
the next through subsistence activities. Subsistence activities offer 
young people orientation and a place in the world. For example, in 
Cochiti, young people cultivate corn. It teaches young people how to 
care for life, learn the seasons of our community and environment, 
understand community behaviors and ceremony, and become part of 
something larger than oneself. When agriculture was disrupted in 
Cochiti because of a loss of agricultural lands, young people had to 
learn all these lessons somewhere else, if we learned these lessons at 
all after agricultural disruption. In short, an efficient social food-
system, deliberately cultivated over generations that synchronized our 
existence with our environment, is usually replaced with systems less 
powerful. As one might imagine, the effects on young people is simply 
struggle or a need to leave their home base to find a life outside of 
the community to fill that loss. In all cases, self-identity suffers 
and, in turn, the community suffers, and lastly, our environments 
suffer.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                       to Jennifer Hardin, Ph.D.
    Question 1. Many tribes are facing additional barriers due to state 
regulations. Indigenous peoples who have practiced subsistence fishing 
and hunting for generations are experiencing large fines for not 
abiding by state regulations and a seizure of goods and supplies 
necessary for subsistence harvesting at the hands of the state. How can 
the Federal Government assume an active role in protecting the 
sovereignty of native peoples and continuing this tradition and what 
would tribal co-management over subsistence activities look like?
    Answer. Title VIII of the Alaska National Interest Lands 
Conservation Act (ANILCA) dictates that the subsistence harvest of fish 
and wildlife is the priority consumptive use on Federal public lands in 
Alaska. This means that in the event that there are not enough 
resources to meet the harvest demands of all users, only Federally-
qualified rural residents (both Native and non-Native) may hunt or fish 
on Federal lands under Federal regulations, and that Federal public 
lands are closed to all other consumptive uses. In these instances, 
state regulations no longer apply on Federal public lands. While some 
subsistence users may find this type of dual management system to be 
confusing at times, it can also be quite protective of the hunting and 
fishing practices that are central to the Native and non-Native rural 
subsistence way of life in Alaska by ensuring that these practices can 
continue on Federal public lands even if state mandates or priorities 
differ. The Federal Subsistence Board's charge is to act on behalf of 
rural subsistence users in providing for the subsistence priority on 
Federal public lands, per the ANILCA mandate. The State of Alaska is 
not obligated under the law to carry out this same mandate.
    ANILCA outlines the regulatory decisionmaking structure for 
subsistence harvest on Federal public lands in Alaska. Federal 
subsistence regulatory decisions are the responsibility of the 
Secretaries of the Interior and Agriculture and the ten Subsistence 
Regional Advisory Councils. Subsistence Regional Advisory Councils are 
composed of representatives who are knowledgeable about subsistence 
issues in their respective regions and are appointed by the 
Secretaries. Many Regional Advisory Council members are Alaska Native.
    The Secretaries have delegated regulatory decisionmaking authority 
related to the subsistence take of fish and wildlife to the Federal 
Subsistence Board (Board). In turn, the Board is statutorily required 
to defer to the recommendations of the Subsistence Regional Advisory 
Councils unless recommendations are not supported by substantial 
evidence, violate recognized principles of fish and wildlife 
conservation, or would be detrimental to the satisfaction of 
subsistence needs. The subsistence decisionmaking structure outlined in 
ANILCA is designed to ensure that the Federal Subsistence Management 
Program is characterized by a bottom-up approach that is primarily 
driven by the concerns of the rural Alaskans who will be directly 
affected by Board decisions.
    Currently, ``co-management'' is not defined in relation to the 
subsistence provisions contained in Title VIII of ANILCA. It is assumed 
that any future proposed Federal subsistence co-management structures 
would conform to the provisions of Title VIII of ANILCA, which define 
the subsistence priority for rural Alaskans throughout the state.

    Question 1a. How could we balance state interest to protect 
endangered species with tribal rights to subsistence activities?
    Answer. The Federal Subsistence Management Program in Alaska 
provides a good model for balancing subsistence opportunity with 
conservation of healthy populations of fish and wildlife in order to 
ensure the continuation of the subsistence way of life for future 
generations. Striking this balance requires close collaboration between 
rural subsistence users, the Federal Subsistence Board, Federal land 
management agencies and the State of Alaska. In accordance with Section 
815(4) of ANILCA, the endangered species program is not administered by 
the Federal Subsistence Management Program. At this time, no 
subsistence resources managed by the Federal Subsistence Management 
Program are listed as endangered species.

    Question 2. One of the prominent barriers to subsistence activities 
is the harmful role of climate change in natural ecosystems in Indian 
Country. We know that when lakes and other natural resources are 
polluted and communities are unable to harvest resources, they lose an 
important source of nutrition. Have you collected any data or research 
on the relationship between environmental pollution and native health 
in communities that practice subsistence fishing, hunting, or farming? 
If so, can you talk about how native health is impacted by climate 
change?
    Answer. This is an important issue of concern for subsistence users 
in rural Alaska but it is not an area of research that is within the 
purview of the Federal Subsistence Management Program. The Federal 
Subsistence Management Program provides funding for fisheries research 
through the Fisheries Resource Monitoring Program. Research conducted 
through that program examines, among other issues, the health of 
subsistence fisheries throughout Alaska, including the impact of 
changing environmental conditions on subsistence fish populations.
    The Office of Subsistence Management also administers the Partners 
for Fisheries Monitoring Program (Partners Program) on behalf of the 
Federal Subsistence Management Program. The Partners Program is a 
competitive grant program directed at providing funding for biologist, 
social scientist, and educator positions in Alaska Native and rural 
organizations with the intent of building capacity in rural Alaska to 
actively participate in Federal subsistence management.

    Question 3. I understand that Native populations are the most 
vulnerable group to climate change and that environmental pollution of 
tribal lands and resources generally comes from surrounding businesses, 
plants, and communities that do not belong to the tribal community. 
What can we do to protect tribal lands from surrounding environmental 
pollution and what course of action can tribes or the government take 
against organizations, communities, or individual who contaminate 
tribal lands?
    Answer. The situation in Alaska is unique in that more than 50 
percent of lands within the state are managed by the Federal government 
and subject to the subsistence priority afforded by Title VIII of the 
Alaska National Interest Lands Conservation Act (ANILCA). In accordance 
with Section 810 of ANILCA, Federal agencies are required to evaluate 
and minimize the potential effects of other uses or activities on 
subsistence uses prior to authorizing such actions on Federal lands. 
All other lands within the State of Alaska, including those belonging 
to Alaska Native Claims Settlement Act (ANCSA) Corporations, fall under 
state jurisdiction.

    Question 3a. How can traditional knowledge help address climate 
change impacts facing tribes? Do you think western science takes your 
suggestions seriously?
    Answer. The Federal Subsistence Management Program recognizes the 
critical importance of local and traditional ecological knowledge in 
informing decisions about subsistence harvest by rural Alaskans. The 
Federal Subsistence Board (Board) relies on the knowledge shared by 
local people and strives to consider it equitably alongside of western 
scientific knowledge. Because traditional ecological knowledge is 
obtained through systematic observations and repeated interactions with 
the natural world over long spans of time, it can be particularly 
useful in assessing the impacts of environmental change on the natural 
resources that subsistence users depend upon. Traditional ecological 
knowledge often provides a spatial and temporal scale that is otherwise 
unavailable to resource managers.
    The Board strives to obtain traditional ecological knowledge from a 
variety of sources in an effort to inform management decisions. All 
staff analyses of wildlife and fishery proposals to change Federal 
subsistence regulations, make customary and traditional use 
determinations, and rural determination proposals incorporate available 
traditional ecological knowledge to help the Board better understand 
subsistence resources and the people who depend on them. The Federal 
Subsistence Management Program consults with local federally recognized 
tribes on proposals that might impact their members, and incorporates 
the knowledge learned during those consultations. The Subsistence 
Regional Advisory Council system provides a direct conduit of 
traditional ecological knowledge in the decisionmaking process. The 
Board considers traditional ecological knowledge along with biological 
and sociocultural data when making decisions about the take of fish and 
wildlife on Federal public lands.

    Question 4. A large part of our discussion today has revolved 
around the numerous barriers to subsistence activities, particularly 
focusing on the role of the Federal Subsistence Board in management. 
However, we know that for native communities subsistence activities are 
an important source of cultural identity and heritage. We know that 
cultural connections including traditional values, customs, activities, 
and ceremonies serve as protective factors in the lives of tribal youth 
by discouraging delinquent behavior, encouraging academic success, and 
alleviating various stressors on native youth. Could you talk about the 
emotional, spiritual, and cultural toll these barriers to subsistence 
activities have had on native communities, specifically related to 
native youth?
    Answer. In Title VIII of ANILCA, Congress found that the 
continuation of the subsistence way of life by rural Alaskans is 
essential to their physical, economic, traditional, cultural and social 
existence. Title VIII established a priority for the taking of fish and 
wildlife for nonwasteful subsistence purposes on Federal public lands 
in Alaska over the taking of those resources for other purposes. In 
ANILCA, Congress recognized the vital relationships between people, 
land and cultural identity that are reflected in subsistence hunting 
and fishing practices in rural Alaska. These practices are part of a 
community's cultural, social, economic, and nutritional wellbeing. The 
Federal Subsistence Management Program's focus on the sociocultural 
aspects of subsistence activities distinguishes it from other hunting 
and fishing programs.
    The Federal Subsistence Management Program tries to facilitate the 
continuation of cultural practice associated with the subsistence way 
of life in rural Alaska by supporting culture camps designed to pass on 
important cultural knowledge to future generations, providing for 
community harvest systems that are organized and managed by communities 
according to customary and traditional practices and offering the 
ability to harvest fish or wildlife outside of established season or 
harvest limits, for food in traditional religious ceremonies, including 
potlaches.
    The Federal Subsistence Management Program regularly conducts 
outreach to connect with rural youth. For example, the program offers 
presentations and workshops within rural village schools in conjunction 
with Subsistence Regional Advisory Council meetings and often holds 
those meetings within village schools so youth may attend and 
participate. Engagement with rural youth during meetings allows for 
council members to interact and influence the next generation, securing 
the subsistence way of life for the future. The Federal Subsistence 
Management Program regularly holds an art contest focusing on wildlife 
and fish related subsistence activities for all students in Alaska in 
grades K-12.
    The Federal Subsistence Board, Subsistence Regional Advisory 
Councils, and the Office of Subsistence Management will continue to 
seek additional mechanisms to increase youth involvement in the Federal 
Subsistence Management Program to support generations of conservation 
leaders. These future leaders will protect the continuation of the 
opportunity for subsistence uses on federal lands, which is essential 
to the physical, traditional, cultural, and social existence of rural 
residents in Alaska. This unique existence has withstood natural, 
institutional, and social challenges for many generations.
                                 ______
                                 

*RESPONSES TO THE FOLLOWING QUESTIONS WERE NOT AVAILABLE AT THE TIME 
        THIS HEARING WENT TO PRINT*

     Written Questions Submitted by Hon. Catherine Cortez Masto to 
                           Hon. Roy B. Brown
    Question 1. Many tribes are facing additional barriers due to state 
regulations. Indigenous peoples who have practiced subsistence fishing 
and hunting for generations are experiencing large fines for not 
abiding by state regulations and a seizure of goods and supplies 
necessary for subsistence harvesting at the hands of the state. How can 
the federal government assume an active role in protecting the 
sovereignty of native peoples and continuing this tradition and what 
would tribal co-management over subsistence activities look like?
    How could we balance state interest to protect endangered species 
with tribal rights to subsistence activities?

    Question 2. One of the prominent barriers to subsistence activities 
is the harmful role of climate change in natural ecosystems in Indian 
Country. We know that when lakes and other natural resources are 
polluted and communities are unable to harvest resources, they lose an 
important source of nutrition?

    Have you collected any data or research on the relationship between 
environmental pollution and native health in communities that practice 
subsistence fishing, hunting, or farming?

    If so, can you talk about how native health is impacted by climate 
change?

    Question 3. I understand that Native populations are the most 
vulnerable group to climate change and that environmental pollution of 
tribal lands and resources generally comes from surrounding businesses, 
plants, and communities that do not belong to the tribal community. 
What can we do to protect tribal lands from surrounding environmental 
pollution and what course of action can tribes or the government take 
against organizations, communities, or individual who contaminate 
tribal lands?

    How can traditional knowledge help address climate change impacts 
facing tribes? Do you think western science takes your suggestions 
seriously?

    Question 4. A large part of our discussion today has revolved 
around the numerous barriers to subsistence activities, particularly 
focusing on the role of the Federal Subsistence Board in management. 
However, we know that for native communities subsistence activities are 
an important source of cultural identity and heritage. We know that 
cultural connections including traditional values, customs, activities, 
and ceremonies serve as protective factors in the lives of tribal youth 
by discouraging delinquent behavior, encouraging academic success, and 
alleviating various stressors on native youth. Could you talk about the 
emotional, spiritual, and cultural toll these barriers to subsistence 
activities have had on native communities, specifically related to 
native youth?

                                  <all>
</pre></body></html>
